•

Key IG Accomplishments During this Reporting Period


RESULTS IN KEY CATEGORIES

SUMMARY OF AUDIT ACTIVITIES
Reports Issued...........................................................................................................52

Monetary Benefits
       Recommendations Made on Funds Put to Better Use..........................$4.2 billion
       Achieved Monetary Benefits (Funds Put to Better Use).....................$195 million

SUMMARY OF INVESTIGATIVE ACTIVITIES1
Total Returned to the U.S. Government..........................................................$1.9 billion

        Civil Settlements..............................................................................$111 million

        Civil Judgments.................................................................................$1.8 billion

        Administrative Recoveries2...............................................................$5.3 million

        Recovered Government Property.................................................$107 thousand

Investigative Cases

        Indictments...................................................................................................159

        Convictions...................................................................................................122

        Suspensions..................................................................................................112

        Debarments....................................................................................................40


Administrative Investigations
Cases Received.......................................................................................................506

Cases Closed...........................................................................................................432
       Department of Defense
      Senior Official Investigations.........................................................................153
                    Inspector General
      Reprisal Cases..............................................................................................279

                                                                                                                                    400 Army Navy Drive
SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES                                                                                        Arlington, VA 22202-4704
Existing and Proposed Regulations Reviewed..........................................................148
Evaluation Reports Issued...........................................................................................4                  www.dodig.mil
Inspector General Subpoenas Issued.......................................................................199

SUMMARY OF INTELLIGENCE ACTIVITIES                                                                                              Defense Hotline 1.800.424.9098
Intelligence Reports Issued..........................................................................................4

SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES
Assessment Reports Issued.........................................................................................1

SUMMARY OF DEFENSE HOTLINE ACTIVITIES
Contacts...............................................................................................................7,965

      Cases Opened...........................................................................................1,141

      Cases Closed.............................................................................................1,026





1 Includes investigations conducted jointly with other law enforcement organizations.
 
 

2 Includes contract cost adjustments, military non-judicial punishments, and contractor disclosures.
 
 

	
	       	   Message from the Inspector General
                            I am proud to present the Department of Defense Inspector General Semiannual Report to
                            Congress for the reporting period October 1, 2009 to March 31, 2010. We have been diligently
                            working on behalf of the warfighters and taxpayers to identify fraud, waste, and abuse and
                            improve the efficiency and effectiveness of the Department’s operations and programs.
                               During this reporting period, we continued directing our resources towards areas of greatest
                            risk and challenge for the Department by conducting audits, investigating criminal activity, and
                            evaluating key programs and operations. For example, we performed 61 audits, evaluations,
                            intelligence reviews, and assessments. In addition, the Defense Criminal Investigative Service,
                            working closely with other law enforcement agencies, was responsible for returning $1.9 billion
                            in fines, restitutions, and recoveries to the U.S. government. Our investigations resulted in
                            159 indictments, 122 convictions, 112 suspensions, and 40 debarments. Moreover, our auditors
    identified $4.2 billion of funds put to better use, and our Defense Hotline handled nearly 8,000 contacts.
             Independent oversight of the Department ensures public confidence and protects the warfighters. The
    Department is one of the largest and most complex enterprises in the world. It has a budget larger than most sovereign
    countries. The workforce itself is comprised of more than three million people, spread across thousands of facilities,
    and the Department has been engaged in military operations in Southwest Asia for nine years now, placing incredible
    stress on its personnel and equipment. The sheer size and scope of the Department’s operations makes our mission of
    providing oversight and driving change an enormous challenge.
             To accomplish this important mission, we work jointly with our counterpart agencies including the Army Audit
    Agency, the Naval Audit Service, the Air Force Audit Agency, the Army Criminal Investigation Command, the Naval
    Criminal Investigative Service, the Air Force Office of Special Investigations, and the Defense Contract Audit Agency.
    This report contains summaries of the accomplishments of these agencies.
             The Accomplishments of the DoD IG section highlights our achievements in providing oversight of Overseas
    Contingency Operations and DoD programs. Included among these are asset accountability, the Guam realignment,
    health care, Recovery Act projects, product substitution, and acquisitions and contract management.
             In Southwest Asia, the Department is involved in the largest wartime logistical operation since World War II.
    Consequently, one of our top priorities is asset accountability in Iraq and Afghanistan. As the Department realigns its
    presence in Southwest Asia, it is essential to account for and process DoD assets. We currently have several ongoing
    audits and oversight efforts in the area of asset accountability including the proper transfer, reset, or disposal of assets
    from military units, support staff, and contractors. We are also reviewing the supply support activities’ processes and
    procedures for receiving, disposition, and shipment of materiel.
             Another top priority is the U.S. Marine Corps realignment from Japan to Guam. We are leading the oversight
    of one of the largest movements of U.S. forces and assets. We will be monitoring the $10.27 billion budget for facility
    and infrastructure development while helping these forces maintain a robust military presence in the Asia-Pacific region.
             I want to express my appreciation for the achievements of all DoD IG employees and commend the military
    services and Defense agencies, and members of the oversight community on their accomplishments. We want to thank
    the service members, who inspire our work, for their service and sacrifice. We appreciate the continued support of the
    Congress and the Department as we work to promote accountability and continuous improvement of DoD programs
    and operations.




                                                       Gordon S. Heddell
�
                                                       Inspector General
�
Department	of	Defense
Inspector	General
Semiannual	Report	to	the	Congress
October	1,	2009	to	March	31,	2010




                  Inspector	General	Act	of	1978,


                            as	amended
	

                  Title	5,	U.S.	Code,	Appendix	2

	

    Purpose	and	establishment	of	Offices	of	Inspector	General;


               departments	and	agencies	involved



        In	order	to	create	independent	and	objective	units--

       (1)	to	conduct	and	supervise	audits	and	investigations


            relating	to	the	programs	and	operations	of	the


                establishments	listed	in	section	12(2);



    (2)	to	provide	leadership	and	coordination	and	recommend


policies	for	activities	designed	(A)	to	promote	economy,	efficiency,


 and	effectiveness	in	the	administration	of,	and	(B)	to	prevent	and


   detect	fraud	and	abuse	in	such	programs	and	operations;	and



 (3)	to	provide	a	means	for	keeping	the	head	of	the	establishment


  and	the	Congress	fully	and	currently	informed	about	problems


       and	deficiencies	relating	to	the	administration	of	such


         programs	and	operations	and	the	necessity	for	and


                   progress	of	corrective	action.


	
	
             Table of Contents
	
                              
	
    I. DOD IG SUMMARY AND MISSION STATEMENT...........................................1



    	            A.		BACKGROUND....................................................................................................2


    	            B.		HIGHLIGHTS	AND	OUTCOMES........................................................................5	
	
    II. ACCOMPLISHMENTS OF DOD IG......................................................................13



    	            A.		OVERSIGHT	OF	OVERSEAS	CONTINGENCY	OPERATIONS......................14		

    																									 1.		FORCE	PROTECTION	AND	SAFETY..................................................15


    	            	            2.		AFGHAN	SECURITY	FORCES............................................................17	


    	            	            3.		DRAWDOWN	IN	IRAQ.........................................................................19


    	            	            4.		FRAUD	AND	CORRUPTION................................................................20


    	            	            5.		SOUTHWEST	ASIA	CONTRACTS.......................................................22


    	            	            6.		INFORMATION	OPERATIONS.............................................................25


    	            B.		DOD	PROGRAMS...............................................................................................26


    	            	            1.		HEALTH	CARE......................................................................................26


    	            	            2.		ACQUISITION	AND	CONTRACTING.................................................28


    	            	            3.		FINANCIAL	MANAGEMENT...............................................................32


    	            	            4.		FRAUD	AND	CORRUPTION.................................................................34


    	            	            5.		INFORMATION	SECURITY	AND	ASSURANCE................................35


    	            	            6.		HOMELAND	SECURITY/TERRORISM..............................................36


    	            	            7.		WHISTLEBLOWER	PROTECTION	AND	SENIOR	OFFICIALS........37


    III. OTHER DEPARTMENT OF DEFENSE OVERSIGHT.............................................39 

                 A.		ARMY...................................................................................................................40


    	            	            1.		ARMY	AUDIT	AGENCY........................................................................40


    	            	            2.		ARMY	CRIMINAL	INVESTIGATION	COMMAND............................48


                 B.		NAVY...................................................................................................................50


                              1.		NAVAL	AUDIT	SERVICE......................................................................50


    	            	            2.		NAVAL	CRIMINAL	INVESTIGATIVE	SERVICE................................54


    	            C.		AIR	FORCE.........................................................................................................56


    	            	            1.		AIR	FORCE	AUDIT	AGENCY...............................................................56


    	            	            2.		AIR	FORCE	OFFICE	OF	SPECIAL	INVESTIGATIONS......................65


    IV. CONGRESSIONAL TESTIMONIES, BRIEFINGS, AND REQUESTS...................69



    V. DEFENSE HOTLINE...............................................................................................71



    VI. LIST OF APPENDICES.............................................................................................73



    	            A.		AUDIT,	INSPECTION,	AND	EVALUATION	REPORTS	ISSUED...................74


    	            B.		REPORTS	CONTAINING	POTENTIAL	MONETARY	BENEFITS.................83


    	            C.	 	FOLLOW-UP	ACTIVITIES...............................................................................84


    	            D.		CONTRACT	AUDIT	REPORTS	ISSUED..........................................................86


    	            E.		STATUS	OF	ACTION	ON	POST-AWARD	CONTRACTS...............................87


    	            F.	 	 STATUS	 OF	 REPORTS	 WITH	 ACTION	 PENDING......................................88


    	            G.		SIGNIFICANT	OPEN	RECOMMENDATIONS...............................................125


    	            H.		ACRONYMS.....................................................................................................127


    	            	
                                  DoD IG Reporting Requirements
                                  The	Inspector	General	Act	of	1978,	as	amended,	states	that	each	inspector	general	shall	no	later	than	
                                  April	 30	 and	 October	 31	 of	 each	 year	 prepare	 semiannual	 reports	 summarizing	 the	 activities	 of	 the	
                                  office	during	the	immediately	preceding	six-month	periods	ending	March	31	and	September	30.		

                                  The	 IG	 Act	 specifies	 reporting	 requirements	 for	 semiannual	 reports.	 	 The	 requirements	 are	 listed	
                                  below	and	indexed	to	the	applicable	pages.


 IG	Act
                                                      Reporting	Requirements                                                           Page
References
Section	4(a)(2)   “review	existing	and	proposed	legislation	and	regulations...make	recommendations...”                                   N/A

Section	5(a)(1)   “description	of	significant	problems,	abuses,	and	deficiencies...”	                                                   13-38

Section	5(a)(2)   “description	of	recommendations	for	corrective	action...with	respect	to	significant	problems,	abuses,	                13-38
                  and	deficiencies...”		
Section	5(a)(3)   “identification	of	each	significant	recommendation	described	in	previous	semiannual	reports	on	which	 125-126
                  corrective	action	has	not	been	completed...”
Section	5(a)(4)   “a	summary	of	matters	referred	to	prosecutive	authorities	and	the	prosecution	and	convictions	which	     13-38
                  have	resulted.”
Section	5(a)(5)   “a	summary	of	each	report	made	to	the	[Secretary	of	Defense]	under	section	6(b)(2)...”	instances	         N/A
                  where	information	requested	was	refused	or	not	provided”
Section	5(a)(6)   “a	listing,	subdivided	according	to	subject	matter,	of	each	audit	report,	inspection	report,	and	evalua- 74-83
                  tion	report	issued.”	showing	dollar	value	of	questioned	costs	and	recommendations	that	funds	be	put	
                  to	better	use.
Section	5(a)(7)   “a	summary	of	each	particularly	significant	report...”                                                   13-38

Section	5(a)(8)  “statistical	tables	showing	the	total	number	of	audit	reports,	inspection	reports,	and	evaluation	reports	               83
                 and	the	total	dollar	value	of	questioned	costs...”
Section	5(a)(9) “statistical	tables	showing	the	total	number	of	audit	reports,	inspection	reports,	and	evaluation	reports	                83
                 and	the	dollar	value	of	recommendations	that	funds	be	put	to	better	use	by	management...”
Section	5(a)(10) “a	summary	of	each	audit	report,	inspection	report,	and	evaluation	report	issued	before	the	com-                         84
                 mencement	of	the	reporting	period	for	which	no	management	decision	has	been	made	by	the	end	of	
                 reporting	period...”
Section	5(a)(11) “a	description	and	explanation	of	the	reasons	for	any	significant	revised	management	decision...”                       N/A

Section	5(a)(12) “information	concerning	any	significant	management	decision	with	which	the	Inspector	General	is	in	                     N/A
                 disagreement...”
Section	5(a)(13) “information	described	under	Section	05(b)	of	the	Federal	Financial	Management	Improvement	Act	                         N/A
                 of	1996...”	(instances	and	reasons	when	an	agency	has	not	met	target	dates	established	in	a	remedia-
                 tion	plan)
Section	5(b)(2) “statistical	tables	showing	the	total	number	of	audit	reports,	inspection	reports,	and	evaluation	reports	                85
                 and	the	dollar	value	of	disallowed	costs...”
Section	5(b)(3) “statistical	tables	showing	the	total	number	of	audit,	inspection,	and	evaluation	reports	and	the	dollar	                 85
                 value	of	recommendations	that	funds	be	put	to	better	use	by	management	agreed	to	in	a	management	
                 decision...”
Section	5(b)(4) “a	statement	with	respect	to	audit	reports	on	which	management	decisions	have	been	made	but	final	                     88-124
                 action	has	not	been	taken,	other	than	audit	reports	on	which	a	management	decision	was	made	within	
                 the	preceding	year...”
Section	8(f)(1) “information	concerning	the	number	and	types	of	contract	audits...”                                                       86
DoD IG Summary & 

Mission Statement
�

Serving the Congress and the Department
Department of Defense Inspector General is an independent, objective agency within the U.S. Department of Defense
that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving the warfighter
and the taxpayer by conducting audits, investigations, inspections, and assessments that result in improvements to
the Department. DoD IG provides guidance and recommendations to the Department of Defense and the Congress.



                                                 MISSION
�
            Promote integrity, accountability, and improvement of Department of Defense personnel,
           programs, and operations to support the Department’s mission and serve the public interest.


                                                   VISION
�
                           One professional team strengthening the integrity, efficiency,
                                and effectiveness of the Department of Defense.



                                        CORE VALUES
	
                              Accountability • Integrity • Efficiency
	

           SERVING THE WARFIGHTER                                        SERVING THE TAXPAYER




              Goal 1                                 Goal 2                                    Goal 3
Improve the economy, efficiency, Eliminate fraud, waste, and abuse in Ensure the efficiency and effectiveness 

and effectiveness of Department of the programs and operations of the of DoD IG products, processes, and 

Defense personnel, programs, and Department of Defense.               operations.
�
operations.
�



2
                                                                                       Semiannual Report to the Congress
 
    Department of Defense
    Where We Are Today

                                                ADDRESSING DOD CHALLENGES




     DoD IG performs audits, investigations, inspections, and assessments
     to support the Department’s mission and goals to:
       •	 Successfully conduct Overseas Contingency Operations
       •	 Reorient capabilities and forces
       •	 Reshape the Defense enterprise
       •	 Develop a 21st century total force
       •	 Achieve unity of effort

     DoD IG is focusing our work efforts on preventing and detecting
     fraud, waste, and abuse; and improving efficiency and effectiveness in
     the critical areas for the Department, such as:
       •	 Operations in Southwest Asia
       •	 Health and safety of service members and DoD employees
       •	 Acquisitions and contracting
       •	 Financial management
       •	 Recovery Act spending
       •	 Nuclear enterprise
       •	 Information security and assurance
       •	 Joint warfighting and readiness




4
                                                                              Semiannual Report to the Congress
                                                         Highlights & Outcomes �

                                                         Asset Accountability

                                                        •	 Accountability related to the drawdown in Iraq
                                                        •	 Process for transfer, reset, or disposal of assets

                                                         Guam Realignment

                                                        •	 Oversight Plan

   Looking Forward                                      •	 Annual Report

                                                         Recovery Act Funds
   DoD IG is focusing its resources and oversight
   efforts in critical areas for the Department to
   improve its programs and operations. Independent     •	 Predictive analytics modeling approach
   oversight of the Department is essential to          •	 Military construction and maintenance projects
   ensure the public’s confidence and to protect the
   warfighters.
                                                         Product Substitution

                                                         •	 Military operations and DoD’s supply chain
   The complete IG Summary of Management and
                                                         •	 Trafficking in counterfeit goods
   Performance Challenges for FY 2009 is published
   with the DoD Agency Financial Report and can          Contract Oversight & Fraud
   be viewed at www.defenselink.mil/comptroller/afr.
                                                         •	 Procurement of weapons systems
                                                         •	 DoD acquisition workforce




                                                       To learn more about the Department of Defense
                                                       Inspector General, please visit us on the Web at
                                                       www.dodig.mil




                                                                                                                5
October 1, 2009 to March 31, 2010
    Asset Accountability
    Asset accountability is essential, whether for assets supporting
    U.S. and coalition efforts in Iraq or Afghanistan or whether
    for goods provided to Iraq or Afghan forces. The Department
    has been engaged in military operations in Southwest Asia for
    nine years, which has resulted in billions of dollars in assets
    deployed to support operations. As DoD realigns its presence
    in Southwest Asia, adequately accounting for and processing
    of the assets in Southwest Asia is essential. In December
    2008, the Commander, U.S. Central Command proactively
    engaged the Defense oversight community requesting DoD
    IG to lead a planning effort with the service audit agencies
    to prepare a comprehensive approach to ensure U.S.-funded
    assets are properly accounted for and that there is a process
    for the proper transfer, reset, or disposal of these assets from
    military units, support staff, and contractors as the footprint
    reduces. DoD IG and the service audit agencies continue
    their reviews of asset accountability matters in Southwest
    Asia.
             In Afghanistan, DoD IG found that the Theater
    Property Book Office could not account for all theater-
    provided equipment purchased in Afghanistan. In a joint
    review, DoD IG and Department of State OIG found
    that neither DoS nor the contractor maintained a current
    inventory list of property paid for by the U.S. government
    and could verify only 27 percent (34 out of 123 items) of the
    property randomly sampled at three of the Afghan National
    Police training centers. At one location, the team was unable
    to locate 98 percent of non-sensitive items. These items were
    reportedly lost in floods. Lacking adequate property records
    creates an environment conducive to theft and abuse.
            DoD IG currently has several ongoing audits
    regarding asset accountability in Southwest Asia.
    Nine memorandums were issued in conjunction
    with one audit “Controls over the Accountability
    and Disposition of Government-Furnished Property
    in Iraq,” so resources could be effectively allocated
    to improve accountability over GFE, where needed.
    Additionally, DoD IG is conducting two other audits
    in Kuwait regarding the drawdown in Iraq; one project
    pertains to the proper receipt, inspection, coding, and
    disposition of equipment at the Defense Reutilization
    and Marketing Office in Kuwait, and the other project
    pertains to the proper reutilization and disposition
    of equipment at the Retro Sort, General Supply
    Warehouse, and Theater Redistribution Center.



6
                                    Semiannual Report to the Congress
  Guam Realignment
   The Defense Policy Review Initiative, created by the              Report on Guam Realignment
   Secretary of State and Secretary of Defense with their            DoD IG issued the first annual report on Guam realignment
   Japanese counterparts, serves as the framework for the future     on February 1, 2010. Public Law 111-84, Section 2835,
   of U.S. force structure in Japan and the U.S. Marine Corps        “Interagency Coordination Group of Inspectors General
   realignment to Guam.                                              for Guam Realignment,” requires the Inspector General
            The Guam realignment will be one of the largest          of the Department of Defense, as the chairperson of
   movements of U.S. forces and their associated dependents          the Interagency Coordination Group, to submit to the
   and military assets in decades while helping to maintain          congressional defense committees, the Secretary of Defense,
   a robust military presence in the Asia-Pacific region.            and the Secretary of the Interior a report summarizing, for
   Expected construction costs for facility and infrastructure       the preceding calendar year, the activities of the Interagency
   development requirements relating to the realignment are          Coordination Group.
   approximately $10.27 billion, of which the government of                     This first report identified the following programs
   Japan has agreed to provide up to $6.09 billion.                  and operations funded with appropriated amounts or funds
                                                                     otherwise made available for military construction on Guam
   Oversight of Guam Realignment                                     in calendar year 2009.
   Section 2835 of the National Defense Authorization Act for          •		 DoD obligated approximately $60.3 million and
   FY 2010 designated the Inspector General of the Department              expended approximately $35.7 million. Other federal
   of Defense as the chairman of the Interagency Coordination              agencies obligated approximately $7.8 million and
   Group of Inspectors General for Guam Realignment.                       expended approximately $3.4 million.
              In the third quarter of FY 2010, DoD IG, on behalf       •		 Government of Japan provided revenues valued at
   of the members of the Interagency Coordination Group,                   $336 million with approximately $369,000 in interest
   will issue the oversight plan for Guam realignment. This                associated with those revenues.
   plan will include critical oversight efforts such as:               •		 DoD identified 102 projects and programs with costs
     •		 Overseeing and accounting for the obligation and                  totaling approximately $17.5 million with an estimated
         expenditure of such funds.                                        completion cost of approximately $36.1 million. Other
     •		 Monitoring and reviewing construction activities                  federal agencies identified four projects and programs
         funded by such funds.                                             with costs totaling approximately $7.7 million with an
     •		 Monitoring and reviewing contracts funded by such                 estimated completion cost of approximately $201.2
         funds.                                                            million.
     •		 Monitoring and reviewing the transfer of such funds           •		 DoD identified operating expenses of approximately
         and associated information between and among                      $19.8 million. Other federal agencies identified
         departments, agencies, and entities of the United States          operating expenses of approximately $666,000.
         and private and nongovernmental entities.                     •		 DoD and other federal agencies identified 15 contracts
     •		 Maintaining of records on the use of such funds to                and 6 grants with obligations of approximately $53.1
         facilitate future audits and investigations of the use of         million.
         such funds.
     •		 Monitoring and reviewing the implementation of              Site Visits With Senior Leadership
         the Defense Policy Review Initiative relating to the        Inspector General Gordon S. Heddell visited the Pacific
         realignment of military installations and the relocation    area and met with headquarters elements of U.S. Pacific
         of military personnel on Guam.                              Command and U.S. Forces Japan, and the military leaders
                                                                     at military installations in Okinawa, Japan, and Guam.
                                                                     Additionally, the Inspector General met with Guam
                                                                     Lieutenant Governor Michael Cruz to discuss issues and
                                                                     concerns the citizens of Guam may have in regards to the
                                                                     transfer of U.S. forces from Okinawa to Guam.




                                                                                                                                      7
October 1, 2009 to March 31, 2010
    Recovery Act Funds
    DoD IG noted in the last Semiannual Report that DoD’s
    execution of the $12 billion in American Recovery and
    Reinvestment Act of 2009 (Public Law 111-5) funds was not
    progressing as quickly as the Department had planned, and
    much of the spending and actual work on the projects would
    not occur until FY 2010. DoD military and the U.S. Army
    Corps of Engineers Civil Works Recovery Act obligations
    and expenditures have increased through the first 20 weeks
    of FY 2010.
             Although DoD and USACE Recovery Act
    obligations have increased at a slower rate, expenditures
    have increased at a faster rate when compared to the rates
    of obligations and expenditures for the last 20 weeks of FY
    2009.
             As of March 31, 2010, DoD obligated a total of
    62.7 percent of the $7.4 billion of appropriated Recovery
    Act funds and expended a total of 18.7 percent of the funds.
    As of the same date, USACE had obligated a total of 75.1
    percent of the $4.6 billion of appropriated Recovery Act
    funds for civil works projects and expended 24.7 percent of
    the appropriated funds.
             To date, DoD IG has focused audit oversight of
    Recovery Act funds by using a predictive analytics modeling
    technique to select DoD projects. Factors such as type of
    project, place of performance, dollar value, and number           •	Funds were used for authorized purposes.
    of projects in a district or location were identified that        •	Projects funded avoided unnecessary delays and cost
    may be correlated with different levels of risk. Using the          overruns.
    factor weights, projects were ranked as to the likelihood of
    improper performance.
                                                                    Repair of Aircraft Parking Apron at
             DoD IG has applied this analysis technique to select
                                                                    Naval Station Norfolk
    military construction and high-dollar value operations and
                                                                    DoD IG noted Naval Facilities Engineering Command
    maintenance projects for review. DoD IG also used predictive
                                                                    Mid-Atlantic officials adequately justified and supported
    analytics to select USACE Civil Works and National Guard
                                                                    repair and reconstruction for some sections of the aircraft
    projects focusing on specific districts and states.
                                                                    parking apron, taxiways, and heliport apron, totaling about
             The primary responsibility for ensuring that
                                                                    $18.7 million in costs. However, other sections of the Repair
    Recovery Act funds are properly expended rests with the
                                                                    Aircraft Parking Apron project, valued at about $24.9
    Department. DoD IG is focusing audit efforts on overall
                                                                    million, were not properly planned or scoped to ensure
    management oversight processes and challenges.
                                                                    appropriate use of Recovery Act funds.
             Specific DoD processes reviewed for effectiveness
                                                                             As a result, DoD did not have reasonable assurance
    include processes for providing oversight of Recovery
                                                                    Recovery Act funds were used appropriately. The Assistant
    Act contracts to ensure they are meeting key Office of
                                                                    Secretary of the Navy (Financial Management and
    Management and Budget accountability objectives,
                                                                    Comptroller) stated that the Department of the Navy has
    including DoD oversight on whether:
                                                                    taken actions to reduce the scope of the project in accordance
      •	Funds were awarded and distributed in a prompt, fair,
                                                                    with DoD IG recommendations and the associated funds
        and reasonable manner (the extent of competition).
                                                                    have been realigned for other Recovery Act projects.
      •	Recipients and uses of funds were transparent to the
                                                                    (Report No. D-2010-RAM-003)
        public and reported in an accurate and timely manner.




8
                                                                                                   Semiannual Report to the Congress
  Repair Air Traffic Control Building                            quality errors and corrective actions taken. 

  118, Naval Air Station Jacksonville                                      The purpose of the recipient reporting reviews is to 

  DoD IG concluded that a Navy repair air traffic control        allow DoD components to identify material omissions and 

  tower project was a valid requirement, and DoD had             significant recipient reporting errors and to notify federal 

  reasonable assurance that the use of Recovery Act funds        contract, grant, and partnership agreement recipients of the 

  was appropriate for the project. (Report No. D-2010-           need to make appropriate and timely changes. In addition, 

  RAM-004)                                                       DoD IG provided engineering support of Recovery Act 

                                                                 audits by conducting technical assessments to determine
                                                                 whether justifications and technical requirements were
  DoD’s Recovery Act Initial Data
                                                                 adequately planned to ensure the appropriate use of
  Quality Review Implementation                                  Recovery Act funds.
  DoD IG concluded that DoD did not have a well-defined                    As of the end of this reporting period, DCIS
  process to perform limited data quality reviews intended       initiated eight investigations involving Recovery Act funds.
  to identify material omissions and/or significant reporting    DCIS is conducting a majority of these investigations in
  errors and to notify the recipients of the need to make        conjunction with one or more military criminal investigative
  appropriate and timely changes. DoD IG also concluded          organizations:       U.S. Army Criminal Investigation
  that DoD did not have specific policies and procedures to      Command’s Major Procurement Fraud Unit, Naval
  perform these tasks. (Report No. D-2010-RAM-002)               Criminal Investigative Service, and the Air Force Office of
                                                                 Special Investigations. These Recovery Act investigations
  USACE Data Quality Review Processes                            involve allegations of procurement fraud, conflict of
  for Civil Works Programs                                       interest, and program management irregularities. DoD IG
  DoD IG noted that USACE had developed processes to             is working closely with the Department of Justice to ensure
  perform limited data quality reviews for its Civil Works       that Recovery Act cases are prosecuted, when appropriate.
  Programs and took steps to inform recipients of Recovery                 In addition to investigating allegations of fraud,
  Act funds of the requirement to register and submit            waste, and abuse, DoD IG implemented a Recovery Act
  the required reports. As of October 21, 2009, USACE            Training and Outreach initiative to educate federal, state,
  reported that about one-third of all contract recipients had   and local employees, and contractors about the Recovery
  not registered, and recipients had not submitted a report      Act and the role of the Department in supporting the
  on about one-half of the contracts awarded. (Report No.        goals of the Act. As of the end of February 2010, DoD IG
  D-2010-RAM-001)                                                conducted 79 training sessions for approximately 1,400
                                                                 attendees. The attendees included military, civilian, and law
  Joint Oversight                                                enforcement personnel; contracting employees; attorneys;
  DoD IG also continues to execute a joint oversight approach    and others. The training sessions provided the attendees an
  with the service audit agencies to ensure maximum and          overview of the Recovery Act and DoD IG’s oversight role,
  efficient coverage of Recovery Act plans and implementation.   and covered fraud awareness and prevention as they relate to
  Consistent with the audit approach used by DoD IG, the         the Recovery Act.
  service auditors are focusing on the planning, funding,                  On January 7, 2010, DCIS hosted the first Recovery
  project execution, and tracking and reporting of Recovery      Act/Stimulus Funds working group meeting for investigators
  Act projects. As of March 31, 2010, the service audit          at DoD IG headquarters. The meeting was attended by 23
  agencies issued 44 Recovery Act-related audit reports. The     program personnel and senior managers from 14 Offices
  vast majority of the reports were published by the Air Force   of Inspectors General. The goals of the working group are
  Audit Agency.                                                  to offer the IG investigative community a forum to share,
            As part of joint efforts with the multi-agency       coordinate, and deconflict Recovery Act investigations and
  Recovery Accountability and Transparency Board, DoD IG         intelligence, and network to exchange ideas on proactive
  completed work and issued memoranda on two projects to         initiatives to detect fraud, waste, and abuse. Although the
  assess DoD and USACE controls over Recovery Act recipient      group is in its infancy, it plans to spearhead various initiatives
  reporting. DoD IG also reviewed portions of federal-wide       to promote better communication and collaborative efforts
  RATB reports covering the staffing and qualifications of the   among OIGs, RATB, and the Department of Justice to
  federal contracting and grants workforce used to implement     prevent, deter, and prosecute Recovery Act fraud and
  the Recovery Act and a report on recipient reporting data      corruption.


                                                                                                                                      9
October 1, 2009 to March 31, 2010
     Product Substitution
     DCIS supports DoD’s warfighting mission through timely,
     comprehensive investigations involving nonconforming
     products posing a risk to military operations and DoD’s
     supply chain. Nonconforming products not only disrupt
     readiness and waste economic resources, they could threaten
     the safety of military, government, and other end-users.
              Nonconforming products include any product or
     the component of a product not manufactured, assembled,
     tested, or inspected in accordance with the terms of contract    DoD Contractor Imprisoned for
     specifications or drawings, including military specifications.   Committing Aircraft Parts Fraud
     When nonconforming products are deliberately delivered           On February 9, 2010, a DoD contractor was sentenced to
     to DoD, mission-critical processes and capabilities can be       37 months incarceration, three years probation, and ordered
     severely impacted. As a core investigative priority, DCIS        to pay $1.3 million in restitution as a result of a July 22,
     investigates nonconforming product schemes including:            2009, guilty plea to fraud involving aircraft parts. The
        •	 Counterfeit                                                contractor conspired in a scheme with an unapproved parts
        •	 Substituted                                                manufacturer to supply various aircraft parts for commercial
        •	 Defective                                                  and military aircraft, including the Air Force E-3. The
        •	 Substandard                                                unapproved parts manufacturer primarily fabricated wing
     DCIS supports the development of a comprehensive DoD             components and represented them as “New Surplus,”
     strategy to address counterfeit parts issues. For example,       when in fact the parts were “Newly Manufactured” in the
     DCIS actively participates in the Defense Supply Center          manufacturer’s facility. The DoD contractor then submitted
     Columbus Counterfeit Material/Unauthorized Product               false documentation, which also misrepresented the true
     Substitution team. The center is the largest supplier of spare   nature of the parts, and sold the parts to the Air Force at an
     parts and end-use items for weapons systems, managing            inflated cost. For example, the DoD contractor purchased
     in excess of 2 million articles. The team is composed of an      a part from the unapproved parts manufacturer for $1,500,
     expert multi-disciplinary team including contract, legal,        but sold it to the U.S. Air Force for $14,000. This was a joint
     and quality specialists as well as a DCIS special agent          investigation with DCIS, the Department of Transportation
     with extensive experience in nonconforming product               Office of Inspector General, and the Air Force Office of
     investigations. With its clear focus and mission, the CM/        Special Investigations.
     UPS team has assisted DCIS in obtaining in excess of 100
     criminal indictments and convictions, more than $200
     million in civil recoveries, and more than $30 million in
                                                                      DoD Contractor That Allegedly
     directly returned parts to DSCC for future purchases.            Concealed Defective Computer
                                                                      Parts from the U.S. Government
     DoD Subcontractor Trafficking                                    Agrees to $3.5 Million Settlement
     in Counterfeit Goods                                             On October 29, 2009, a DoD contractor agreed to pay
     On January 25, 2010, a Defense subcontractor was sentenced       more than $3.5 million, with no admission of wrongdoing,
     to 30 months incarceration, 24 months probation, and             to resolve allegations that it provided defective computer
     ordered to pay $790,683 in restitution to Cisco following        platforms to the United States from 1999 through 2006.
     his guilty plea to trafficking in counterfeit goods. The         The contractor sold and installed computer platforms for
     investigation revealed that some of these counterfeit Cisco      both federal and state entities and allegedly knew modified
     computer products were sold to the New Mexico Army               transceiver chips could fail in their computer platforms,
     National Guard and DoD contractors such as Lockheed              yet the company continued to market, sell, and install the
     Martin, Northrop Grumman, and Boeing. This was a joint           platforms. The platforms were valued between $500,000
     investigation by DCIS, the Federal Bureau of Investigation,      and $2 million each. Of the total settlement, $2.9 million
     and Immigration and Customs Enforcement.                         was returned to the U.S. government and the remainder
                                                                      went to relators who brought forth the original allegations.



10
                                                                                                     Semiannual Report to the Congress
  This was a joint investigation with AFOSI, Army CID, and        manufacturer of aircraft components imported components
  Offices of Inspector General of the Department of Justice       for resale to the Boeing Company, the DoD prime contractor.
  and U.S. Postal Service.                                        Boeing advised the items were, in fact, components used in
                                                                  the manufacture of the F-18 Hornet.
  Falsification of Cost and Pricing                                         On November 4, 2009, the contractor was
  On October 6, 2009, a DoD contractor agreed to pay the          arraigned, entered a guilty plea to wire fraud in U.S. District
  United States $22.5 million to resolve civil allegations that   Court, and was sentenced to pay the United States a $2.5
  it had engaged in the falsification of cost and pricing data    million criminal fine and was placed on two years probation.
  resulting in overcharging the government on numerous                      On February 2, 2010, two former executives of
  DoD contracts beginning in the 1990s and continuing             the aircraft component manufacturer were convicted of
  until 2005. The settlement calls for the whistleblower          obstructing a federal audit and sentenced in U.S. District
  who initiated the lawsuit to receive $4.5 million of the        Court. The court sentenced one executive to 2 years
  government’s settlement. The contractor agreed to pay an        probation, 200 hours of community service, and a fine of
  additional $252,320 for expenses and attorneys’ fees to         $30,000; the other was sentenced to two years probation,
  the whistleblower. The original allegation indicated that a     200 hours of community service, and a fine of $15,000.




  Contract Oversight and Contract Fraud �


  DoD IG has identified risks and challenges in its audits,       addition, the rapid turnover of existing contracting officers
  assessments, and investigations associated with contracting     and contracting officer’s representatives results in a lack of
  and contract oversight in support of Overseas Contingency       continuity that also hinders the contracting process.
  Operations and the normal procurement of weapon systems,
  equipment, goods, and services.
           The size and skill of the DoD acquisition workforce
  has not kept pace with the growth of its contract oversight
  responsibilities. This oversight vulnerability has been
  accentuated during periods of rapid force buildup in
  Iraq of both U.S. and Iraqi forces. Effective oversight of
  the diverse functions performed under high-dollar value
  logistics and support contracts requires a sizeable cadre
  of highly trained government contracting personnel with
  specialized knowledge and significant acquisition expertise.
  Collective results of work conducted throughout Southwest       Contractor Disclosure Program
  Asia have led DoD IG to conclude that a relatively small        The Federal Acquisition Regulation requires federal
  number of inexperienced civilian and military contract          contractors and subcontractors to disclose to the Inspector
  administrators and support personnel were assigned far-         General violations of criminal law and the civil False Claims
  reaching responsibilities for an unreasonably large number      Act in connection with their contracts or face potential
  of contracts. In order to meet urgent warfighter needs in       suspension and/or debarment. Contractors made 73
  the Southwest Asia contingency operations, contracted           disclosures to the Contractor Disclosure Program during
  procurements have been expedited, often contributing to         this reporting period.
  less than prudent contracting practices.                                 DoD IG continues to draw down the DoD
           A survey of DoD contingency contracting                Voluntary Disclosure Program, which provided incentives
  challenges in Iraq, along with those in Afghanistan, points     for federal contractors to voluntarily disclose to government
  to a paucity of quality assurance in various phases of the      authorities potential civil or criminal violations. A total of
  contract management process. This appears to have been          21 disclosures remain open under the program. More than
  caused by a shortage of trained, in-country contracting         $470 million has been recovered under the program since
  officers and contracting officer’s representatives. In          its inception in 1986.


                                                                                                                                    11
October 1, 2009 to March 31, 2010
     Summary of Performance
� DoD IG Profile
     During this reporting period, DoD IG continued directing
     its resources towards those areas of greatest risk within the
     Department and addressed a variety of issues by conducting       Staffing and Budget
     audits of programs, investigating criminal activity, and         As of March 31, 2010, DoD IG workforce totaled
     assessing key operations. Overseas Contingency Operations        1,601 employees. The FY 2010 budget is $288.1
     oversight efforts focused on:                                    million.
     •	 Force protection and safety
�
     •	 Afghan Security Forces
�                                      Office Locations
     •	 Asset Accountability
�
                                                                      DoD IG is headquartered in Arlington, Va. Field
     •	 Drawdown in Iraq
�
     •	 Fraud and corruption
�                                        audit and investigation offices are located across
     •	 Southwest Asia contracts
�                                    the United States including California, Missouri,
     •	 Information operations
�                                      Georgia, Texas, Ohio, Pennsylvania, and Florida.
     DoD program oversight efforts focused on:
�                      In addition, DoD IG has offices across the world
     •	 Health care
�                                                 including Germany, South Korea, Afghanistan,
     •	 Acquisition and contracting
�                                 Iraq, Qatar, and Kuwait.
     •	 American Recovery and Reinvestment Act
�
     •	 Financial management
�                                        About DoD IG Employees
     •	 Information security and assurance
�                          DoD IG is a knowledge-driven organization, and
     •	 Homeland Security/Terrorism
�                                 its employees are experts in fields such as auditing,
     •	 Whistleblower protections and senior officials
�
                                                                      criminal investigations, computer security,
     In addition, DoD IG assessed key operations in a variety 

                                                                      intelligence, hotline complaints, military reprisals,
     of areas by conducting inspections, assessments, and 

     intelligence reviews. DoD IG investigated senior officials 
     and many others.
     and reprisal complaints; conducted policy and peer reviews; 

     and managed programs, such as contractor disclosure and 

     the Defense Hotline.
�



     Results Attained
     AUDIT
     Reports Issued                                      52
     Potential funds put to better use                 $4.2 billion
     Achieved monetary benefits                        $195 million



     INVESTIGATIONS
     Indictments                                        159
     Convictions                                        122
     Suspensions                                        112
     Debarments                                          40
     TOTAL RECOVERIES                                  $1.9 billion


12
                                                                                                Semiannual R
                                                                                                           Repor
                                                                                                            eportt to the Congress
                                                                                                                          Congress
Accomplishments
of DoD IG
                                                    Accomplishments of DoD IG
�


     Oversight of Overseas
     Contingency Operations
     Today in Southwest Asia, there are two major joint operating areas. As the United States is
     drawing down its forces in Iraq, it is building them up in Afghanistan. “Operation Nickel II”
     is the largest wartime logistical operation since World War II and costs more than $100 million
     a day.
              According to the security agreement between the United States and Iraq, all troops are
     due out of Iraq by the end of 2011. By presidential order, the number of U.S. troops in Iraq
     will drop to 50,000 by August 31, 2010. As of March 23, 2010, more than 80,000 troops were
     deployed to Iraq, with more than 15,000 in Kuwait. Further, the United States is sending
     an additional 30,000 troops to Afghanistan for a total of nearly 100,000. In addition to the
     military, according to DoD reports, there are about 3,500 U.S. government civilians and more
     than 207,000 contractor employees in the theater supporting these operations. Since October
     2009, more than $1.25 billion in equipment and supplies have been moved out of theater.
              Further, while the Department is conducting tactical operations, it is also working
     with other U.S. agencies, coalition, and NATO partners to build the capacity of the two
                                        governments. One of the key elements of this capacity building
                                        is the training, mentoring, and equipping of the Iraq and
                                        Afghan Security Forces. In Iraq, the transition from DoD
                                        to DoS has begun. During this period, the Department has
                                        also been tasked to assume the full mission of training the
                                        Afghanistan Security Forces. DoD has directed the Combined
                                        Security Transition Command – Afghanistan to be responsible
                                        for this mission, to advise, mentor, and train the Afghanistan
                                        Security Forces. In order to execute this mission, CSTC-A has
                                        received about $6.5 billion funding in FY 2010, has requested
                                        another $2.6 billion in the FY 2010 supplemental request, and
                                        another $11.6 billion in the FY 2011 Overseas Contingencies
                                        Operations request.
              To provide context to the complexity and enormity of the logistics environment in
     these two unique operations, the U.S. Army with its partner agencies and contractors provides
     the following services in support of theater operations:
     •	 Drive 3,700 vehicles about 750,000 miles a day.
     •	 Disburse more than $695 million per month.
     •	 Serve 780,000 meals a day.
     •	 Move 230 fuel trucks per day to Afghanistan and Iraq and issue more than 2.7 million
        gallons of fuel daily.
     DoD IG established the oversight efforts in Southwest Asia as its primary priority of 2010.
     Recognizing the importance of the military mission and the concerns of the cost of the war,
     DoD IG oversight needs to ensure that U.S.-funded assets are properly accounted for and that
     there is an effective process for the proper transfer, reset, or disposal of these assets from military
     units, support staff, and contractors as the drawdown and buildup are being executed.
              As of March 31, 2010, DoD IG has more than 50 personnel deployed in Iraq,
     Afghanistan, Kuwait, and Qatar. DoD IG also supplements its oversight with shorter temporary
     duty deployments and performs additional work without deploying staff. As part of its
14
                                                                           Semiannual Report to the Congress
Oversight of Overseas Contingency Operations �




oversight operations in reviewing policies, plans, and processes, DoD IG conducts audits, investigations, assessments,
and inspections to ensure:
•	 Personnel and property are properly accounted for and there is visibility over where the equipment and supplies are
   located.
•	 Logistics operations are optimized to achieve effective results.
•	 Controls are in place and functioning within the processes and procedures used to manage the funds expended.
•	 Contractors are providing quality products and services.
•	 Safety and Force Protection needs of the soldiers, civilians, and contractors are met.
•	 Information operations are being conducted in accordance with appropriate laws and regulations while achieving
   the expected outcomes.
•	 Government agencies have the proper oversight over the contractors supporting them. 

•	 Fraud, waste, abuse, and corruption are identified. 

In support of the mission in Southwest Asia, DoD IG established an executive level position, the Special Deputy 

Inspector General for Southwest Asia. In November 2009, the Special Deputy established the forward headquarters 

at Camp Arifjan, Kuwait. 

         The Special Deputy is the single point of contact for all matters relating to oversight activity in Southwest Asia.
Other duties and responsibilities include:
•	 Recommends the development of strategic and operational oversight plans.
•	 Monitors and evaluates the success of integration efforts relative to audits, investigations, inspections, and various
   oversight and policy activities.
•	 Identifies gaps and overlaps, conflicting priorities, and senior leadership requests in the planning and execution of
   Southwest Asia oversight activities.
•	 Improves and ensures effective communications and coordination among the oversight organizations and theater
   leadership.
•	 Enables the oversight teams to provide relevant and timely information with actionable recommendations to
   commanders to improve accountability, visibility, transparency, controls and effectiveness on the battlefield.
As part of providing effective oversight, DoD IG and many of the other oversight organizations is the Southwest Asia
Joint Planning Group have recognized that the theater is in constant motion. In the theatre, people, equipment,
and supplies are essential to bring U.S., coalition, and NATO forces to bear at the right place, time, and capability.
As such, in order to ensure that DoD IG findings and recommendations are relevant, timely, and actionable, DoD
IG is providing information to the commanders and leadership in the theater as early in the oversight process as
possible to effect the changes required at the earliest point.
This is a paradigm shift in oversight in that while products
are produced that disclose results of the oversight work, the
commanders and leaders are already correcting conditions
found and, in most cases, actions have been taken or are in
the process of being taken when the product is produced.
This process allows for timely adjustments to policy, plans and
processes. It further provides the reader of the products with
the full benefit of the oversight teams’ work in a transparent
manner that is in full compliance with all the appropriate
standards.
                                                                     Special DIG for Southwest Asia briefs military officers.
Force Protection and Safety
DoD IG provided continued oversight of force protection
and safety-related issues. Reviews included ballistic protective vest maintenance and storage; threat identification and
assessment for the military’s tactical and support vehicles; and electrical safety issues at forward deployed bases.

                                                                                                                                15
October 1, 2009 to March 31, 2010
                                                                    Accomplishments of DoD IG
�


        DCIS continued force protection measures through its investigations and arrests of military technology
proliferators and other criminals seeking to divert DoD resources to foreign, and oftentimes hostile, entities. DCIS
also maintained investigative oversight of safety issues arising from fraud in contingency operation contracts.

Army’s Management of the Operations and Support Phase of the Acquisition
Process for Body Armor
DoD IG determined that the Army should improve the management of the operations and support phase of the
acquisition process for Interceptor Body Armor. Army officials were not properly storing (six sites), shipping (three
sites), and maintaining (two sites) the Enhanced Small Arms Protective Inserts. Army officials were also not properly
                                                     maintaining the IBA vests (three sites) and did not develop repair
                                                     guidance for the Improved Outer Tactical Vest and ESAPI.
                                                               The Army’s visual and automated inspection process
                                                     for ballistic plates should be improved. Army officials were not
                                                     adequately identifying ESAPI with external material failures
                                                     (six sites) or ESAPI specified for return (two sites) in accordance
                                                     with guidance, and they were not x-raying ballistic plates as
                                                     senior Army officials believed. Having a thorough, updated,
                                                     standardized, and published inspection process should provide
                                                     increased assurance that soldiers engaged in combat continue
                                                     to have the required level of ballistic protection. (Report No.
                                                     D-2010-027)

Using System Threat Assessments in the Acquisition of Tactical Wheeled
Vehicles
DoD IG determined that the Army and Marine Corps processes used to identify threats to tactical wheeled vehicles
and communicate this information to program managers and the test communities were effective. As a result, program
offices for seven Army and Marine Corps tactical wheeled vehicles that were deployed to Southwest Asia reacted to
updated system threat assessments by incorporating armor into the vehicles’ design.
         Specifically, the program offices obtained updated threat assessments, modified their contracts to incorporate
armor requirements in the vehicle design, and had the test community determine the suitability and effectiveness of
the design changes made in response to the changing threat. Further, requirements organizations within the Army and
Marine Corps were in the process of updating tactical wheeled vehicle capability documents to reflect the updated
threat information and required updated capabilities. (Report No. D-2010-021)

DoD Countermine and Improvised Explosive Device Defeat Systems Contracts
- Husky Mounted Detection System
The Husky Mounted Detection System is an improvised explosive device defeat system that uses ground penetrating
radar attached to a Husky vehicle to detect and mark buried IEDs in Afghanistan. The Joint Improvised Explosive
Device Defeat Organization funded $172.5 million to the Army for the procurement of 80 Husky Mounted
Detection Systems before determining if the system was operationally effective and suitable for use in Afghanistan. In
addition, the U.S. Army did not contract for sufficient spare parts, resulting in the cannibalization of Husky Mounted
Detection Systems to sustain fielded systems. The Joint Improvised Explosive Device Defeat Organization is assessing
the operational effectiveness and suitability of the system. Further, the Army is modifying its contracts to include
additional spare part quantities for the fielded systems and is working to procure additional spare parts through a new
contract vehicle. (Report No. D-2010-032)



16
                                                                                         Semiannual Report to the Congress
Oversight of Overseas Contingency Operations �





Afghan Security Forces
Critical to achieving U.S. national security objectives in Southwest Asia is developing increasingly self-reliant Afghan
National Security Forces that can provide security for the Afghan people with reduced U.S. assistance. In support of
this critical mission, DoD IG conducted the following audits and assessments.
         DoD obligations and Expenditures of Funds Provided to the Department of State for the Training and
Mentoring of the Afghan National Police. The DoS Civilian Police contract did not meet DoD’s needs in developing
the ANP to provide security in countering the growing insurgency in Afghanistan because the contract did not
allow DoD to make rapid changes in ANP training as the security situation in Afghanistan changed. In 2006, the
security situation in Afghanistan was more suitable for a civilian police force whose mission was to enforce laws. This
contributed to DoD’s decision to use the existing CIVPOL contract to train, mentor, and equip elements of the
Afghanistan Ministry of Interior, which include the ANP. Since that time, the security situation in Afghanistan has
changed significantly as the insurgency has grown. The current CIVPOL contract no longer meets DoD’s needs in
developing the ANP to provide security in countering the insurgency in Afghanistan.
         ANP average monthly death rates have steadily increased in the last four years, from 24 in 2006 to 123 in
2009. As the insurgency threats escalated, the need for additional ANP personnel with enhanced combat skills
increased. To address this, the ANP needed increased training capacity, changes to the training curriculum, and more
police mentor teams to develop the new ANP forces. Because of these increases in violence and the rising death rates
among ANP, CSTC-A leadership stated that the focus of ANP training should have included more counterinsurgency
and tactical skills training, which more resemble military training than civilian police force training.



  Afghan National Police
  Trainees stand in formation during the opening ceremony 

  that marked the start of an extensive six-week course. �






        In March 2009, the President announced a
comprehensive new strategy for Afghanistan, which
included an emphasis on training and increasing the
size of Afghan security forces. According to CSTC-A
senior officials, to effectively train and mentor the new
ANP members, DoD needed the authority to direct the
contractor to construct new training facilities to accommodate the increases in ANP forces, develop a new security-
focused curriculum, and mentor ANP members in combat tactics. The Chief of Mission stated that despite excellent
coordination between the U.S. Embassy and CSTC-A, the lack of a single, unified chain of command has sometimes
created confusion and unnecessary delays in enhancing the program. Under the current CIVPOL contract, DoD
must coordinate any changes through INL, which delays implementation and hampers the ability of DoD and the
ANP to quickly respond to the rapidly changing security environment. For example, the current MOA between DoS
and DoD states that DoD must provide updated training requirements 120 days in advance; however, according
to the INL personnel, on average, it took six months to fulfill these requirements. CSTC-A officials stated they
believe new program requirements can be implemented faster if DoD has contractual authority and is not required
to coordinate program changes through another agency. Efficiency is necessary in order to rapidly respond to the
changing Afghanistan security environment. (Report No. D-2010-042)


                                                                                                                      17
October 1, 2009 to March 31, 2010
                                                                    Accomplishments of DoD IG
�


Assessment of the U.S. and Coalition Efforts to Develop the Medical Sustainment
Capability of the Afghan National Security Forces
DoD IG deployed an assessment team to Afghanistan in March 2009 that reviewed the status of the CSTC-A plans for
developing the sustainment capability of ANSF, including the specific area of medical sustainment. The team evaluated
whether recommendations from a previous report (Report No. SPO-2009-001) regarding developing and sustaining
the ANSF health care system had been implemented and reviewed U.S. medical mentoring at health care facilities in
the capital, Kabul, as well as at regional ANSF medical sites.
        During the assessment, the team noted that CSTC-A plans lacked a clearly defined end-state goal for the
development of the ANSF health care system, which had been fully agreed to and coordinated with the Afghan
Ministries of Defense and Interior, and incorporated into their operations. As a result, U.S. military and ANSF
resources were not being jointly focused, prioritized, and executed in support of the development of a clearly defined
and sustainable ANSF health care system, and progress was thereby delayed.
        Further, U.S. military medical mentors were not receiving adequate pre-deployment training that concentrated
on the specialized knowledge and situational awareness they required. They were insufficiently prepared to carry out
their duties and responsibilities once deployed, which limited their effectiveness and progress in accomplishing the
mission to develop ANSF medical sustainability.


     Afghan National Security Forces
     U.S. soldiers and Afghan National Security Forces on patrol.




         CSTC-A did not provide necessary guidance and
support for medical mentor teams during their tours,
a problem exacerbated by not having clearly defined
end state objectives for their respective mentoring
contributions. This limited mentoring team effectiveness
and contributed to inconsistency in performance.
         Since the assessment visit, CSTC-A has taken
significant actions to address these issues. Specifically, CSTC-A has:
•	 Assisted the Ministries of Defense and Interior, as well as the Afghan National Army and Afghan National Police
   Surgeons General, in developing and defining key aspects of the ANSF health care system, including: end-state
   goals and objectives; health care development strategies; required resources; standards of care; performance metrics,
   accountability methodologies; and progress milestones.
•	 Defined its priority end-state goal as ANSF ability to provide clinical and health care support services to the ANSF
   warfighter. Additionally, it focused the medical mentor mission on assisting in the development of this capability
   for the ANSF, e.g., combat medic care of battlefield injuries, casualty evacuation, trauma surgery, surgical nursing,
   surgical intensive care, preventive medicine, disease/non-battle injuries, and trauma rehabilitation.
•	 Issued guidelines for pre-deployment medical mentor training for U.S. military personnel assigned to Afghanistan.
   The guidelines have been converted into a systematic training program tailored for medical mentors destined for
   Afghanistan.
•	 Developed an in-country medical mentor training program incorporating: focused initial medical mentor orientation
   upon arrival in-country; a mentor training handbook; an action plan for each mentor team; and continuous
   monitoring and support for mentor teams throughout their tours, including application of metrics to measure their
   progress.
18
                                                                                         Semiannual Report to the Congress
Oversight of Overseas Contingency Operations �




Finally, in coordination with North Atlantic Treaty Organization/International Security Assistance Force and the U.S.
mission to Afghanistan, CSTC-A should consider developing a comprehensive plan that synchronizes and integrates
all aspects of U.S. government interagency efforts towards ANSF health care system development. In addition,
this proposed U.S. government planning should extend to the roles, responsibilities and actions of related capacity-
building efforts by other international forces. (Report No. SPO-2010-001)

Drawdown in Iraq
Providing adequate oversight support to the drawdown of forces in Iraq is a critical area for DoD IG. The U.S.
government’s stated goal is to withdraw combat forces from Iraq by August 31, 2010. Transportation and asset
accountability are two essential elements supporting the effective and efficient withdrawal of combat forces in Iraq. For
more than six years, DoD, its coalition forces, and supporting contractors have been deploying to Iraq and surrounding
areas to support Operation Iraqi Freedom. Ultimately, thousands of pieces of equipment valued in the billions needs
to be accounted for and either left in place or transported elsewhere in theater or to a location out of theater. Choices
include providing the goods and equipment to the government of Iraq for its use or coalition members for their use,
resetting equipment for use in Afghanistan, or returning the equipment to DoD inventory points. DoD IG oversight
in Southwest Asia includes assessing various transportation and asset accountability matters.




  Asset Accountability
  DoD IG is reviewing intra-theatre transportation planning.




Transportation Planning for the
Withdrawal of DoD Personnel and Assets
During this reporting period, DoD IG issued its report on
U.S. Transportation Command’s and U.S. Central Command’s
planning activities for the withdrawal of combat troops from Iraq by August 31, 2010. DoD IG found that the
efforts by USTRANSCOM and USCENTCOM had produced a plan that was a reasonable representation of the
transportation needs that had been defined at that point. However, many of the transportation needs had not been
defined and pending decisions related to Afghanistan had not been made. (Report No. D-2010-025)
         Current ongoing DoD IG transportation reviews include assessing the intra-theater transportation planning,
capabilities, and execution for the drawdown from Iraq and reviewing the air cargo transportation contracts in support
of Operation Iraqi Freedom and Operation Enduring Freedom.

Asset Accountability
DoD IG currently has several ongoing audits regarding asset accountability. Specifically, DoD IG is reviewing
DoD’s plan for the drawdown and reset of property in Iraq using “Operation Clean Sweep,” which is DoD’s plan
for the retrograde of excess materiel in Iraq, to determine whether roles, responsibilities, and lines of reporting are
clearly defined and documented; whether the plans comprehensively address issues including property accountability,
visibility, reset, and return; and whether the plan was properly executed.
         DoD IG is also reviewing the controls over the accountability and disposition of government-furnished
property in Iraq. Specifically, DoD IG is determining whether DoD properly accounted for government-furnished


                                                                                                                       19
October 1, 2009 to March 31, 2010
                                                                     Accomplishments of DoD IG
�


property, whether policies and procedures exist for the proper transfer, reset, or disposal of government-furnished
property, and whether those policies and procedures are being executed adequately.
        An additional project is focusing on management of operations in the Theater Retrograde, Camp Arifjan,
Kuwait. DoD IG is determining whether adequate policies and procedures are in place at the Retro Sort, General
Supply Warehouse, and Theater Redistribution Center for proper reutilization and disposition of equipment. DoD
IG is determining whether adequate resources are available to effectively process the current and anticipated volume
of equipment at the Theater Retrograde during the drawdown of U.S. forces from Iraq.
        Lastly, for ongoing asset accountability projects, DoD IG is reviewing controls over the disposition of
equipment at the Defense Reutilization and Marketing Office at Camp Arifjan, Kuwait. Specifically, DoD IG is
evaluating whether adequate policies, procedures and controls are in place to ensure the proper receipt, inspection,
coding, and disposition of equipment at the Defense Reutilization and Marketing Office at Camp Arifjan, Kuwait.

Fraud and Corruption
DCIS has committed resources and special agents to Overseas Contingency Operations since the beginning of the war
in Iraq and Afghanistan. Due to the magnitude and scope of alleged criminal activity relating to Overseas Contingency
Operations, DCIS has made criminal investigations of contract fraud and corruption related to U.S. operations and
reconstruction efforts in Iraq and Afghanistan an agency priority.


     Afghanistan
     DCIS special agents at Camp Eggers, Kabul, Afghanistan.




         DCIS currently deploys special agents to
Kuwait, Iraq, and Afghanistan to investigate matters
involving bribery, theft, procurement fraud, illegal
receipt of gratuities, kickbacks, bid-rigging, defective
and substituted products, and conflicts of interest. DCIS
presence in the region has identified corrupt business
practices, loss of U.S. funds through contract fraud, and
theft of critical military equipment destined for coalition forces in Southwest Asia. To maximize in-theater investigative
resources, DCIS attempts to transfer investigations developed in Southwest Asia to an appropriate continental United
States venue as soon as practical for appropriate adverse action.
         The following investigations highlight DCIS efforts in countering fraud and corruption in Southwest Asia.
DCIS conducts all Southwest Asia fraud investigations in cooperation with the International Contract Corruption
Task Force. The casework and results are shared among the members.

Former DoD Civilian Receives 110 Months in Prison on Tax Charges
A former DoD civilian employee was sentenced to 110 months in prison and ordered to pay a $1.6 million fine
after he was convicted of filing false tax returns in which he failed to report more than $2.4 million in income. The
employee, a former resident of Kuwait City, Kuwait, and dual U.S./Ghanaian citizen, admitted he failed to report $2.4
million in taxable income while serving at Camp Arifjan, Kuwait, as a DoD contracting officer from 2002 until 2007.
He also admitted he failed to report his ownership interest in foreign bank accounts in Ghana, Switzerland, the Jersey
Channel Islands, the Netherlands, and the United Kingdom. These accounts were used to help conceal his unreported
income, and to send and receive wire transfers totaling more than $3.5 million.
20
                                                                                          Semiannual Report to the Congress
Oversight of Overseas Contingency Operations �




Australian Man Pleads Guilty to Soliciting Kickbacks
In November 2009, an Australian man pleaded guilty for his role in a scheme to solicit kickbacks in connection with the
award of a private security services subcontract to protect U.S. government personnel and contractors in Afghanistan.
In August 2006, USAID (primary investigative agency) awarded a $1.4 billion contract known as the Afghanistan
Infrastructure Rehabilitation Project. The project contract required the award of numerous subcontracts, including
the provision of security services to protect project workers. From at least February 2009 until his employment was
terminated in June 2009, the subject worked in Kabul, Afghanistan, as a country security coordinator for the project
prime contractor. He conspired with a second subject and others to solicit kickbacks from private security vendors in
return for favorable treatment for those potential bidders for one or more subcontracts. The subcontracts provided
private security services to protect USAID personnel and contractors in Afghanistan operating under the Afghanistan
Infrastructure Rehabilitation Project contract.

$1.8 Million Repayment Demand Levied on Foreign Contractors in Afghanistan
In October 2009, DCIS Kabul Resident Agency initiated an investigation into allegations that an Afghanistan
company stole construction equipment valued at $102,000 from a project site in Mazar-e-Sharif, Afghanistan, failed
to pay its subcontractors in excess of $1.2 million for work performed, and fraudulently billed the U.S. Army Corps
of Engineers for spare parts never received in excess of $555,807. USACE previously awarded the company a contract
for $12,637,657 for the building of an Afghan National Police site. The investigation determined that the company
entered into a joint venture agreement with a South Korean construction company to complete this task. In February
2010, in accordance with the FAR, USACE notified the two companies that the government considers them indebted
to it for $1,881,877.




  Kuwait
  The Army Area Support Group-Kuwait maintains an off-post 

  housing office in downtown Kuwait City. 




Official Charged With Bribery in Kuwait
Off-Post Housing Scheme
In February 2010, a U.S. Army contracting official was charged
with bribery and unlawful salary supplementation in connection
with two schemes to solicit more than $30,000 in bribes from an
Egyptian businessman in Kuwait. The contracting official was assigned to the U.S. Army Area Support Group-Kuwait,
which is responsible for maintaining Camp Arifjan, a U.S. military installation providing support for operations in
Afghanistan, Iraq, and other locations in the Southwest Asia theater. Therefore, the Army Area Support Group-Kuwait
maintains an off-post housing office in downtown Kuwait City that procures, leases, and supervises off-post housing for
government employees and military service members stationed at Camp Arifjan. The official was a housing specialist
responsible for supervising private contractors and procuring off-post apartment rentals. The official allegedly solicited
a monthly fee from the Egyptian businessman in return for the official’s agreement to provide preferential treatment
and advice to the Egyptian businessman’s company on the performance and renewal of the contract. The official also
solicited a monthly payment from the Egyptian businessman in exchange for drafting and submitting an inflated off-
post apartment lease to the United States for approval.


                                                                                                                        21
October 1, 2009 to March 31, 2010
                                                                     Accomplishments of DoD IG
�


Kuwaiti Company Indicted for Massive Overcharging
During November 2009, a logistics company organized under the laws of the Nation of Kuwait was indicted by a
federal grand jury in the Northern District of Georgia on multiple charges of conspiring to defraud the United States,
committing major fraud against the United States, making false statements, submitting false claims, and committing
wire fraud. All of the charges concern multi-billion-dollar contracts issued by DoD for feeding American troops in
Iraq, Kuwait, and Jordan. The company offered proposals and was awarded prime vendor contracts. The company has
been paid more than $8.5 billion for the contracts.

Southwest Asia Contracts
DoD IG continues to provide oversight of DoD’s contract administration and oversight for contracts supporting the
Department’s overseas contingency operations. During this reporting period, DoD IG oversight included a joint
audit with DoS IG regarding the program for training the Afghanistan National Police, withholding of funds on the
LOGCAP III contract, contracts for M2 machine gun spare parts, contracting for tactical vehicle field maintenance,
and the management of nontactical vehicles in support of OIF.

DoD Obligations and Expenditures of Funds Provided to the Department of
State for the Training and Mentoring of the Afghan National Police
DoD IG, in conjunction with DoS OIG, conducted this audit in response to a congressional request. The objective
was to review the status of Afghanistan Security Forces funds that DoD provided to DoS for the training of the
Afghan National Police, the contract management activities, and the ability of the ANP training program to address
the security needs for Afghanistan.
        DoD IG found that the DoS Civilian Police Program contract does not meet DoD’s needs in developing the
ANP to provide security in countering the growing insurgency in Afghanistan. DoS and DoD agreed to have DoD
assume contractual responsibility for the primary ANP training program, which includes Regional Training Centers,
basic ANP training, mentoring within the Afghan Ministry of Interior, and the DoD police mentor teams embedded
in ANP units in districts throughout Afghanistan. Internal control weaknesses in DoS contract oversight for the ANP
training program were also identified.


     Afghan National Police
     U.S. soldiers provide training to the Afghan National Police.




The Department of State did not:
•	 Maintain adequate oversight of government-furnished
   property.
•	 Maintain contract files as required by the Federal Acquisition
   Regulation.
•	 Always match goods to receiving reports.
•	 Follow internal control procedures requiring in-country contracting officer’s representatives to review contractor
   invoices to determine if the costs were allowable, allocable, or reasonable prior to payment and validate deliverables.
The team was unable to determine if DoS expended Afghanistan Security Forces funds provided by DoD in accordance
with congressional intent. The team also identified $80 million in potential monetary benefits and found that DoS and



22
                                                                                          Semiannual Report to the Congress
Oversight of Overseas Contingency Operations �




DoD have not provided enough resources to adequately train members of the Afghan Women’s Police Corps.
         Combined Security Transition Command-Afghanistan should clearly define the requirements for the ANP
training program, establish contractor performance standards that will meet those requirements, direct the contracting
officer for the new DoD contract to assign sufficient contracting officer’s representative staff, and implement effective
contractor oversight procedures.
         The Bureau of International Narcotics and Law Enforcement Affairs should request audit support from the
Defense Contract Audit Agency and request refunds of any incorrect costs.
         Finally, CSTC-A, in coordination with INL, should increase the resources devoted to developing the Afghan
Women’s Police Corps. (Report No. D-2010-042)

Review of Army Decision Not to Withhold Funds on the Logistics Civil
Augmentation Program III Contract
DoD IG performed a review in response to a Senate Armed Services Committee request and found that two
commanding generals postponed the withholding of funds on the LOGCAP contract, in noncompliance with the
Federal Acquisition Regulation. The decision was influenced by contractor claims that withholding funds might
adversely affect vital support services provided to the troops. The Army’s FAR deviation request for waiving the
withhold requirement did not include complete or accurate information. The review did not find sufficient evidence
to substantiate allegations that two contracting officials’ efforts to withhold funds were the basis for their reassignments.
        The report recommended that the Army Materiel Command develop quality assurance procedures for
requesting FAR deviations, for developing contingency plans associated with the continuation of essential DoD
contractor services, for ensuring compliance with all contract clauses, and for improving its policies and procedures for
reassigning employees. In addition, the Army Materiel Command should take corrective actions for the unauthorized
decision not to enforce applicable FAR requirements concerning payments of allowable costs before definitization.
(Report No. D-2010-6-001)

Defense Logistics Agency Contracts for M2 Machine Gun Spare Parts in Support
of Operations in Southwest Asia
DoD IG determined that the Defense Logistics Agency did not use effective contracting procedures to provide customers
with critical application M2 machine gun parts related to contract quality assurance, product quality deficiency report
processing, spare part kit assembly, and oversight contractor deliveries. Specifically:
•	 Contractors provided at least 7,100 nonconforming parts on 24 contracts.
•	 DLA did not adequately process 95 of 127 product quality deficiency reports.
•	 DLA did not deliver 60 spare part kits on time to support a U.S. Army program to overhaul 2,600 M2 machine guns
   and provided nonconforming parts in kits.
•	 DLA did not pursue adequate compensation from contractors who were significantly late in providing critical parts
   on 49 contracts.
As a result:
•	 Warfighters had to wait for critical M2 machine gun parts as DLA had backorders on 7,183 requisitions for 60,701
   parts during a 12-month period.
•	 A U.S. Army program to overhaul M2 machine guns was negatively impacted.
•	 DLA missed opportunities to identify contractors with performance problems and obtain adequate compensation.
•	 The government spent at least $655,000 in funds that could have been put to better use.
•	 DLA missed an opportunity to obtain approximately $405,000 in contractor compensation for late deliveries.
DLA has initiated several corrective actions to improve the quality of M2 machine gun parts. (Report No. D-2010-
035)



                                                                                                                           23
October 1, 2009 to March 31, 2010
                                                                   Accomplishments of DoD IG
�


Contracting for Tactical Vehicle Field Maintenance at Joint Base Balad, Iraq
DoD IG review of DoD’s contracting for tactical vehicle field maintenance at Joint Base Balad, Iraq, disclosed that the
yearly utilization rate of the contractor ranges from a low of 3.97 percent to a high of 9.65 percent when the Army
utilization requirements were at least 85 percent. The Army was not providing the appropriate oversight to determine
why the contractor utilization rate was so low. As a result, about $4.6 million of the $5 million in costs incurred by
DoD for tactical vehicle field maintenance services were not required. (Report No. D-2010-046)

Management of Nontactical Vehicles in Support of Operation Iraqi Freedom
Although Multi-National Force-Iraq and Multi-National Corps-Iraq implemented some corrective actions to
strengthen controls over NTV management, further actions are needed to improve the accountability of NTVs, as
well as management of the size and distribution of the NTV fleet. Plans to decrease the U.S. presence in Iraq highlight
the need to improve visibility of NTVs.
        DoD IG estimated General Services Administration NTVs cost about $70 million to purchase and all 9,793
NTVs in the fleet cost about $109.8 million annually to lease and maintain. However, NTV records were unreliable
for making NTV allocation and distribution decisions. For example, 3,854 GSA NTVs (about 74 percent) were not
accounted for properly. In addition, 531 GSA NTVs (about 10 percent) were not accounted for at all. These vehicles
cost $11.4 million to acquire and $5.3 million annually to lease and maintain.



     Joint Base Balad, Iraq
     DoD IG reviewed tactical vehicle field maintenance.




         Without accurate NTV records, DoD cannot make
effective decisions regarding the NTV fleet. MNF-I policy did
not establish a standard procedure for NTV registration to
ensure NTV records were accurate. In addition, MNF-I and
MNC-I did not have a centralized strategy to identify and manage
NTV requirements or acquisitions. Appointing an NTV program manager and centralizing these processes will help
identify long-term requirements and help acquire NTVs using the most cost-effective approach. Centralization may
also improve contract administration of local leases because NTV managers, who register and report NTVs, could act
as contracting officer’s representatives. Centralizing NTV management will also facilitate acquisition of more NTVs
per contract than decentralized processes, which typically fill individual requirements. Decreasing the number of
contracts should improve the contract file deficiencies that were identified. (Report No. D-2010-022)




24
                                                                                        Semiannual Report to the Congress
Oversight of Overseas Contingency Operations 




Information Operations
As part of the U.S. government’s integrated civilian-military efforts to interact effectively with a variety of audiences
and stakeholders, DoD strives to improve key capabilities that support strategic communication. The need to expand
electronic warfare capabilities and enhance intelligence and information operations capabilities support flexible and
effective forces for today’s fight and contribute to the readiness of operations across the full range of military operations.
Accordingly, DoD IG continues its oversight of information operations, including support to operations in Southwest
Asia.

Iraq
DoD IG, at the request of the Commander, U.S. Central Command, issued a series of three reports concerning
information operations in Iraq. The first two reports focused on the effectiveness of contracts used for information
operations while the third report determined the process for establishing psychological operations requirements and
identified resources applied against those requirements. DoD IG identified the universe of information operation
contracts in Iraq from FY 2006 through FY 2008. The U.S. Central Command used 172 contract vehicles for
information operations in Iraq totaling $270.1 million from FY 2006 through FY 2008. Additionally, DoD IG
determined that one contract combined psychological operations and public affairs requirements and overall, the
contracting process resulted in a contract vehicle that was not optimal and may not meet initial psychological operations
requirements or user needs.




  Information Operations
  Tactical Psychological Operations soldiers assess living conditions 

  and possible violent threats from insurgents in Al Qurna, Iraq. 






Information Operations in Iraq
DoD IG issued the third report in the series on January 21, 2010.
The overall objective of the audit was to evaluate information
operations activities in support of Operation Iraqi Freedom.
Specifically, DoD IG determined the process for establishing
psychological operations requirements and identified resources applied against those requirements. DoD IG conducted
a site visit to the Joint Psychological Operations Task Force, Qatar; Multi-National Force-Iraq; Multi-National Corps-
Iraq; and Multi-National Division-Baghdad, Iraq, from May 19 through June 3, 2009. The specific details of the
report are classified and can be found in the classified annex to the Semiannual Report. (Report No. D-2010-033)

Afghanistan
DoD IG is continuing its review of information operations. DoD IG started an audit reviewing the information
operations in Afghanistan. The objective of this audit is to evaluate the ability of U.S. Central Command and U.S.
Forces-Afghanistan to conduct information operations in Afghanistan and assess the support provided by DoD
organizations that enable those commands to conduct information operations.




                                                                                                                            25
October 1, 2009 to March 31, 2010
                                           Accomplishments of DoD IG
�


     DoD Programs
     Health Care
     The DoD Military Health System must provide quality care for approximately 9.5
     million beneficiaries within fiscal constraints while facing increased user demands,
     legislative imperatives, and inflation that make cost control difficult in both the public
     and private sectors. Because the Military Health System provides health care support
     for the full range of military operations, the DoD challenge is multiplied. The increased
     frequency and duration of military deployment further stresses the Military Health
     System in both the active and reserve components.
              The DoD budget for health care costs is approximately $50 billion in FY 2010,
     a 61 percent increase since FY 2005 ($31 billion). Included in that amount is Overseas
     Contingency Operations supplemental funding of $1.3 billion. The remaining FY
                      2010 supplemental request for DoD is in the process of being finalized
                      for submission to Congress. In addition, the American Recovery and
                      Reinvestment Act of 2009 provides $0.4 billion for facilities sustainment,
                      restoration, and modernization, and $1.3 billion for construction of
                      hospitals. Combating fraud is one aspect of containing health care costs.
                      Increasing health care benefits also provides additional pressure to manage
                      and contain costs.
                                The ability to support and develop the people in the Military
                      Health System continues to be a challenge. Maintaining medical
                      readiness of the medical staff and units includes ensuring that medical
                      staff can perform at all echelons of operation and that the units have
                      the necessary skills, equipment, logistics support, and evacuation and
                    support capabilities. The challenge of keeping members of the reserves
     and National Guard medically ready to deploy continues because of the frequency and
     duration of deployments.
              Strengthening comprehensive and integrated health care from accession through
     active service to rehabilitation and transition to Department of Veterans Affairs care is a
     major challenge for the Department. The number of wounded warriors associated with
     Southwest Asia and other such conflicts requires diligent management of health care
     resources. Another related challenge to force health protection and medical readiness is
     oversight of post-deployment health needs, including identifying and managing those
     requiring care.
              Although the DoD and the VA identified a number of objectives and initiated
     appropriate programs, the quality and oversight of these programs must be diligently
     managed. Transitioning wounded, ill, or injured service members to post-deployment
     care will grow as a challenge while operations in Southwest Asia continue. The
     Department needs to improve the medical care and benefits transition program to
     achieve a streamlined, transparent, and timely process as wounded warriors move from
     the DoD system to the VA system.
              Increased numbers of returning service members with psychological health
     issues and traumatic brain injuries, along with a shortage of uniformed and civilian
     mental health workers, will require examining automated screening tools and improved
     diagnostics to provide earlier detection and intervention. In addition, addressing the


26
                                                                 Semiannual Report to the Congress
Health Care 




psychological effects of deployment on family members and non-active duty personnel will continue to be a challenge.
        Providing information to the appropriate people so they can make decisions that are more informed continues
to be a challenge in the health care community. Along with the benefits of expanding automation efforts comes the
increased risk to information security and privacy issues. The transition from paper to electronic patient records
increases the risk that sensitive patient information could be compromised, highlighting the need for appropriate
information assurance procedures. Maintaining information operations that ensure the protection and privacy of data
will become increasingly challenging.
        Implementing recommendations resulting from the 2005 Base Realignment and Closure process will continue
to be a challenge. In addition to improving the readiness and cost efficiency associated with realigning base structure,
a primary objective of the process was to examine and implement opportunities for greater joint activity among the
military departments. Recapitalization of the physical infrastructure is a challenge. Military treatment facilities are
aging and in need of reconstruction. Managing funds provided by the American Recovery and Reinvestment Act of
2009 for facilities sustainment and construction will also be a concern.

Inspection of the Armed Forces Retirement Home
DoD IG conducted this inspection in response to Public Law 110-181, the “National Defense Authorization Act for
Fiscal Year 2008,” which mandated that it conduct an inspection of the Armed Forces Retirement Home. The AFRH
has two campuses, one in Washington, D.C., and the other in Gulfport, Mississippi; however, due to the destruction
of the Gulfport campus during Hurricane Katrina, the team limited its inspection to the management and facilities
associated with the AFRH in Washington, D.C.


  Armed Forces Retirement Home
  Master Chief Petty Officer of the Navy meets with residents at the 

  Armed Forces Retirement Home in Washington, D.C. 






         The inspection objectives were to perform a
comprehensive inspection of all aspects of AFRH, including
Senior     Management,        Admissions/Eligibility,   Facilities
Engineering and Safety, Information Security, Recreation
Services (Resident Services), Human Resources Management,
Contracting, Security, Physical Therapy, Dental Care, Pharmacy Operations, Disposition of Effects, Hotline Activity,
Voting, and Finance. During the inspection, the team found AFRH to be well managed, and the residents as well as
the staff were pleased to be affiliated with AFRH.
         However, DoD IG noted several areas where focused management attention would enhance and improve the
AFRH programs, operations, and material condition of facilities. The current statutory language germane to AFRH
is vague, confusing, and in some areas seemingly contradictory – resulting in uncertainty as to applicable governance
directives and AFRH compliance requirements.
         Further, DoD IG noted that the evolution of the legislation impacting AFRH has resulted in the duplication
of assessment and inspection mandates on multiple agencies and advisory entities associated with the AFRH. In
reviewing compliance with these inspection and assessment mandates, DoD IG concluded that neither the AFRH
Senior Medical Advisor (Deputy Director, TRICARE Management Activity) nor the AFRH Local Board of Trustees
were currently providing the level of advice and oversight expected from their respective roles. (Report No. IE-2010-
002)


                                                                                                                      27
October 1, 2009 to March 31, 2010
                                                                    Accomplishments of DoD IG
�


Evaluation of DoD Sexual Assault Response in Operations Ensuring and
Iraqi Freedom Areas of Operation
In response to a request from more than 100 members of Congress, DoD IG evaluated DoD policies for receiving,
processing, and reporting sexual assaults occurring in OEF/OIF and found that they address only active duty Service
members and other individuals authorized treatment in a Military Medical Treatment Facility, and do not address
other categories of personnel, such as DoD civilian and contractor personnel who deploy with military forces. With
eligibility for treatment determined by the military services, this lack of program guidance was remedied by deployed
commanders implementing local procedures to care for all sexual assault complainants. DoD IG recommended the
Under Secretary of Defense (Personnel and Readiness) establish policy to provide an immediate response by trained
personnel for all sexual assaults involving U.S. personnel reported to military medical treatment facilities. DoD IG
also recommended the Sexual Assault Prevention and Response Program Office of USD(P&R) develop a data system
to record relevant data on sexual assault cases involving U.S. civilian and contractor personnel. (Report No. IPO-
2010-E001)

Evaluation of DoD Contracts Regarding Combating Trafficking In
Persons
DoD IG conducted this evaluation in response to Public Law 110-457, the “William Wilberforce Trafficking Victims
Protection Reauthorization Act of 2008.” The objective of the evaluation was to evaluate a sample of contracts where
there is a heightened risk that a contractor may engage in acts related to trafficking in persons. DoD IG reviewed
contracts covering areas of heightened risk for trafficking in persons and selected the Republic of Korea, Japan, and the
Territory of Guam for the evaluation.
         DoD IG found that the DoD and other federal law enforcement criminal activity databases had no effective
mechanism to track trafficking in persons incidents, but a federal law enforcement advisory policy group is considering
this issue. Further, half of the contracts sampled either did not contain the Combating Trafficking in Persons clause,
or were modified to include the clause just prior to DoD IG site visits. In addition, the Standard Procurement System
contract building software allowed for deletion of the mandatory Combating Trafficking in Persons clause. Finally,
contracting officers lacked an effective process for obtaining information concerning trafficking in persons violations.
(Report No. IE-2010-001)


Acquisition and Contracting
The Department continued to face serious acquisition and contracting challenges in FY 2009 even as contract spending
decreased almost seven percent from FY 2008. In 2008, DoD spent more than $392 billion through contracts. In 2009,
spending had decreased to $366 billion, yet still accounted for almost 70 percent of total federal contract spending.
One of the most serious challenges facing the Department in recent years is quality assurance and contract oversight.
DoD IG found a wide range of problems with quality assurance and contract oversight, especially in contingency
operations where the pace of contracting was often accelerated. DoD IG also found problems with rapid acquisitions
when the usual stringent testing that reduced risk of procuring products had not been performed and with systems
that failed to meet requirements. However, DoD IG found that the Department was having some success in adjusting
to the pattern of larger, faster spending that DoD has experienced since the start of the war efforts.




28
                                                                                          Semiannual Report to the Congress
Acquisition and Contracting 




Recapitalization and Acquisition of Light Tactical Wheeled Vehicles
DoD IG found that the project manager for tactical vehicles planned to acquire 11,500 Next Generation Expanded
Capability Vehicles at an estimated cost of $3.84 billion without establishing the program as a new start acquisition
program, planning to conduct full and open competition, and determining the ECV2’s capabilities compared to those
of current and planned light tactical wheeled vehicles. DoD IG also found that the Under Secretary of Defense for
Acquisition, Technology, and Logistics was not informed, as required, of this acquisition. The project manager risked
procuring a vehicle that duplicated existing capabilities and had vulnerabilities that other vehicles were being procured
to mitigate. During the audit and after the discussions, the project manager decided to stop the ECV2 Program
because the Army Deputy Chief of Staff (G-8) decided not to invest in it. As a result of the audit, the Army put the
$3.84 billion in Other Procurement, Army funding to better use from FY 2010 through FY 2013.


  Light Tactical Vehicles
  A lineup of high mobility multipurpose wheeled vehicles.




       On November 20, 2009, the USD (AT&L) designated
the high mobility multipurpose wheeled vehicle program an
Acquisition Category IC major Defense acquisition program.
USD(AT&L) also required the Assistant Secretary of the
Army (Acquisition, Logistics, and Technology) to notify the
USD(AT&L) if the Army plans to procure a new model or variant of the HMMWV. (Report No. D-2010-039)

Rapid Acquisitions and Fielding of Materiel Solutions by the Navy
DoD IG found that the Navy had adequate procedures for identifying and validating urgent capability needs and was
following procedures for rapid acquisitions and fielding of materiel solutions. However, DoD IG determined that the
Navy needed to improve its internal controls in certain areas. Navy program executive officers, through their approval
of rapid acquisition strategies, did not attempt to control initially procured quantities to mitigate the risks of procuring
large quantities of not fully proven material solutions. Controls over initially procured quantities were needed to
prevent significant acquisitions of equipment whose operational performance was not known.
        DoD IG also determined that the Assistant Secretary of the Navy (Research, Development, and Acquisition)
did not provide specific guidance or lessons learned for planning and executing acquisition strategies for fulfilling
urgent needs requests. Acquisition managers need this specific guidance and institutional knowledge to facilitate the
timely and effective planning and execution of urgent needs acquisitions. Navy program sponsors did not request that
the Commander, Operational Test and Evaluation Force, perform quick reaction assessments of materiel solutions
designated as rapid development and deployment efforts. The quick reaction assessments were required to provide an
independent early evaluation of the operational effectiveness and suitability of materiel solutions before the solutions
were deployed. (Report No. D-2010-028)




                                                                                                                         29
October 1, 2009 to March 31, 2010
                                                                     Accomplishments of DoD IG
�


Acquisition Decision Memorandum for the Defense Integrated Military
Human Resources System
Since 2003, DoD had spent about $800 million developing the Defense Integrated Military Human Resources
System. In April 2009, because of schedule delays and the results of system acceptance testing, the Under Secretary
of Defense for Acquisition, Technology, and Logistics outlined four options for the future development of the system
in an acquisition decision memorandum. Under Option 1, DoD would develop the system as originally planned a
single integrated military personnel and pay system. The other three options required the development of four systems
(one for DoD data and one each for the Army, Air Force, and Navy). The April acquisition decision memorandum
required the Director, Acquisition Resources and Analysis, to lead a team to develop a business case analysis. On
September 8, 2009, the USD(AT&L) selected an option that would allow the Army, Navy, and Air Force to develop
separate systems and for the Marine Corps to continue using the Marine Corps Total Force System. However, at the
time USD(AT&L) made this decision, the lifecycle cost associated with each alternative had not been determined.
Although the decision stated that cost differences were not the determining factors in selecting the best course forward,
cost estimates rose from $1.7 billion in December 2008 to an estimated $16.1 billion for the alternative selected in
September 2009. DoD IG determined that the draft BCA did not detail or fairly represent the specific variable costs
associated with the various alternatives. In addition, the selection of service-level integrated personnel and pay systems
may increase governance risk and overall technical complexity of DIMHRS for DoD. Without a complete analysis
of all alternatives, DoD could incur excessive costs and still not achieve the intent of the Defense Integrated Military
Human Resources System initiative, which was “a single integrated military personnel and pay system.” (Report No.
D-2010-041)

Contracted Advisory Services for the U.S. Army Future Combat Systems
DoD IG determined that the director of Operational Test and Evaluation used the company Science Applications
International Corporation as its primary commercial contractor for advisory and assistance services since 1999 even
though SAIC and The Boeing Company serve as lead system integrators for system development and demonstration
of the U.S. Army Future Combat System. DOT&E in the solicitation and contract provisions for DOT&E’s
requirements explicitly stated that offerors and providers were excluded from this contract that have significant
involvement in development of DoD systems that are under, or will be under DOT&E oversight. SAIC contended
that the SDD contract was a systems integration contract, not a development (supply-the-system or maintain-the-
system) contract; however, total contract expenditures through December 31, 2007, of $11.4 billion are from the
Research, Development, Test, and Evaluation appropriation. DoD IG also found that DOT&E, the FCS Program
Office, and the Army test agencies frequently used the same contractors for advisory and assistance services that were
developing the FCS. Furthermore, DoD IG found that in FY 2007, SAIC and four other services contractors received
about $91 million in funding for advisory and assistance services even though these contractors were involved in the
SDD efforts for the FCS. DOT&E and the Army did not exercise the good judgment and sound discretion needed to
prevent the existence of conflicting roles that might bias a contractor’s judgment or provide it an unfair competitive
advantage. DoD IG commended the contracting officer for the U.S. Army Test and Evaluation Command for taking
swift action during the audit to delete the FCS-related tasks from its contract after concluding that SAIC had statutory
organizational conflicts of interest regarding those tasks. (Report No. D-2010-024)

Cost Increases Related to the Producer Price Index for Titanium Mill
Shapes on DoD Multiyear Contracts
DoD IG determined that economic price adjustments related to titanium materials on the Navy F/A-18 E/F contract
generally corresponded with increased costs incurred by the contractor. However, DoD did not have effective
internal controls over the use of the Bureau of Labor Statistics producer price index for titanium mill shapes in DoD


30
                                                                                          Semiannual Report to the Congress
Acquisition and Contracting 






  Economic Price Adjustments
  DoD IG reviewed economic price adjustments related to 

  titanium materials on the Navy F/A-18 E/F contract. 




multiyear contracts with an economic price adjustment clause.
For example, the index was outdated, too narrow, and not
transparent to its users, thus causing DoD contracts using the
index to be affected by extreme market volatility. DoD IG also
determined that DoD had not effectively mitigated its risk for
titanium material price increases on Defense aerospace weapons systems. The market prices had increased from $5.35
per pound in 2004 to as high as $34.54 per pound in 2006. DoD was subject to this market volatility because it does
not have a strategic purchasing program for titanium. DoD IG recommended that the Director, Defense Procurement
and Acquisition Policy, determine whether it is appropriate to use a narrow index such as the Bureau of Labor Statistics
producer price index for titanium mill shapes in economic price adjustment clauses on DoD multiyear contracts or
whether it is more effective to develop an economic price adjustment methodology based on published market prices.
The Director agreed with our recommendation. (Report No. D-2010-004)

Joint CIA IG – DoD IG Audit of a Special Access Program Acquisition
Refer to the Classified Annex of this Semiannual Report for more details.

The National Assessment Group
DoD IG determined that the National Assessment Group was effectively following all DoD directives, policies and
guidelines pertinent to its mission. DoD IG reviewed the budgeting and finance procedures, contracting procedures,
information technology security, and security procedures. The director, National Assessment Group agreed with the
recommendations. (Report No. 10-INTEL-02)

Investigation of Hotline Allegations Involving the DoD
Joint Intelligence Operation Center
DoD IG conducted an investigation into allegations that arose from a Hotline complaint. These allegations included
inappropriate sole-source contracting, misappropriation of Joint Intelligence Operation Center funds inappropriately
used to rent and modify an off-base facility, and an unethical relationship between a general officer and a specific
company. All of the allegations were unsubstantiated. (Report No. 10-INTEL-03)




                                                                                                                      31
October 1, 2009 to March 31, 2010
                                                                    Accomplishments of DoD IG
�



Financial Management
DoD IG is working closely with the Department to address long-standing financial management challenges and
to support the Department’s goal of achieving a favorable audit opinion for the agency-wide financial statements
and the major components. Over the last six months, DoD IG has continued to provide oversight and address the
Department’s challenges in the areas of financial management and the American Recovery and Reinvestment Act of
2009.
        The Under Secretary of Defense (Comptroller)/Chief Financial Officer issued the DoD Financial Improvement
and Audit Readiness Plan as part of an initiative to improve financial management within the Department. DoD IG
supports the objective of the plan, which is to provide ongoing, cross-functional collaboration with DoD components
to yield standardized accounting and financial management processes, business rules, and data that will provide a
more effective environment to better support the warfighting mission. DoD IG also supports the Department’s
ongoing efforts to target achievable, incremental change and to initiate the change necessary for continual, sustainable
improvement in financial management.

Financial Statements
DoD IG issued 12 opinions and other related reports on internal controls and compliance with laws and regulations
on the FY 2009 DoD Agency-wide financial statements, and on seven other component FY 2009 financial statements.
Nine of those opinions were required by the Office of Management and Budget. DoD IG conducted or oversaw
audits of the remaining three financial statements (Marine Corps General Fund, Marine Corps Working Capital
Fund, and Medicare-Eligible Retiree Health Care Fund) because those statements represent material portions of the
Office of Management and Budget-required financial statements audits. Due to the limitations on the scope of work,
DoD received a disclaimer audit opinion. On the DoD-wide financial statement, DoD IG also identified 13 material
weaknesses within DoD:
•	 Financial Management Systems
•	 Fund Balance with Treasury
•	 Accounts Receivable
•	 Inventory
•	 Operating Materials and Supplies
•	 General Property, Plant, and Equipment
•	 Government-Furnished Material and Contractor-Acquired Material
•	 Accounts Payable
•	 Environmental Liabilities
•	 Statement of Net Cost
•	 Intergovernmental Eliminations
•	 Other Accounting Entries
•	 Reconciliation of Net Cost of Operations to Budget
Of these 13 material weaknesses, 11 have been identified since FY 2003; Accounts Payable and Accounts Receivable
have been identified since FY 2006 and FY 2007 respectively.
         DoD IG conducted several financial-related audits. DoD IG audits focused on providing insight and valuable
recommendations to managers as they prepare for audit readiness. DoD IG covered areas including commercial and
miscellaneous payments, contracts in support of overseas contingency operations, and whistleblower allegations of
violation of the Economy Act.




32
                                                                                         Semiannual Report to the Congress
Financial Management 




Internal Controls Over United States Marine Corps Commercial and
Miscellaneous Payments Processed Through the Deployable Disbursing
System
DoD IG found that internal controls over Marine Corps payments processed through the Deployable Disbursing
System were not adequate to ensure the reliability of the data processed. Specifically, DoD IG found that the Marine
Corps did not properly authorize at least 9,675 payment vouchers, totaling $310.4 million; separate authorization and
payment duties; adequately control access because it used 28 multiple-user and generic-user accounts to circumvent
controls and process $52.7 million in payments; and maintain a centralized database of Deployable Disbursing System
transactions. DoD IG also found that the Defense Finance and Accounting Service did not design the system to
capture the audit trail for key payment information or provide sufficient functionality for management to readily
review and monitor access and usage. DoD IG determined that the Marine Corps made 32 duplicate payments,
totaling $2.5 million, which require recovery from the recipients. (Report No. D-2010-037)

Deferred Maintenance and Carryover on the Army Abrams Tank
DoD IG determined that the Army did not defer depot maintenance on its Abrams tanks in FY 2008. However,
the internal controls applicable to the carryover process were not adequate. DoD IG also determined that the Army
provided inadequate justification to obtain a waiver from the Director for Revolving Funds, Under Secretary of
Defense (Comptroller)/Chief Financial Officer to report carryover of $346 million of FY 2008 funding to subsequent
fiscal years, and the Director for Revolving Funds, Under Secretary of Defense (Comptroller)/Chief Financial Officer
did not properly validate the Army’s request and approved the waiver. The waiver precluded scrutiny and possible
cancellation, reprogramming, or reduction in future budgets by the remaining $275 million scheduled for carryover
from FY 2009.



  Depot Maintenance
  DoD IG reviewed maintenance on the Army Abrams Tank.




       The Army may have violated provisions of the
Antideficiency Act by obligating $107.2 million in FY 2008
Operations and Maintenance appropriations to complete FY
2009 workload. In addition, DoD IG determined that the
Army internal controls applicable to the reporting of deferred maintenance amounts were not adequate. The FY 2008
Army Annual Financial Statements reported $116.8 million of unfunded deferred depot maintenance related to the
Abrams tank but Army maintenance records showed that the depot maintenance requirements were fully funded.
DoD IG concluded that as a result, the Army’s financial statements were misleading and caused readers to believe the
Army needed more money. (Report No. D-2010-043)




                                                                                                                   33
October 1, 2009 to March 31, 2010
                                                                     Accomplishments of DoD IG
�



Fraud and Corruption
DCIS protects DoD programs and people through investigations of fraud involving public corruption, financial
crimes, health care fraud, and major theft. DCIS maximizes investigative efforts through collaboration with both
domestic and foreign law enforcement professionals participating in organizations such as the National Procurement
Fraud Task Force and International Contract Corruption Task Force. Recognizing the importance of how taxpayer
dollars should be spent, DCIS makes every effort to hold companies and individuals accountable for engaging in fraud
impacting DoD and the mission of the warfighter.

Drug Manufacturer Pays $42.5 Million to Settle Misrepresentation Claim
On March 16, 2010, Alpharma, Incorporated, agreed to pay $42.5 million to resolve allegations filed in a qui tam in
connection with the marketing of the morphine-based drug Kadian. The settlement resolves allegations that, between
January 1, 2000, and December 29, 2008, Alpharma, Incorporated paid health care providers to induce them to
promote or prescribe Kadian and made misrepresentations about the safety and efficacy of the drug, which is used to
treat chronic moderate to severe pain. The proceeds from the settlement will be split between the federal government
and various states, with the United States receiving roughly $33.6 million to resolve the federal claims, and the states
receiving approximately $8.9 million to settle their respective claims. The relator will receive $5.33 million out of
the federal share of the recovery. This was a joint investigation with DCIS, the FBI, and Department of Health and
Human Services OIG and the Office of Personnel Management with assistance from the National Association of
Medicaid Fraud Control Units.

Marine Materials Manufacturer Settles Bid-Rigging Case
On February 19, 2010, a Swedish manufacturer of marine fenders and marine hose, and 13 other corporations and
individuals, agreed to pay a total of $15,448,728 to resolve civil allegations that it fraudulently overbilled the Navy
and other federal agencies by rigging bids and fixing prices in connection with the sale of materials used on piers and
other marine construction projects. Marine fenders are used as a cushion between ships and structures such as docks,
piers, and other ships.


     Investigations
     DCIS investigated a Swedish manufacturer of marine fenders.




        Marine hose is a flexible rubber hose used to transfer
oil between tankers and storage facilities. Plastic marine pilings
are used as substitutes for traditional wood timbers in piers
and other marine construction projects. DCIS conducted the
investigation with assistance from DCAA.

DoD Subcontractor Debarred for Falsely Certifying Compliance of Parts
On October 27, 2009, the Defense Logistics Agency debarred a manufacturer’s representative and its owner for 10
years from contracting based on an investigation that found the company falsely certified that it had manufacturing or
testing capabilities through submission of fraudulent certificates of conformance to the government. The company was



34
                                                                                         Semiannual Report to the Congress
Fraud and Corruption 




subcontracted to manufacture and test parts supplied to a DoD contractor for the manufacture of cable assembly units
and machine gun body cradles. Both parts are considered critical application items for DoD. The owner admitted
to his role in the scheme and subsequently fled the country to avoid criminal prosecution, which resulted in DLA’s
debarment action. This was a joint investigation by DCIS and the FBI.

Information Security and Assurance
The Department continues to face a daunting challenge in providing a strong and responsive information security and
privacy program. In particular, the Department has to balance the security and privacy of its system operations and the
storing, processing, and transmitting of data with the need for information sharing and interoperability. In both the
business and warfighting domains, the twin imperatives of security and information exchange are in daily contention.
Further complicating this challenge is the need to address data systems, operations, and initiatives in the hands of the
Defense Industrial Base and other non-DoD mission partners. Progress needs to be made to resolve these conflicting
requirements. A proposed change to the Defense Federal Acquisition Regulation Supplement (DFARS Case 2008-
D028) was recently released for public comment. This change calls for the safeguarding, proper handling, and cyber
intrusion reporting of unclassified DoD information within industry.


  Information Security
  Weaknesses in information security policies and practices threaten 

  the confidentiality, integrity, and availability of information. 





        While the security of contractor information systems
continues to be a growing concern, the Department faces
persistent weaknesses in information security policies and
practices that threaten the confidentiality, integrity, and
availability of critical information and information systems used
to support operations, assets, and personnel. Many of the weaknesses reported occurred because management of DoD
information systems was inadequate and security policies and procedures were not in place.

Identification of Classified Information in an Unclassified DoD System
and an Unsecured DoD Facility
DoD IG found that the Army did not have effective internal controls over the handling of classified information to
prevent the processing of 655 transactions containing classified information into the Deployable Disbursing System,
which is an unclassified system. The Army’s controls also did not prevent the submission of at least 40 disbursement
vouchers containing unmarked classified information for storage at a Defense Finance and Accounting Service
facility not yet accredited for classified information storage. The Army issued guidance regarding the processing of
sensitive payments made in contingency operations and the Defense Finance and Accounting Service had undertaken
significant process and system changes, along with constructing new secure facilities, to protect against spillages in
documentation. In addition, based on this report, DFAS and the Army took action to cleanse affected databases and
initiate system changes to prevent the processing of classified information in the Deployable Disbursing System.
(Report No. D-2010-038)




                                                                                                                      35
October 1, 2009 to March 31, 2010
                                                                      Accomplishments of DoD IG
�


Information Security at the Fleet and Industrial Supply Center, Sigonella,
Detachment Bahrain
DoD IG reported that U.S. Navy personnel did not follow DoD regulations on handling classified documentation.
Specifically, the Office of the Chief of Naval Operations did not correctly mark the documents with a declassification
date, and the Fleet and Industrial Supply Center, Sigonella, Detachment Bahrain personnel stored classified documents
in unclassified files that they did not safeguard or mark properly. Unauthorized access to classified documentation can
compromise national security and increase risk to the warfighter. (Report No. D-2010-005)

Homeland Security/Terrorism
DoD IG continues to support Joint Terrorism Task Forces throughout the country and currently staffs 38 JTTFs on
a full- or part-time basis. A full-time representative is also assigned to the National Joint Terrorism Task Force at the
National Counterterrorism Center, McLean, Va.
         The JTTF concept is based on the premise that success against terrorism is best achieved through a collaborative
effort by federal, state, and local agencies. Cooperation blends the skills and resources of several agencies enhancing
the capabilities of all involved. The mission of JTTF is to detect, prevent, and respond to domestic and international
terrorist organizations that may threaten U.S. citizens or interests.


     Homeland Security
     DCIS special agents participating in antiterrorism training.




        NJTTF brings together senior personnel from different
agencies representing the intelligence, law enforcement (state,
local, and other federal), and public safety communities.
NJTTF serves as a multiagency information collaboration and
fusion center.
        DCIS agents assigned to the JTTF participated in an investigation involving a network of individuals who
hold extremist Islamic views, promote jihad, and actively recruit others to travel abroad and fight jihad against the
kuffar (non-believers), to include U.S. military personnel. The investigation spanned several years and involved
extensive use of physical and electronic surveillance activity on numerous subjects as allowed under the provisions of
the Patriot Act.

Two Sentenced to Prison in Connection With Terrorism Investigation
In December 2009, a multi-year terrorism investigation ended with one U.S. citizen being sentenced to 17 years in
prison, to be followed by 30 years of supervisory release after being convicted of conspiracy, terrorism, and providing
material support to terrorists. A second individual identified as Pakistani-born was sentenced to 13 years in prison,
to be followed by 30 years of supervised release for providing material support to terrorists. The joint investigation
conducted by DCIS and the FBI in March 2006 revealed the individuals provided material support to terrorism by
conspiring to attack oil storage facilities and refineries, and several government facilities such as military installations
and satellite systems that control Global Positioning Systems.
        JTTFs involve a costly investment of personnel and equipment; however, this initiative realizes qualitative
benefits in the form of improving interagency coordination and cooperation, sharing of intelligence, and obtaining


36
                                                                                            Semiannual Report to the Congress
Homeland Security/Terrorism 




arrests and convictions in terrorism investigations. DoD IG will continue to support JTTFs in an effort to reduce the
threat of terrorist acts against DoD interests.

Whistleblower Protections and Senior Officials
DoD IG is committed to protecting whistleblowers and ensuring that allegations against the Department’s senior
leadership are expeditiously investigated. During the reporting period, DoD IG closed 432 cases involving whistleblower
reprisal and senior official misconduct. The case substantiation rate for full investigations of reprisal allegations was 20
percent and 15 percent for investigations of senior official misconduct. Highlights include the following:
•	 A 54 percent increase in staffing (authorized in May 2009) is producing results with respect to reduced investigation
   cycle time and is also providing for surge capability in high-profile cases requiring quick resolution.
•	 Nearly 40 percent of senior official cases and 33 percent of civilian reprisal cases were of interest to the Congress
   and the Secretary of Defense; the majority of military reprisal cases involving congressional interest were answered
   by the service IGs.
•	 Investigators received training in policy and procedures governing newly granted IG authorization to issue testimonial
   subpoenas.
•	 The Military Reprisal Investigations Directorate is in the process of implementing 12 recommendations made by
   the DoJ OIG, in its July 2009 report entitled “A Review of the Department of Defense Office of Inspector General’s
   Process for Handling Military Whistleblower Reprisal Allegations,” including additional staffing, improved policies
   and procedures, communications with complainants and service IGs, and obtaining authorizations for dedicated
   training staff.
•	 A RAND study was recently completed that was co-sponsored with the Office of Under Secretary of Defense
   (Personnel and Readiness) that reviewed processes for reporting adverse information in support of the OSD senior
   uniformed officer nomination process.

Military Reprisal Investigations
On March 31, 2010, DoD IG had 382 open cases involving allegations of whistleblower reprisal filed by military
service members, Defense contractor employees, and non-appropriated fund employees. About 75 percent of those
cases are processed by service IGs prior to being forwarded to DoD IG for final approval.
        During the reporting period, DoD IG and the service IGs received 271 complaints of whistleblower reprisal
and closed 274 cases. Of the 274 cases, 220 were closed after preliminary analysis determined further investigation
was not warranted and 54 were closed after investigation. Of the 54 cases investigated, 11 (20 percent) contained one
or more substantiated allegations of whistleblower reprisal.

Substantiated Whistleblower Reprisal Cases
•	 An Army master sergeant was referred for a mental health evaluation, removed from the “First Sergeant” course,
   and given an unfavorable noncommissioned officer evaluation report in reprisal for reporting to an IG that her rater
   had threatened her, and for informing her chain of command of potential violations of height/weight standards by
   command members. In addition to the substantiated reprisal finding, the investigation found that the commander
   violated procedural requirements of DoD Directive 6490.1, “Mental Health Evaluations of Members of the Armed
   Forces,” by not affording the master sergeant her rights.
•	 An Air National Guard colonel demanded a senior master sergeant promise he would not make any more complaints
   to an IG as a condition for approving the senior master sergeant’s reenlistment authorization request. The threat to
   withhold the favorable personnel action was in reprisal for the senior master sergeant’s complaint to an IG that the
   colonel would only agree to his reenlistment if he retired from his technician job.
•	 An Army Reserve staff sergeant received an unfavorable Non-Commissioned Officer Evaluation Report in reprisal


                                                                                                                          37
October 1, 2009 to March 31, 2010
                                                                      Accomplishments of DoD IG 




   for filing complaints with IGs and military equal opportunity advisors alleging he was ordered to falsify inventory
   records and was subjected to a hostile work environment.
•	 An Air Force senior master sergeant received an unfavorable enlisted performance report in reprisal for alleging to his
   commander and a member of Congress that his supervisor was having an adulterous relationship and had engaged
   in fraudulent activity.

Referrals for Mental Health Evaluations
DoD IG closed 30 cases involving allegations of improper referrals for mental health evaluation during the reporting
period. Fourteen (47 percent) of those cases substantiated that command officials and mental health care providers
failed to follow the procedural requirements for referring service members for mental health evaluations under DoD
Directive 6490.1, “Mental Health Evaluations of Members of the Armed Forces.” There was one substantiated
allegation of a mental health evaluation being used in reprisal for making a protected communication.

Civilian Reprisal Investigations
DoD IG raised the awareness of DoD appropriated fund civilian employees’ whistleblower protections, specifically
within the intelligence community and ensured compliance with the Office of Special Counsel’s Section 2302(c)
whistleblower certification program.
        On March 31, 2010, DoD IG had 28 open cases and was providing oversight of three investigations being
conducted by either Defense intelligence agencies or the military services. During the first half of FY 2010, DoD IG
advised on 44 intakes, accepted 11 for investigation, and closed two investigations. One-third of CRI’s open cases
concern intelligence or counterintelligence activities, and the remaining two-thirds involve procurement fraud sources.

Civilian Whistleblower Reprisal Cases
An employee of a Defense agency made protected disclosures pertaining to wasteful and illegal U.S. government
contracts, disability fraud, Defense Travel System fraud, and time and attendance fraud (sick leave abuse). The
complainant alleged that management threatened reassignment in reprisal for his protected communications. The
investigation found that the agency’s actions against the complainant would have occurred absent the protected
disclosure.
        A former DoD employee alleged that subsequent to making a protected disclosure regarding the security
of the organization’s intranet, management reprised against him by taking several unfavorable personnel actions
(disapproved annual leave requests, negative comments in his annual performance appraisal, a notice of Unacceptable
Work Performance and Performance Improvement Plan, and removal from federal service). The investigation found
that the agency’s actions against the complainant would have occurred absent the protected disclosure.

Senior Official Investigations
On March 31, 2010, there were 257 ongoing investigations into senior official misconduct throughout the Department,
representing a two percent increase from September 30, 2009, when 252 open investigations were reported. Over the
past six months, the Department closed 153 senior official cases, of which 23 (15 percent) contained substantiated
allegations. Investigations closed during this period covered topics such as alleged violation of the Privacy Act, improper
official travel, reprisal, sexual harassment and improper acceptance of a gift from a subordinate. DoD IG processed
2,609 individual names in the past six months. The confirmation process relies on the accuracy of these name checks.




38
                                                                                           Semiannual Report to the Congress
Other Department of
Defense Oversight
                                                                                  Other DoD Oversight 




Army                                                             field about $47.5 million of clothing and individual
                                                                 equipment to non-deploying soldiers in Korea during
                                                                 the fourth quarter of FY 2008. USAAA reported
Army Audit Agency                                                that the requirements for fielding the Extended
To accomplish its mission, U.S. Army Audit Agency                Cold Weather Clothing System Generation III and
relies on a workforce of highly trained professional             modular lightweight load-carrying equipment were
auditors, many with advanced degrees and professional            overstated because the Eighth U.S. Army included
certifications. USAAA’s staff consists of approximately          unauthorized personnel in its requirements. As a result,
600 employees and is organized into 17 functional audit          the Organizational Clothing and Individual Equipment
teams that provide audit support to all aspects of Army          Central Management Office over-allocated funds for
operations.                                                      future Korea system and equipment requirements. Based
         USAAA also maintains a significant presence in          on the recommendation, the Central Management
the Central Command area of responsibility assisting             Office adjusted FY 2010 and FY 2011 requirements and
Army commanders. At the end of March 2010, it had                enabled the Army to put $16.2 million of funds to better
30 deployed auditors in Iraq, Kuwait, and Afghanistan.           use. USAAA also reported that the fielding and record
Overall, USAAA has deployed more than 150 auditors               keeping processes used by Installation Management
since 2002 and issued more than 100 reports on                   Command-Korea Region and Program Executive
Operations Enduring and Iraqi Freedom.                           Office-Soldier did not ensure that records were accurate,
         USAAA’s goal is to be a highly sought after and an      documents were maintained, and accountability over
integral part of the Army by providing timely and valued         fielded stocks was sustained. The commands involved
services that improve the Army by doing the right audits         agreed with the recommendations and acted to correct
at the right time and achieving desired results. To ensure       these issues. (Report No. A-2010-0047-FFP)
its audits are relevant to the needs of the Army, USAAA
prepared its strategic audit plan to align its audit resources   Examination of Army Estimate of
with the Army’s four imperatives:                                Reserve Component Basic Allowance
•	 Sustain the Army’s soldiers, families, and civilians.         for Housing Needs
•	 Prepare soldiers, units, and equipment to succeed in          USAAA conducted a series of attestations at the request
   complex 21st century security environments.                   of the Deputy Chief of Staff, G-1 regarding the assertion
•	 Reset forces and rebuild readiness for future deployments     that the Army owed $173.4 million to 69,941 Reserve
   and contingencies.                                            Command soldiers in additional BAH payments for their
•	 Transform and meet the needs of combatant                     activations from FY 2006 through FY 2008.
   commanders.                                                            DCS, G-1’s BAH debt estimate was based on a
During the first half of FY 2010, USAAA published                download from the Defense Joint Military Pay System–
over 70 reports, made over 200 recommendations, and              Reserve Component performed by the National Guard
identified over $300 million of potential monetary               Financial Services Office in Indianapolis, Ind. The audit
benefits. Several of USAAA’s significant reports are             team identified the following.
described in the following paragraphs.                           •	 The download missed a field that contained the actual
                                                                    BAH payment made, which caused the amount of BAH
Organizational Clothing and                                         owed to be overstated.
Individual Equipment, Eighth U.S.                                •	 Some soldiers with dependents were excluded from the
Army (Field Army) and Installation                                  download, which caused the soldiers in the population
Management Command-Korea                                            to be understated.
Region                                                           Because of these errors, USAAA found that DCS, G-1’s
USAAA audited use of the Program Executive                       assertion was not reasonable. The audit team corrected
Office-Soldier’s Rapid Fielding Initiative process to            the omissions and requested another download from


40
                                                                                            Semiannual Report to the Congress
U.S. Army 





DJMS-RC. Using the new database, USAAA estimated                 and required duplicate data submissions from system
that the Army owes about $36 million for the BAH debt            owners.
to 30,087 RC soldiers.                                        •	 Networthiness reviews were not started early enough in
         USAAA also questioned a new policy that DCS,            the product development and acquisition process.
G-1 had proposed of no longer requiring documentation of      •	 Networthiness recertification requirements were not
a housing responsibility for activated RC soldiers, without      clearly defined.
dependents. This policy appeared to conflict with public      USAAA made five recommendations to close those gaps.
law and recommended that G-1 seek a legal opinion to          If the recommendations are fully implemented, the
resolve this issue. In addition, USAAA recommended that       program could become a valuable tool to the Army.
G-1 develop a plan for paying all soldiers due a debt, by               The Army’s chief information officer and G-6
having their financial records reviewed and the estimated     concurred with the recommendations. (Report No.
debt verified.                                                A-2010-0046-FFI)
         G-1 agreed with the recommendations, the BAH
debt estimate, and the estimated potential monetary           Automatic Reset Induction
benefits of $137 million. (Report Nos. A-2010-0006-           Retrograde and Depot Operations
FFM; A-2010-0011-FFM; A-2010-0025-FFM; A-2010-                USAAA, at the request of the Office of the Deputy Chief
0036-FFM)                                                     of Staff, G-4, conducted a series of audits of the Army’s
                                                              automatic reset induction program. USAAA reviewed
Army Networthiness Certification                              the overall program process from sustainment-level
Program                                                       retrograde of equipment used in Southwest Asia, through
USAAA evaluated the Army’s Networthiness Certification        depot operations in CONUS, and evaluated criteria used
Program for Army-developed systems and commercial             to add items onto the ARI list.
off-the-shelf products. USAAA evaluated the program to                 USAAA found ARI criteria allowed items to
determine if the Army developed clear requirements and        be expedited that were not needed to meet short-term
provided effective oversight of the program.                  operational demands. USAAA recommended that the new
         USAAA concluded that Army information                ARI criteria consider total asset position when developing
technology leaders made a concerted effort to establish       sustainment-level reset needs (that is, on-hand serviceable
an oversight program to (a) identify the minimum              and unserviceable assets and the associated demands).
requirements to comply with the Clinger-Cohen Act and         USAAA also recommended that ARI criteria justification
(b) validate that systems and commercial off-the-shelf        specifically address wash-out systems not scheduled to
products met those requirements. However, the program         return to theatre, include exceptions for next-to-deploy
did not effectively ensure that products placed on the        training demands, and address low-density, high-
LandWarNet were secure, supportable, maintainable, or         demand items. The ODCS G-4 took immediate action
usable. The Networthiness Division developed a process        to implement the recommendation by including the
for reviewing and approving system networthiness.             proposed ARI criteria in the Army data call in preparation
It established a checklist to capture key elements and        for the FY 2010 budget build.
developed a validation process. However, USAAA                         USAAA’s review of retrograde operations showed
identified several gaps in the process that limited the       inefficiencies in the materiel returns process and inadequate
program’s effectiveness.                                      management controls in the transportation pipeline. As a
•	 Subject matter experts were not effectively integrated     result, CONUS sources of repair did not receive ARI items
   into the review and validation process.                    as quickly as possible, significantly delaying reset of those
•	 The review process for commercial off-the-shelf products   priority items. The review of depot operations showed that
   was not as rigorous as that used for Army-developed        some items did not have future operational requirements
   systems.                                                   that supported accumulating assets at depots. As a result,
•	 The networthiness application process was not efficient    the Army incurred additional costs for sustainment level


                                                                                                                         41
October 1, 2009 to March 31, 2010
                                                                               Other DoD Oversight
�


reset, storage, and transportation for expediting ARI        Corps-Iraq needed to improve how it monitored and
items to depots. The Army took immediate action during       documented the base closures. USAAA reported that the
the audit to correct weaknesses in the ARI process that      command did not effectively monitor units as it closed
included distributing revised ARI criteria and the FY        bases and used subjective methods to monitor the base
2009 reset execution order with guidance to improve the      closure process.
ARI process during retrograde and depot operations. In               USAAA also found that the command could
addition, to process improvements in key areas directly      improve guidance and documentation retention for
impacting the drawdown from Southwest Asia, the              property transfers during base closures as well as overall
overall audit results included more than $500 million in     property accountability in Iraq. Command agreed with
potential funds put to better use. This allowed the Army     the recommendations and began taking corrective actions
to achieve the benefits of putting funds to better use,      during the audit. (Report No. A-2010-0044-ALL,
specifically $27 million in overstated field requirements,   FOUO)
$33 million in depot cancellations, and $453 million
due to recommended criteria in time for the FY 2010          Accident Investigations
budget build. Also, due to the new criteria, the Army had    USAAA reported that the Army generally analyzed
removed additional end items from the ARI list, which        reported accidents for soldiers to identify trends and
had broad application by helping to reduce the Army’s FY     implement corrective actions. However, the accident
2011 budget. (Report No. A-2010-0013-ALM, FOUO)              reports were not always submitted as required. The Army
                                                             did not conduct trend analysis on accidents involving
Forward Operating Base                                       civilians and contractors and did not have a process in
Closures in Iraq                                             place to measure the effectiveness of corrective actions
USAAA, at the request of the Chief of Staff, Multi-          implemented. These conditions primarily occurred
National Force – Iraq, evaluated the effectiveness of the    because Army soldiers and civilian supervisors were not
forward operating base closure processes in Iraq. USAAA      fully aware of accident reporting requirements.
found policies and procedures for closing bases in Iraq               USAAA also reported that the Army did not have
were in place; however, MNF-I and Multi-National             a centralized safety system that is sufficient to capture
                                                             Army-wide accident data. The Army was aware of this
                                                             issue and directed one of its activities to design and
                                                             develop a single safety and occupational health mishap
                                                             reporting system. The Army directed owners of legacy
                                                             safety tracking systems to discontinue the use of these
                                                             systems within a month of the new system being fully
                                                             deployed. Despite this directive, efforts to deploy the new
                                                             system remained fragmented due to a lack of Army-level
                                                             oversight in managing the effort. In addition, USAAA
                                                             identified two potential Antideficiency Act violations
                                                             that required immediate attention and corrective actions.
                                                             The Army did not comply with existing DoD guidance to
                                                             obtain certification for the new reporting system and used
                                                             Overseas Contingency Operation funds on a system for
                                                             everyday Army-wide use.
                                                                      The Army agreed with the recommendations and
     USAAA evaluated the effectiveness of the forward        stated it took or would take corrective actions. The Army
        operating base closure processes in Iraq.            also agreed with the reported potential monetary benefits
                                                             of $3.75 million. (Report No. A-2010-0033-FFE)


42
                                                                                         Semiannual Report to the Congress
U.S. Army 




Bridges on Army Installations                                   and completed the necessary closeout actions to ensure
USAAA focused the audit on the Army’s measures to               a smooth transition for the 2013 Presidential Inaugural.
mitigate safety and liability issues for bridges that its                The 2009 Presidential Inaugural was a unique
garrisons maintained. The Army has more than 1,400              event due to the size of the crowds; the significant
Army bridges valued at about $731 million, which                challenges encountered in personnel staffing shortages due
are subject to requirements of public law, including            to two ongoing war efforts; and the significant changes
conducting periodic bridge inspections and reporting of         in the support environment, to include that Joint Force
data to the Federal Highway Administration’s National           Headquarters - National Capital Region was, for the first
Bridge Inventory.                                               time, a completely operational entity. Headquarters and its
         The Army’s Bridge Program has made considerable        subordinate activities, the U.S. Army Military District of
advances in the last several years. The Army centralized        Washington and the Armed Forces Inaugural Committee,
its bridge program under Army Installation Management           were able to address these significant challenges and
Command in FY 2005. The command manages the Army                through their continual adjustments, provided effective
Transportation Infrastructure Program. The program              ceremonial support consistent with DoD guidelines. The
manager is responsible for managing Army transportation         U.S. Army Military District of Washington and Armed
program resources: airfields, bridges, dams, railroads, and     Forces Inaugural Committee also properly completed all
waterfront facilities.                                          actions needed to effectively close out support operations
         USAAA conducted audit work at Forts Carson,            for the 2009 Inaugural. However, USAAA identified
Drum, and Knox, which together had almost 160 bridges.          about $1.2 million in savings by recommending reduction
USAAA determined that the Army’s program manager                of MDW’s base budget for information technology
proactively implemented controls and established business       equipment purchased to support the 2009 Inaugural
rules to increase the accountability and effectiveness of the   and later redistributed to U.S. Army Military District of
program, and Army Installation Management Command               Washington, as well as by identifying efficiencies in the
conducted routine bridge inspections to assess the              use of existing local visual information, transportation,
condition of the bridges. However, its garrisons did not        property book, and tracking system resources. Joint Force
always use the results to fully program, fund, and perform      Headquarters - National Capital Region generally agreed
required maintenance, resulting in needed bridge repairs        with the recommendations and potential monetary
recurring from year to year. Also, the garrisons visited        benefits. (Report No. A-2010-0059-ALO)
did not record all of the bridges in the property system.
As a result of USAAA’s audit, the installations qualified       Time-Sensitive Issue-Javelin
for a high level of sustainment funding. The audit also         Command Launch Unit
facilitated better communication between the garrisons,         Operational Readiness Floats
Army Installation Management Command, and Assistant       During USAAA’s ongoing Army-wide audit of
Chief of Staff for Installation Management on the results maintenance floats, it identified quantities of current
of the inspections, necessary repairs, and appropriate    operational readiness float assets and future float
funding, which will help ensure bridges are maintained in requirements for the Javelin Command Launch Unit that
good or fair condition. (Report Nos. A-2010-0002-ALO,     could be redistributed to support other higher priority
A-2010-0027-ALO, A-2010-0034-ALO)                         operational needs. USAAA found that the project office’s
                                                          Close Combat Weapon Systems float program for the
DoD Support to the                                        Javelin CLU was not used to support unit readiness.
2009 Presidential Inaugural                               Although CCWS personnel tracked overall Javelin CLU
USAAA, at the request of the Commander, Joint Force readiness rates, they did not conduct annual reviews
Headquarters-National Capital Region, evaluated of float requirements based on actual usage of the 236
whether it effectively planned, coordinated, and executed fielded operational readiness float assets. Also, the project
ceremonial support for the 2009 Presidential Inaugural manager, CCWS, included future requirements for 122


                                                                                                                         43
October 1, 2009 to March 31, 2010
                                                                                   Other DoD Oversight
�


ORF assets to the U.S. Army National Guard, who had             These breakdowns caused delays in the return of needed
discontinued its float program. USAAA determined that           materiel to the depots and left Army materiel managers
high readiness rates were maintained for Javelin CLUs           unsure of the supply data’s reliability to make redistribution
through a sustainment level repair turnaround time that         and procurement decisions. Due to the severity of some
was less than half the benchmark required to approve            of these breakdowns, USAAA reported several incidents
issuing float assets to units, rather than use of operational   to the local investigative agencies for review. (Report Nos.
readiness float assets fielded at installations. In fact, the   A-2010-0021-ALL; A-2010-0022-ALL)
review of three CONUS installations identified no float
asset usage of the Javelin CLUs for the past two years.         Contracting Support Processes for
USAAA recommended that CCWS discontinue its                     Task Force-East
operational readiness float program and redistribute the    USAAA conducted this audit at the request of the
338 Javelin CLUs to meet other higher priority operational  Deputy Commanding General, U.S. Army, Europe and
needs. ODCS G-4 agreed that the program should be           Seventh Army Task Force-East, which is a U.S. European
discontinued and agreed with potential monetary benefits    Command initiative to foster relationships with Romanian
of about $41.6 million in funds that could be put to better and Bulgarian military forces to enhance theatre security
use. (Report No. A-2010-0040-ALM)                           cooperation in the European area of responsibility. The TF-
                                                            East mission provides U.S. Forces with the opportunity
Retrograde Operations in                                    to train with these new NATO allies in an expeditionary
Southwest Asia                                              environment. USAAA concluded that USAREUR
As part of USAAA’s ongoing review of logistics operations developed an effective acquisition strategy for satisfying
in Southwest Asia that was requested by the Deputy requirements supporting TF-East. Command involved
Chief of Staff, G-4, it released two reports pertaining to senior leaders and procurement personnel in identifying
retrograde of unserviceable multi-class supplies, and Class critical requirements and selecting the best methods
IX aviation parts in Kuwait. USAAA reported that the (troop labor, existing contracts, or new local contracts)
Army did not effectively manage retrograde operations,
which hindered proper accountability and visibility of
materiel and the Army’s ability to effectively reset the
force.
•	 The Army did not properly receipt or secure in-bound
   items at multi-class retrograde yards and compromised
   in-transit visibility of outgoing items with poor
   repackaging procedures. Government personnel
   who were responsible for overseeing operations were
   overwhelmed due to insufficient staffing, increased
   workload, and limited contract administration
   experience.
•	 The Army established processes for retrograding and
   redistributing Class IX aviation items but did not
   effectively manage stocks stored in its warehouse.
   The warehouse used two separate Standard Army
   Retail Supply System boxes to fulfill retrograde and
   redistribution operations. This practice subsequently                 Soldiers from U.S. Army Europe assist
   led to the buildup of about $62 million in excess stock           Afghan National Police during a security patrol.
   and a significant reduction of asset visibility.




44
                                                                                             Semiannual Report to the Congress
U.S. Army �




to satisfy these requirements. For requirements satisfied       for contingency operations and had received “direct
through local contracts, the 409th Contracting Support          procurement authority” to bypass the process. USAAA
Brigade effectively organized and executed contracting          found the security assistance activities had taken steps
support. Contracting officers selected appropriate contract     to improve and accelerate the FMS process and worked
types; structured options effectively; properly prepared        with a DoD foreign military sales task force to improve
solicitations and evaluated proposals; and appropriately        the overall process time to acquire and deliver equipment.
awarded contracts. Although USAREUR and the 409th               USAAA believes the Army has an opportunity to influence
CSB appointed contracting officer’s representatives             improvements to the foreign military sales process because
with appropriate knowledge of contracts and training,           of the critical role the Army continues to play in providing
CORs did not maintain documentation showing they                needed equipment and lessons learned. USAAA made
evaluated contractors’ performance. This diminished the         several recommendations to the Army for improving and
government’s assurance that contractors performed and           expediting current and future security assistance efforts
invoiced in accordance with contract specifications. The        during contingency operations. The Army agreed with
recommendations will help USAREUR and the 409th                 the recommendations. (Report No. A-2010-0060-ALA)
CSB strengthen contract administration and oversight.
(Report No. A-2010-0078-ALE)                                    Use of Training Aids, Devices,
                                                                Simulators, and Simulations by the
Pricing and Funding Security                                    Reserve Component, Fort Eustis, Va.
Assistance to Iraq and                                          USAAA audited how the Army tracked training aids,
Afghanistan, U.S. Army Security                                 devices, simulators, and simulations usage by the reserve
Assistance Command                                              component and how it used that information to make
USAAA performed this audit to assess the process used           acquisition and fielding decisions. USAAA determined
to manage and administer security assistance transactions       that the Army had a fairly effective process to acquire and
for Iraq and Afghanistan. Specifically, USAAA reviewed          field TADSS to the reserve component. The U.S. Army
the use of the foreign military sales process to support        Training Support Center managed the mission-essential
these two contingencies and found the cost of equipment         requirements process, which maximized the locations
transferred to Iraq and Afghanistan through the foreign         of TADSS. However, the MER was only one step in
military sales process was properly priced. However,            the process of determining the Army’s TADSS needs.
USAAA reported that, on several designated replacement          The overall Army needs determination process did not
and modernization cases, the Army recovered $64.5               incorporate usage data showing how much the TADSS
million less than the costs needed to replace the equipment     were actually used. These conditions existed primarily
transferred from inventory. Also, the audit showed that         because information on TADSS usage was incomplete,
the peacetime process normally used for a foreign military      the central repository for TADSS information was not
sales transaction was not effective to meet the additional      used consistently, and there were no standard operating
workload requirements generated by the contingency              procedures for TADSS administration. As a result, the
operations. Specifically, security assistance activities were   Army did not know if TADSS were being used fully or
required to accelerate support to commanders but were           what type of return it got for its investment in TADSS.
not adequately funded up front to meet the additional           (Report No. A-2010-0049-ALA)
workload.
         USAAA also reported that, while the FMS process        Development of Capabilities
was generally used to acquire equipment and services for        Documents, U.S. Army Training and
Afghanistan, equipment for Iraqi forces was primarily           Doctrine Command
acquired outside of the traditional FMS process. The            USAAA audited the Army’s process for developing
Multi-National Security Transition Command–Iraq                 system fielding doctrine, organization, training, materiel,
perceived the FMS process as too slow and cumbersome            leadership and education, personnel, and facilities


                                                                                                                          45
October 1, 2009 to March 31, 2010
                                                                                  Other DoD Oversight
�


requirements in capabilities documents to support               Award Fee Determinations for
acquisition decisions. USAAA determined that the                Task Order 139–Logistics Civil
Army made acquisition decisions on various systems              Augmentation Program III
without having complete information on DOTMLPF                  Contract
requirements and life-cycle cost estimates. USAAA’s             USAAA performed this audit at the request of the
review of eight system capabilities documents showed that       Secretary of the Army in response to congressional
none of the documents had fully developed DOTMLPF               concerns stemming from a soldier’s electrocution while
requirements. This occurred because TRADOC proponent            taking a shower at a complex maintained by the task
personnel had an incomplete understanding of the need           order 139 contractor. USAAA reported that contracting
for post-capabilities-based assessment DOTMLPF                  officials generally complied with applicable policies,
analyses when developing capabilities documents. Also,          regulations, and contract provisions; and award fee boards
there was insufficient and frequently changing guidance         used data provided to make award fee recommendations.
available to them. Finally, there was insufficient oversight    However, some award fee criteria were unclear, the
and review of DOTMLPF requirements at all levels                award fee board did not strictly apply the criteria when
of the Army. As a result, the Army could experience             evaluating contractor performance, and board members
unfunded requirements and cost overruns and could               did not adequately document their rationale for award fee
possibly field incomplete capabilities. For example, the        decisions. USAAA also found that significant electrical
Army had unfunded requirements of $219 million for              deficiencies and contract nonconformities were not
training devices for two systems. The Army agreed with          identified and provided to the award fee board.
the recommendations. (Report No. A-2010-0074-ALA)                        After the soldier’s electrocution, the Army
                                                                suspended award fee boards, and the government
Logistics Domain Governance                                     significantly increased contract oversight. The increased
Process                                                         oversight brought to light the magnitude of electrical
USAAA initiated this performance audit under the                deficiencies and systemic failures of the contractor’s
authority of the Auditor General. USAAA focused its             quality control system.
efforts on the management structure and processes used by                The Army used USAAA’s audit results, as well as
the logistics domain to identify and manage information         information gathered by other members of the oversight
technology capabilities and related investments. USAAA          community, when it decided to withhold a significant
identified that logistics information technology-related        amount in pending award fees from the contractor.
investment focused on domain-centric goals rather than          USAAA also made recommendations to improve the
meeting the needs of the Army enterprise. This occurred         award fee determination process. In addition, USAAA
for two reasons. First, Army policy did not clearly establish   reviewed the LOGCAP IV contract to make sure the
the domain decision authority. Second, the Army did not         Army incorporated lessons learned from LOGCAP III
effectively implement higher level oversight. Therefore,        into IV. The command agreed with the recommendations
domain investments were geared toward meeting                   and began taking corrective actions. (Report No. A-2010-
individual organizational needs rather than overall Army        0026-ALC)
needs. In addition, USAAA found that the domain
sometimes did not use established defense management            Contract Closeout Controls-U.S.
processes when developing required capabilities and             Army Corps of Engineers
when procuring logistics IT assets. As a result, domain         USAAA performed this audit under the authority of
requirements and investments were not prioritized and           the Auditor General. USAAA reported Corps districts
synchronized against other Army requirements in order to        generally ensured the proper payment of legitimate
meet overall Army objectives. The Deputy Chief of Staff,        liabilities and adequately accounted for government-
G-4 agreed with the recommendations and included steps          furnished property when they closed contracts. However,
to address the issues in the Army Campaign Plan. (Report        procedures and controls for closing out contracts
No. A-2010-0032-ALR )

46
                                                                                           Semiannual Report to the Congress
U.S. Army �




effectively and in a timely manner needed improvement.           USAAA selected at some of the 18 sites where the projects
Contracts eligible for closeout were not effectively             were located. The estimated cost included in the DoD
identified and managed because district managers were            expenditure plan for the 70 projects was approximately
understaffed, were not familiar with all aspects of the          $347 million. To date, USAAA has completed audits of
Federal Acquisition Regulation closeout procedures and           the Active Army and National Guard FSRM projects for
time standards, and relied on vendor and field personnel         barracks, energy, utilities, pavements, operations, quality
notifications to begin the closeout process.                     of life and military construction of a child development
         USAAA also found excess funds associated with           center.
open contracts that should have been closed out were not                  Based on the audits completed at three sites (Fort
always timely deobligated. This occurred because district        Bragg, North Carolina; South Carolina National Guard;
managers were not required to confirm the deobligation           and Fort Benning, Georgia), USAAA found that the
status of all actions identified in the triannual unliquidated   Army generally implemented its Recovery Act projects
obligation review. As a result, about $102,500 in funds,         in accordance with the requirements of the Act, OMB
which could have been put to better use, were still obligated    guidance and subsequent related guidance. Overall, the
for contracts that were no longer needed. During the             Army properly planned, funded, executed, and tracked
audit, the U.S. Army Corps of Engineers used USAAA’s             and reported the projects reviewed as stipulated in the
results to increase the priority level of contract closeouts     Act and related guidance. However, USAAA identified
and substantially reduce its backlog of open contracts.          contracting documents at all three sites that did not
Additionally, to prevent the buildup of future contract          include some of the applicable award terms and clauses
backlogs, upon USAAA’s recommendation, the Corps                 required by the Act. These conditions primarily occurred
took actions to actively monitor and report the status of        because the contracting personnel used existing contracts
closeouts and developed performance metrics to measure           that had been awarded prior to the Recovery Act and did
the success of those actions. (Report No. A-2010-0005-           not make the required modifications to the clauses.
ALC)                                                                      In addition, USAAA’s audit of South Carolina
                                                                 National Guard projects showed that contracts awarded
American Recovery and                                            by state contracting personnel through a special military
Reinvestment Act of 2009                                         cooperative agreement did not identify the projects as
USAAA performed several audits in support of the Office          Recovery Act projects in the public solicitations or award
of the DoD IG in executing its oversight requirements            notices. As a result, the contract actions were not fully
for Recovery Act spending. USAAA focused its efforts             transparent to the public. Contracting personnel were
on determining whether the Army implemented the Act              not aware of the requirement to include a Recovery Act
in accordance with the requirements of the Act, OMB              designation in the contracting documents because the
guidance, and subsequent related guidance. Specifically,         special military cooperative agreement did not include
USAAA assessed the planning, funding, project execution,         such terms or requirements. Because the Headquarter
and tracking and reporting of Recovery Act projects              National Guard provided the template for the special
to ensure the Army’s efforts facilitated accountability,         military agreement, USAAA determined that this would
transparency, and the other goals of the Act.                    likely be an issue for all National Guard Recovery Act
        In the first phase, DoD IG selected 152 Army             contracts awarded by the states. USAAA, DoD IG, and the
projects to review (30 Active Army projects for military         National Guard Bureau were in the process of discussing
construction and facilities, sustainment, restoration, and       this issue when USAAA published the report for the
modernization; 92 Army National Guard projects; and              South Carolina National Guard. Therefore, USAAA did
30 U.S. Army Corps of Engineers projects for civil works         not make any recommendations to the South Carolina
operations and maintenance). USAAA agreed to review              National Guard related to this issue.
about 70 projects for the first phase including 64 projects
that DoD IG selected along with additional projects that


                                                                                                                          47
October 1, 2009 to March 31, 2010
                                                                                  Other DoD Oversight
�



Army Criminal                                                     investigated more than 200 DR/EST detainee cases,
                                                                  with more than 50 cases already presented to the Central
Investigation Command                                             Criminal Court of Iraq for prosecution. Of those cases,
U.S. Army CID provides global support to the U.S.
                                                                  three individuals were convicted of their crimes, with
Army through critical investigative support, actionable
                                                                  one individual sentenced to death for terrorism-related
intelligence, logistics security and protective services
                                                                  charges.
to senior DoD personnel and their visiting foreign
                                                               •	 The Major Procurement Fraud Unit, under the
national counterparts. Army CID currently has more
                                                                  Department of Justice International Contract
than 150 agents and support personnel forward deployed
                                                                  Corruption Initiative, continued its work with member
throughout the world supporting ongoing contingency
                                                                  agencies, to include DCIS, DoS IG, FBI, SIGIR, and
operations in Kuwait, Iraq, and Afghanistan. Regardless
                                                                  USAID. MPFU has five forward investigative offices in
of their status as Active Duty, National Guard, or Reserve,
                                                                  Afghanistan, Kuwait, and Iraq, focusing on contingency
Army CID personnel support the proactive posture of the
                                                                  fund contractual fraud involving Overseas Contingency
command.
                                                                  Operations and in support to the various military
                                                                  operations under Operations Enduring and Iraqi
Afghanistan and Iraq                                              Freedom. Since October 2009, the MPFU has initiated
Theatre of Operations                                             105 reports of investigation with $237 million in total
•	 The U.S. Army Criminal Investigation Laboratory’s              recoveries and an additional $60 million identified as
   Expeditionary Forensic Division deployed its first             cost avoidance. Specific to OCO, MPFU initiated 32
   rotation of examiners and support personnel to the ATO         reports of investigation and realized $71.1 million in
   in December 2009. Follow-on rotations are scheduled to         fines and restitutions.
   absorb an increasing percentage of the forensic support
   requirement from the current contractor-based services.     DoD Criminal Investigation
•	 Army CID continued participating in the Law
                                                               Task Force
   Enforcement Combined Inter-Agency Task Force
                                                               •	 The Army CID continues to serve as the executive agent
   in Baghdad, Iraq, comprised of Army CID agents,
                                                                  for the DoD Criminal Investigation Task Force, which
   international police advisors, and members of Task
                                                                  conducts criminal investigations of suspected terrorists
   Force 134. Since its inception, the task force has worked
                                                                  in Afghanistan, Iraq, and Guantanamo Bay, Cuba. The
   with the U.S. Forces-Iraq, military unit commanders,
                                                                  CITF has agents from Army CID, the Naval Criminal
   FBI, DoS, and government of Iraq to investigate and
                                                                  Investigative Service, and the Air Force Office of Special
   prosecute the Dangerous Radical/Enduring Security
                                                                  Investigations.
   Threats. The threat-related crimes investigated by the
                                                               •	 In Afghanistan, CITF initiated investigations on 120
   task force range from falsifying identification, weapons
                                                                  detainees held by the United States to assess their
   smuggling, financing terrorism-related activities,
                                                                  involvement with al Qaeda, the Taliban, or other
   attacks against coalition forces, IED manufacture
                                                                  terrorism groups, with a focus on prosecutions in
   and emplacement, kidnapping, torture, and murder.
                                                                  host nation courts. In Iraq, CITF conducted joint
   The goal of the task force is to identify physical and
                                                                  investigations with host nation police and judicial
   testimonial evidence such as fingerprints, DNA,
                                                                  authorities and conducted more than 400 interviews
   weapons, digital evidence (video recordings, e-mails,
                                                                  with suspected terrorists. The joint investigations and
   etc.), photographs, and eyewitness statements to be
                                                                  interviews led to more than 1,100 arrest warrants
   presented during the prosecution of crimes committed
                                                                  for suspects affiliated with al Qaeda networks, the
   against the government of Iraq and coalition forces.
                                                                  development of evidence for prosecutions in the host
   A parallel goal is to mentor Iraqi law enforcement
                                                                  nation courts, and, ultimately, the removal of those
   agencies in the practice of sound law enforcement
                                                                  convicted of terrorist acts from the battlefield.
   and investigative techniques in order to build Iraqi
                                                               •	 CITF continued to support the Guantanamo Detainee
   capacity for self-governance. To date, the task force has
                                                                  Review Task Force by conducting investigations of

48
                                                                                            Semiannual Report to the Congress
U.S. Army
�


   35 detainees slated for prosecution in federal court •	 The Fraud Task Force was created in late 2007 by Army
   or military commissions and 48 detainees slated for        CID and Army Internal Review and Control in response
   continued detention under the laws of war. The CITF        to the number of U.S. Army Reserve soldiers activated
   agents, analysts, and attorneys are also spearheading the  in support of GWOT operations who were committing
   criminal investigation of the terrorists responsible for   fraud formally came to an end in November 2009.
   the October 2000 bombing of the USS Cole in the Port       Their intense efforts generated about 500 criminal
   of Aden, Yemen, and working on the case of a detainee      investigations that identified an estimated $8.1 million
   accused of helping to plan and prepare the attack.         in fraud and resulted in the successful prosecution of
•	 CITF is directly supporting the Deputy Secretary of        54 subjects in 2009. The task force received praise at
   Defense by reviewing detainees referred to U.S. courts     the highest levels of the U.S. Army as a result of the
   for a comprehensive assessment of the threat they pose.    combined efforts of auditors, internal review and
   CITF is supporting the Habeas project, overseen by         control managers, and Army CID agents.
   the DIA Joint Intelligence Task Force for Combating
   Terrorism, which was created in 2008 and is now
   known as the Security Classification/Declassification
   Review Team. The team serves as the focal point for all
   DoD documents used in habeas hearings and Office
   of Military Commission proceedings, and produces
   declassified records for use in federal court. During this
   reporting period CITF declassified 2,870 documents.
   CITF also provides information to the DoD Office of
   General Counsel for habeas cases.

Other Significant Operations and
Accomplishments
•	 Within days of the devastating January 2010 earthquake
   in Haiti, Army CID had agents on the ground in support                 Army CID special agents deployed to Haiti.
   of Joint Task Force Operation Unified Response.
   Although the capabilities and resources on the ground
   were challenging, Army CID agents worked closely with
   the other services to provide logistics security operations   Significant Cases
   in support of port and air cargo; develop actionable
   intelligence pertaining to potential criminality within       Involuntary Manslaughter
   the Theatre of operation; and conduct investigations at       Army CID was notified of the death of a non-DoD
   the behest of the U.S. Embassy.                               affiliated female juvenile in the barracks of Fort Lewis,
•	 An United States Army Criminal Investigation                  Washington. This investigation, conducted jointly
   Laboratory research proposal to begin validating the          with the FBI, revealed that an Army private purchased
   scientific and statistical uniqueness of handwriting          Oxymorphone and Alprazolam (Xanax) from an off-
   was approved for funding by the Technical Science             post drug trafficker and provided those drugs to two
   Working Group. The results of the research will bear          female juveniles in his barracks room. This resulted in
   directly on the National Academy of Sciences Report,          the death of the first juvenile from multiple drug toxicity
   Strengthening Forensic Science in the United States,          and a non-lethal drug overdose by the second juvenile.
   that criticized the scientific validity of questioned         The private was found guilty during a general court-
   document analysis. The results of this study will benefit     martial, sentenced to confinement for 70 months, and
   the entire questioned document profession and enhance         dishonorably discharged.
   their ability to render expert opinions in court.

                                                                                                                          49
October 1, 2009 to March 31, 2010
                                                                                    Other DoD Oversight
�


Kidnapping
An Army private, posing as a nurse, took a newborn baby
                                                                 Navy
from his room and attempted to take him out of the
mother/baby ward in the Army Medical Center at Fort              Naval Audit Service
Hood, Texas. When the mother confronted the private,             The Naval Audit Service’s mission is to provide independent
she gave the baby back to the mother and left the area.          and objective audit services to assist Naval leadership in
Through the use of a tip line, review of video surveillance,     assessing risk to improve efficiency, accountability, and
and photographic line-ups with the mother and a security         program effectiveness. NAVAUDSVC works with senior
guard, the private was identified and apprehended by             Department of the Navy officials to develop a risk-based
Army CID in Killeen, Texas. The private admitted she             annual audit plan that addresses critical areas that officials
took the baby from the hospital room, was convicted by           feel merit additional oversight. In the past six months,
a general court-martial of kidnapping and received five          audits have addressed a number of important DoN issues,
years confinement and a dishonorable discharge.                  such as information security, controls over contracting,
                                                                 and the necessity and scoping of military construction
Theft of Government Funds                                        projects; regarding the last issue, the audit identified $23.3
A former U.S. Army captain who served as a disbursing            million in overstated MILCON requirements and made
officer in Kandahar, Afghanistan, stole approximately            recommendations that will allow DoN management to
$400,000 in cash from the Kandahar disbursing vault.             put those funds to other use. The assist reports for the
Prior to redeployment, he sent the stolen funds through          Naval Criminal Investigative Service have identified more
the U.S. mail from Afghanistan to Honolulu, Hawaii,              than $128,000 in potential fraud to date. Auditors also
concealed inside a footlocker. When the captain returned         provided testimony and/or audit support for court cases
to Hawaii, he deposited large sums of cash into various          that led to the successful prosecution of personnel for
U.S. financial institutions. The captain pled guilty to          travel and cash card fraud. NAVAUDSVC continues to
theft, money laundering, and filing a false tax return, and      audit controls over overseas acquisition in such locations
was sentenced to 50 months in federal prison and ordered         as the Horn of Africa–an initiative NAVAUDSVC
to pay $450,000 in restitution. DCIS and IRS jointly             undertook at the request of the former Secretary of the
conducted the investigation.                                     Navy. NAVAUDSVC also continued a series of audits
                                                                 on the Department’s accountability over small arms and
Larceny of Government Property                                   of protection of the personally identifiable information
An Army chief warrant officer wrongfully exploited               of military and civilian personnel. NAVAUDSVC will
his property book officer authority at the U.S. Army             continue to work with senior DoN officials to provide
South logistics warehouse, Fort Sam Houston, Texas,              them with an expert and impartial assessment of critical
by requisitioning and personally diverting more than             DoN issues, risks, and opportunities.
$9.8 million in government property ranging from band
equipment to high value electronic testing equipment.            Joint Warfighting and Readiness
The diverted government property was sold to commercial
outlets located throughout the United States, resulting in       Navy Plan to Meet Future
proceeds in excess of $1 million. In lieu of a jury trial, the   SEAL End-Strength
chief warrant officer pled guilty in U.S. District Court for     The announced audit objective was to verify that the Navy
the Western District of Texas to one count of theft, and         is on track to meet future SEAL end-strength efficiently
agreed to forfeit 24 acres of land (valued at $2.7 million),     and effectively. During the course of the audit, based on
two investment accounts (valued in excess of $400,000)           discussions with senior leadership, NAVAUDSVC revised
and other property purchased with the proceeds from              the audit scope to focus on four specific topics within the
the scheme. DCIS, FBI, and DLA jointly conducted the             area of training. These specific objectives were to:
investigation.                                                   •	 Verify that Basic Underwater Demolition/SEAL


50
                                                                                              Semiannual Report to the Congress
U.S. Navy
�


   training standards are objective.                            2013. The Navy Recruiting Command would also be
•	 Determine if alternatives to conducting BUD/S under          able to reduce the number of qualified leads required
   winter conditions exist.                                     to sign SEAL enlisted contracts by as much as 3,373
•	 Determine if medical training losses due to stress           annually. NAVAUDSVC made recommendations to
   fractures can be reduced.                                    the Commander, Naval Special Warfare Command, to:
•	 Determine if vision correction surgery can be provided       implement controls to provide increased assurance that
   without causing an interruption in BUD/S training.           training standards continue to be consistently applied;
NAVAUDSVC determined that:                                      implement a new BUD/S schedule that reduces the amount
•	 BUD/S written standards were relevant and objective          of BUD/S First Phase training conducted in winter and
   and controls were in place to reasonably ensure the          coordinate with resource providers to ensure necessary
   objectivity of training standards while still allowing for   additional resources are given urgent consideration; and
   instructor flexibility.                                      update milestones for the construction and operation of
•	 BUD/S Selection Phase 2 training does not need to            an ocean-side galley at Naval Amphibious Base Coronado
   be conducted during winter, the season when training         and use the updated milestones to determine when an
   losses are about seven percent higher.                       alternative plan should be developed and implemented
•	 BUD/S candidates conduct a movement to the Naval             to avoid a return to the jogging condition found during
   Amphibious Base Coronado galley that should be               the audit. NAVSPECWARCOM concurred with all
   eliminated because it may contribute to medical training     recommendations. NAVAUDSVC also made a suggestion
   losses due to stress fractures.                              to the Deputy Chief of Naval Operations (Total Force) to,
•	 There are ways to provide corrective vision surgery          if needed to meet future SEAL recruiting goals, develop
   that would not interrupt BUD/S training and would            and implement a plan enabling prospective SEAL recruits
   therefore make it unnecessary to exclude SEAL                with below-standard vision to receive corrective vision
   candidates from the recruiting pool due to a new,            surgery at Navy, Army, or Air Force facilities, and recover
   stricter vision standard.                                    from the surgery, prior to beginning initial training.
Reducing SEAL training losses attributable to winter            (Report No. N2010-0019)
training and stress fractures would favorably impact the
goal of increasing SEAL end-strength to 2,174 by FY             Information Assurance,
                                                                Security, and Privacy

                                                                Information Security for Research,
                                                                Development, Test, and Evaluation
                                                                and Education Legacy Networks
                                                                NAVAUDSVC reviewed information assurance for 24
                                                                unclassified legacy networks (20 research, development,
                                                                test, and evaluation networks, 4 education networks)
                                                                and found that required information security controls
                                                                were missing or incomplete. Systemic weaknesses
                                                                existed in information security areas related to seven
                                                                major categories in the Federal Information Security
                                                                Management Act requirements: Information Security
                                                                Program, Risk Assessment, Access, Monitoring and
                                                                Oversight, Continuity of Operations, Certification and
          NAVAUDSVC reviewed Basic Underwater                   Accreditation, and Documentation. More than half of the
           Demolition/SEAL training standards.                  24 networks had weaknesses in each of the seven categories.
                                                                Of the 24, 15 had problems with risk assessments. All 24


                                                                                                                         51
October 1, 2009 to March 31, 2010
                                                                                 Other DoD Oversight
�


networks had problems with documentation. The causes          PEO-EIS) of their findings. The NMCI Program Office
of these conditions varied for the different networks, but    blocked access to the site and promptly locked it down
existed because officials believed their networks achieved    after receiving notification of the NAVAUDSVC alert.
adequate information security through the strategies used     As a result of NAVAUDSVC finding that the PII was
or because managers focused on other priorities. These        not properly safeguarded, the NMCI Program Manager
missing or incomplete information security controls create    notified 13 individuals that their PII had been accessible
an environment that increases the risk for loss or misuse     on the Web site and that they were at risk for identity
of government resources, unauthorized access to and           theft. (Report No. N2010-0011)
modification of data, disruption of network operations,
and disclosure of sensitive information. (Report No.          Acquisition Processes and
N2010-0005)                                                   Contract Management

Accessibility of Personally                                   E-2D Advanced Hawkeye Radar
Identifiable Information Through                              The audit objective was to verify that the overall
the Navy Marine Corps Intranet                                performance objective of the E-2D AHE radar was being
Homeport Web Site                                             effectively and efficiently achieved. NAVAUDSVC found
Personally Identifiable Information was accessible on the     that the program office was managing the radar system
NMCI Homeport via a link to the Office of the Program         effectively to achieve the overall performance objective.
Executive Officer for Enterprise Information Systems          The program office had a planning process with a logical
SharePoint Portal web site titled, “Missing, Lost, Stolen,    progression towards resolution of the radar issues identified
or Damaged Tracking Log.” NAVAUDSVC found that                in the Operational Assessment and Developmental Testing
the MLSD records were accessible to anyone attempting         concluded in 2008. Because of initiatives undertaken by
to access the site with a valid Common Access Card,           the Milestone Decision Authority to satisfy oversight
simply by typing in the Guest username and password           requirements, and supporting documentation provided
provided on the Web site screen. NAVAUDSVC                    by the program office, no recommendations were made,
determined that 92 of the 565 MLSD records between            and no management response was required. (Report No.
March 31, 2008, and April 14, 2009, addressed stolen          N2010-0001)
computers. The NAVAUDSVC review of the 92 MLSD
records for stolen computers showed that records for          Selected Contracts and Contract
10 pieces of equipment (9 computers and 1 “smart”             Activities at Fleet and Industrial
cell phone) included documents uploaded by customer           Supply Center Sigonella, Italy
technical representatives that contained PII consisting       The audit objective was to verify that contracts were
of Social Security numbers, driver’s license numbers,         awarded and administered in accordance with applicable
vehicle identification numbers, dates of birth, and places    laws and regulations, and in the best interests of the
of birth, which are among the most sensitive types of         Department of the Navy, at FISCSI in Sicily, Italy.
PII. This situation existed because customer technical        NAVAUDSVC found that the Sigonella office and
representatives occasionally uploaded attachments. PEO-       the Navy Regional Contracting Detachment Naples
EIS was unaware that PII was contained in the records         did not provide sufficient contract solicitation and
on the “MLSD Tracking Log”; and oversight was not             administration oversight to ensure that all formal records
sufficient to ensure that such information was safeguarded.   of solicitation were completed and documented. FISCSI
Although the MLSD form does not contain a data field for      was not performing contract management oversight
SSN, some MLSD forms for reporting stolen computers           procedures to ensure that documentation requirements
included attached documents, such as police reports,          were being followed. NAVAUDSVC recommended
incident reports, offense reports, sworn statements, and      the establishment and implementation of management
witness statements that contained such information.           oversight procedures. (Report No. N2010-0008)
NAVAUDSVC alerted the NMCI Program Office (within

52
                                                                                           Semiannual Report to the Congress
U.S. Navy �




Pricing for Commercial Acquisition                               Infrastructure and Environment
The audit objective was to verify that contracting
officials were obtaining and properly documenting fairDevelopment and Utilization of
and reasonable price determinations for commercial    Alternative Fuel Vehicle Program
acquisitions in accordance with applicable laws and   Infrastructure at Selected
regulations. NAVAUDSVC found Naval Air Systems        Department of Navy Installations
Command and Naval Sea Systems Command contracting     The audit objective was to verify that DoN had a plan and
offices’ files for at least 25 percent of contract actions did
                                                      process in place to develop its Alternative Fuel Vehicle
not contain sufficient documentation to demonstrate   Program infrastructure, and was effectively and efficiently
that actions were taken to ensure that prices paid were
                                                      using existing alternative fuel sources. NAVAUDSVC
fair and reasonable before the contract actions were  found that some DoN installations reviewed did not fully
awarded. NAVAIR has taken necessary actions; however, implement the “DoN Petroleum Reduction and AFVs
it needs to continue to strengthen its internal controls
                                                      Strategy.” Specifically, NAVAUDSVC found that five
and management oversight activities over commercial   of eight installations reviewed without infrastructure in
acquisitions. NAVSEA needs to strengthen its internal place to support AFVs had a plan or process in place to
controls, management oversight, and monitoring        develop infrastructure to support all AFVs acquired, and
activities and provide the necessary training to ensure
                                                      alternative fuel infrastructure was forthcoming. However,
its contracting officials obtain and properly documentthree of eight installations reviewed either did not have a
fair and reasonable prices for commercial acquisitions.
                                                      plan or process in place, or had not taken all the necessary
(Report No. N2010-0009)                               steps to overcome barriers to developing infrastructure to
                                                      support 446 AFVs they acquired from the General Services
Financial Management                                  Administration. Additionally, the seven DoN installations
                                                      reviewed that had alternative fuel infrastructure in place
Bureau of Medicine and Surgery’s                      did not provide sufficient oversight of the AFV Program,
Internal Controls for Personnel Pay frequently did not fuel AFVs with alternative fuel when
The Bureau of Medicine and Surgery’s medical centers available, and did not have complete visibility of vehicle
audited had sufficient internal controls to ensure mileage and fuel consumption. Further, inaccurate fuel
that gross pay transactions were properly authorized consumption was reported to DoN management in the
and supported. However, opportunities existed to FY 2008 Federal Automotive Statistical Tool Report.
improve internal controls over compensatory time and Additionally, Marine Corps Installations and Logistics
overtime charges, and over records retention. These and the Naval Facilities Engineering Command did not
problems occurred because BUMED lacked sufficient have sufficient internal controls in place over the fleet
time and attendance guidance. The recommendations cards at five of the installations reviewed within their
addressed the establishment of comprehensive time and commands.
attendance guidance; that employees attested (signed)         As a result, DoN was not maximizing its potential
to their timesheets; that oversight and monitoring of to lower petroleum use and dependence on foreign
compensatory time and overtime be provided (with petroleum because sufficient infrastructure was not in
required documentation properly retained); and that place to support some of the AFVs. DoN installations
BUMED Instruction 12000.1E be updated to align with reviewed underutilized existing alternative fuel
internal control guidance. (Report No. N2010-0010)    infrastructure ranging from 20 to 100 percent, and could
                                                      not meet annual executive order petroleum reduction
                                                      requirements. Inaccurate information was reported to
                                                      DoN management and the insufficient internal control
                                                      environment governing the DoN fleet card program
                                                      increased the potential for fraud, waste, and abuse.



                                                                                                                53
October 1, 2009 to March 31, 2010
                                                                                Other DoD Oversight
�


Inaccurate mileage information may have been reported Support to U.S. Africa Command
to GSA for vehicle lease billing and payment purposes, •	 NCIS continued its support to Combined Joint Task
and the Marine Corps and Navy did not have reliable            Force 151, the multinational effort conducting counter-
information to verify the accuracy of fees billed by GSA.      piracy operations in the Gulf of Aden, Arabian Sea,
(Report No. N2010-0020)                                        Indian Ocean, and Red Sea, with piracy interdiction
                                                               efforts through intelligence collection, source
Selected Department of the Navy                                development, and training for Visit, Board, Search, and
Military Construction Projects                                 Seizure teams.
Proposed for FY 2011
The audit objective was to verify that the Department of
the Navy’s MILCON projects are needed and the scope
requirements are supported when the selected MILCON
projects are submitted to Financial Management
and Budget for consideration for FY 2011 funding.
NAVAUDSVC found that all 19 MILCON projects
audited were needed; however, 15 MILCON projects were
not sized in accordance with appropriate criteria or did
not include only authorized or required items. The scopes
of the projects were overstated by $23.3 million, which
NAVAUDSVC claimed as funds potentially available for
other use. NAVAUDSVC recommended the Commander
Navy Installations Command and Commandant of the               NCIS supports Combined Joint Task Force 151 in
Marine Corps correct the scope of the over scoped and          multinational effort conducting counter-piracy operations.
under scoped projects and put the $23.3 million to better
use. Management concurred with all recommendations
and the $23.3 million, and all planned and completed •	 NCIS provided counterintelligence, human intelligence,
corrective actions met the intent of the recommendations.      and force protection support to the Commander, Joint
(Report No. N2010-0013)                                        Task Force-Horn of Africa, as well as force protection
                                                               and criminal investigative support for the commanding
                                                               officer of Camp Lemonier.
Naval Criminal                                              •	 As personal security advisors to the Commander Joint
Investigative Service                                          Task Force-Horn of Africa, the supervised security teams
The Naval Criminal Investigative Service is the primary        are composed of Marine Corps military policemen
law enforcement and counterintelligence arm of the             and Navy masters-at-arms while providing continuous
Department of the Navy. It works closely with other            coordination with non-U.S. security forces to ensure
local, state and federal agencies on serious crimes            the safety of CJTF-HOA when traveling outside of
including terrorism, espionage, and computer intrusion.        U.S. control.
NCIS supports efforts aimed at detecting, deterring and •	 As a result of post-incident investigation and investigative
disrupting terrorism against DoD and DoN personnel and         support, more than 50 Intelligence Information Reports
assets worldwide. It provides a wide array of offensive and    were produced in support of anti-piracy and counter-
defensive capabilities to combat terrorism. Offensively        piracy mission efforts.
(counterterrorism), NCIS conducts investigations and •	 NCIS special agents conducted crime scene
operations aimed at interdicting terrorist activities.         investigations on numerous seized pirate skiffs, mother
Defensively (antiterrorism), NCIS supports key DoN             ships, and other captured vessels; conducted interviews
leaders with protective services and performs vulnerability    of victim crew members; and interrogated or debriefed
assessments of military installations and areas to which       captured pirates.
naval expeditionary forces deploy.
54
                                                                                          Semiannual Report to the Congress
U.S. Navy 




•	 NCIS special agents presented evidence and two               U.S. Ambassador to Indonesia, as an exceptional
   investigative reports to government of Kenya                 performance and host-nation relationship building
   prosecutors; testified during a Kenyan prosecution of        activity.
   captured pirates; and prepared an investigative report to •	 NCIS continued to staff anti-piracy assistance teams
   support a government of Tanzania prosecution of eight        to instruct civilian U.S. flagged vessels on piracy
   captured pirate suspects.                                    tactics and trends in regions prone to piracy. The
                                                                APATs are comprised of staff from NCIS, Military
Afghanistan Theatre of Operations                               Sealift Command, and Department of Transportation’s
•	 NCIS continued criminal investigative, cyber forensic        Maritime Administration.
   expertise, and counterintelligence support to the •	 NCIS personnel, at the request of the U.S. Transportation
   Joint Counterintelligence Unit-Afghanistan, Marine           Command, supported a transit through known
   Expeditionary Forces-Afghanistan, and Special                piracy waters in the Gulf of Aden onboard the M/V
   Operations Forces.                                           Liberty. This joint operation strengthened interagency
                                                                communication between TRANSCOM and NCIS,
Iraq Theatre of Operations                                      and enhanced future anti-piracy working relationships.
•	 NCIS continued to provide criminal investigative, cyber
   forensic expertise, and counterintelligence support to Significant Cases
   Joint Counterintelligence Unit-Iraq, to the Marine
   Expeditionary Forces–Iraq, and to the commanding Larceny and Trafficking in Stolen
   general of the Multi-National Forces-West.                Military Property
•	 NCIS provided advisors to the Multi-National A cooperating witness informed NCIS that a Marine
   Security Transition Command–Iraq on the Intelligence Corps lance corporal was attempting to sell more than
   Transition Teams, working directly with Coalition $70,000 in rifle optics and accessories that had been
   Armed Forces and Iraqi Security Forces to aid the stolen during a burglary at a supply facility on Marine
   government of Iraq in establishing a new defense and Corps Base Camp Lejeune, N.C. The lance corporal was
   criminal intelligence structure.                          apprehended by NCIS when he produced the stolen
•	 NCIS agents deployed as Task Force-16 items to a NCIS undercover agent. The suspect pled
   Counterintelligence Coordinating Authorities.             guilty at general court-martial at Camp Lejeune and was
                                                             sentenced to eight years confinement.
Other Significant Operations and
Accomplishments                  Embezzlement of Navy Exchange Funds
•	 In support of the Commander, Naval Forces Southern        A Navy Exchange Command criminal referral resulted
   Command’s 2010 Haiti Unified Response efforts, NCIS       in NCIS initiating an investigation that implicated a
   personnel provided humanitarian assistance, disaster      Navy Exchange Service Command’s financial manager
   relief, and force protection in Haiti and Guantanamo      for embezzling NEXCOM funds. The suspect confessed
   Bay, Cuba. Additionally, NCIS personnel provided          to creating fraudulent invoices and check requests. She
   physical security and force protection/anti-terrorism     also admitted depositing the checks made payable to the
   guidance onboard the USS NORMANDY and ashore.             fictitious companies into her own accounts or submitting
•	 NCIS, at the request of Force Protection Detachment       the checks directly to her creditors for paying personal
   of Indonesia, provided protective service operations      debts. The suspect embezzled more than $745,000 during
   training for 30 Indonesian security specialists who       the scheme. She was convicted of theft of public property
   are responsible for the Indonesian President’s personal   in U.S. District Court for the Eastern District of Virginia;
   protection. These security specialists were selected to   sentenced to 40 months confinement and ordered to pay
   support an anticipated March 2010 visit by President      $749,000 in restitution.
   Obama. The training was lauded by Cameron Hume,


                                                                                                                       55
October 1, 2009 to March 31, 2010
                                                                             Other DoD Oversight
�



Air Force                                                   and American Recovery and Reinvestment Act. These
                                                            efforts have resulted in more than $830.9 million in
                                                            potential monetary benefits.
Air Force Audit Agency                                              The following are examples of audit coverage
The Air Force Audit Agency provides all levels of Air Force performed by AFAA related to the following DoD
management with independent, objective, and quality management challenge areas.
audit services by reviewing and promoting the economy,
effectiveness, and efficiency of operations; evaluating Joint Warfighting and Readiness
programs and activities and assisting management in
achieving intended results; and assessing and improving Individual Body Armor
Air Force fiduciary stewardship and accuracy of financial U.S. Central Command required service members and
reporting. Organized into three line directorates, the AFAA DoD civilians deployed to Iraq and Afghanistan to have
conducts centrally directed audits in numerous functional individual body armor as part of their personal protective
areas that provide support to Air Force senior leaders. equipment, protecting against ballistic threats. Beginning
AFAA also has audit teams at more than 50 locations in May 2005, Air Force Central logistics personnel pre-
providing audit services to installation commanders.        positioned protective equipment at three expeditionary
         The Financial and Systems Audits Directorate, Theatre distribution centers within the CENTCOM area
headquartered at March Air Reserve Base, Calif., directs of responsibility to store and issue protective equipment,
audits related to financial management, financial support, including IBA. This audit determined Air Force personnel
information systems development, communications overstated IBA authorizations after pre-positioning IBA
systems, and system security. AFAA/FS also manages the in the CENTCOM area of responsibility. To illustrate,
Financial and Systems Audits Region located at March home station installations maintained almost 49,000 IBA
ARB, California, with five area audit offices at 19 Air authorizations to service less than 15,000 deployments
Force installations and five operating locations.           over a 20-month period. Using a demand-based
         The Support and Personnel Audits Directorate, methodology, the Air Force could eliminate more than
headquartered at Brooks City-Base, Texas, directs audits 31,000 IBA sets at the 16 locations reviewed. Auditors
related to operational support, personnel, training, project using demand-based authorizations for IBA
engineering support, support services, environmental would reduce Air Force-wide authorizations by more than
issues, intelligence operations, and health care. AFAA/SP 70,200, thus allowing the Air Force to put at least $210
also manages the Support and Personnel Audits Region million to better use. Additionally, although Air Force
located at Brooks City-Base, Texas with five area audit logistics personnel properly controlled IBA, they did not
offices at 14 Air Force installations and 7 additional properly account for inventories. Auditors identified an
operating locations.                                        overall IBA inventory error rate of 19.6 percent, with
         The Acquisition and Logistics Audits Directorate, installation error rates as high as 82 percent. Effective
headquartered at Wright-Patterson Air Force Base, Ohio, accountability and accurate IBA inventory data reduces
directs audits related to procurement, maintenance, the risk of theft and abuse of these highly pilferable assets,
supply, transportation, and weapon systems acquisition. costing more than $314 million. (Report No. F-2010-
AFAA/QL also manages the Acquisition and Logistics 0001-FD3000)
Audits Region located at Wright-Patterson Air Force
Base, Ohio, with five area audit offices and two additional Pacific Air Forces War Reserve Materiel
operating locations.                                        War Reserve Materiel are assets acquired, positioned,
         In the last six months, audit efforts focused on and maintained to meet Secretary of Defense Strategic
the following key management challenge areas: Joint Planning Guidance objectives. As such, WRM assets
Warfighting and Readiness; Information Security and include equipment, vehicles, supplies, fuel, and munitions
Privacy; Acquisition Processes and Contract Management; support wartime activities reflected in the Air Force War
Financial Management; Health Care; Nuclear Enterprise; and Mobilization Plan for requirements over and above

56
                                                                                      Semiannual Report to the Congress
U.S. Air Force
�


primary operating stocks and peacetime requirements.         material than necessary, inefficiently used funds and
An audit revealed Pacific Air Forces personnel did not       increased storage requirements; and increased risk of
accurately determine WRM requirements as outlined by         environmental law violations and cleanup costs. (Report
the applicable allowance standards and did not accurately    No. F-2010-0001-FD1000)
maintain WRM authorizations to meet anticipated
mission needs. In addition, although PACAF personnel         T56 Propeller Requirements
properly accounted for, marked, and stored WRM               The four-bladed T56 propeller and Allison Turboprop
equipment, they did not properly maintain all WRM            engine power all variants of the C-130 aircraft, except for
assets. Specifically, PACAF planners exceeded allowance      the newest C-130J model. The Air Force uses the Secondary
standard authorizations by more than 6,800 assets valued     Item Requirements System to compute inventory levels
at $285.6 million without justification for the increase.    and buy requirements for the T56 propeller assembly,
PACAF personnel also misstated authorizations by almost      which includes four blades and a barrel.
4,600 assets valued at nearly $186.3 million. Establishing
accurate WRM levels would allow the Air Force to reduce
WRM buy requirements and put $299.1 million to better
use over FYs 2010 through 2015 Future Years Defense
Program. Further, accurately reconciling authorizations
would have identified the additional need for 555 mission-
critical equipment and vehicle assets. Lastly, although
PACAF personnel properly maintained WRM vehicles,
contractor personnel did not properly maintain 45 (38
percent) of 119 equipment items reviewed. Proper and
timely equipment inspection and maintenance provides
assurance that mission-critical assets needed to open bare
base installations are ready for contingency operations.
(Report No. F-2010-0002-FD3000)

United States Air Forces Central
Deployed Locations Area of
Responsibility Hazardous Materials                              AFAA reviewed inventory requirements of T56 propellers.
and Hazardous Waste
Air Forces Central Environmental, Logistics, Safety,
and Bioenvironmental functions oversee hazardous                      Managers use the Comprehensive Engine
material and waste management in the AFCENT                  Management System to record propeller condition,
area of responsibility. One of their contingency             status, and location data. As of June 2009, the Air Force
goals is to minimize risks to human health and the           possessed more than 4,200 T56 propellers, valued at
environment without impacting readiness and mission          approximately $624.5 million. During FYs 2010 through
accomplishment. The audit disclosed AFCENT                   2015, the Air Force plans to procure an additional
personnel did not accurately account for more than           835 replacement blades and 251 barrels valued at $27
20,600 (20 percent) hazardous material items in 72 (92       million. The audit determined Air Force managers
percent) of 78 shops reviewed, properly store hazardous      could more efficiently compute inventory requirements.
material and waste in 57 (73 percent) of 78 shops, or        While managers maintained T56 propeller inventories at
properly purchase more than 79 (36 percent) of 220           computed levels, they did not recognize opportunities to
hazardous material line items. As a result, the Air Force    reduce overall cost while still meeting actual demand. As
placed personnel at higher risk of exposure to agents that   a result, the Air Force could save more than $15 million
cause illness, injury, or death; purchased more hazardous    in future blade and barrel buy requirements and propeller

                                                                                                                          57
October 1, 2009 to March 31, 2010
                                                                                Other DoD Oversight
�


storage costs. Additionally, Air Force personnel did not       Information Security and Privacy
properly account for the T56 propeller inventory. As a
result, Air Force managers did not have accurate on-hand       Follow-up Audit, Accountability, and
records for T56 propellers. (Report No. F-2010-0002-           Control of Secure Terminal Equipment
FC2000)                                                        Secure Terminal Equipment provides users with secure
                                                               voice and data communications, and is designed for use
Food Service Operations                                        on advanced digital communications networks to include
The Air Force operates appropriated fund dining                the Integrated Services Digital Network. The STE phone
facilities with military, civilian, and contractor personnel   provides the application hardware and software while the
supporting daily operations and providing food service         cryptographic card (KOV-14 or KSV-21) provides the
training for contingency operations. During FY 2008,           security services. The National Security Agency intended
the Air Force operated more than 240 appropriated fund         to deactivate KOV-14 cards on December 31, 2009.
dining facilities (including flight kitchens), serving more    By January 2010, DoD STE phone users must upgrade
than 74 million meals and spending more than $170              STE phone software to Version 2.6 and use the KSV-
million for 70 food service contracts. At the 12 locations     21 cryptographic key cards for secure communication.
reviewed, auditors concluded food service personnel at         The follow-up audit disclosed that although Air Force
8 of 10 locations effectively monitored contract food          managers took corrective actions in response to the
services and payments totaling more than $36 million.          recommendations in the previous report, STE phone
Conversely, food service personnel at four locations did       and cryptographic key card utilization and accountability
not establish contract requirements to match actual meal       continue to be a problem. Specifically, while managers
consumption, and one location did not reduce meal              revised directives to improve STE requirements
service hours to meet actual requirements. Improving           documentation and accountability, developed local
food service facility utilization will make more than $20      operating instructions, and provided refresher training
million in Operations and Maintenance funds available          on STE phone and associated key card operations, unit
for other requirements over the six-year Future Years          and communications personnel (a) could not use STE
Defense Program. Lastly, personnel did not accurately          phones on hand for secure communication services
account for 449 food service equipment items and 2,208         because cryptographic key cards were not obtained for
(49 percent) of 4,507 food items. (Report No. F-2010-          all phones; (b) did not properly account for STE phones
0004-FD4000)                                                   or investigate and report missing STE items; and (c) did
                                                               not upgrade STE phone software and purchase associated
                                                               KSV-21 cards. However, on May 15, 2009, the Chief,
                                                               Warfighting Integration and Chief Information Officer
                                                               issued an e-mail to major command vice commanders
                                                               and Secretariat, Air Staff, and communications personnel
                                                               instructing them to upgrade STE phone software to
                                                               Version 2.6 and purchase associated KSV-21 cards by
                                                               August 14, 2009. If effectively executed, these actions
                                                               should allow continued secure communication when
                                                               the National Security Agency deactivates KOV-14
                                                               cryptographic key cards on December 31, 2009. (Report
                                                               No. F-2010-0001-FB4000)

                                                               Contractor Circuit Security
       AFAA reviewed Air Force food service contracts.         Circuits are telecommunication connections providing
                                                               information transfer services to include voice, data,


58
                                                                                          Semiannual Report to the Congress
U.S. Air Force 




video, and messaging. Long-distance circuits beyond              support staff. Both the SLICC and SLIP are mounted on
the installation boundary are commonly referred to as            standard cargo pallets. HQ AMC officials selected the Air
long-haul circuits. The Air Force uses long-haul circuits        Force Research Laboratory, located at Wright-Patterson
to provide contractor facility connections. All contractor       AFB, to administer the SLICC and SLIP procurement
connections to the Defense Information System Network            effort and manage related funding. The audit revealed Air
require a DoD sponsor, separate connection request,              Force Research Laboratory officials effectively managed
filtered access, accreditation, and registration in the          SLICC/SLIP program funding and sufficiently supported
Defense Information Systems Agency Systems/Networks              program expenditures. Specifically, financial managers
Approval Process database. Except for the circuits listed        effectively managed the three different appropriated
in the database, the Air Force does not track contractor         funds in accordance with fiscal law (purpose, timing, and
circuits and, therefore, does not know the number                amount) to acquire SLICC and SLIP assets. Payment
and characteristics of existing circuits Air Force-wide          vouchers and financial management system reports
or where the circuits are located. Auditors concluded            sufficiently supported program expenditures and proper
installation communications personnel did not comply             use of appropriated funds. However, although HQ AMC
with requirements for establishing circuit connections           officials properly submitted the new start notification for
to contractor facilities, obtaining security accreditations      the initial SLICC procurement, they did not provide a
for contractor circuits, and registering contractor              subsequent new start notification for the SLIP assets
circuits in the database. Noncompliance with long-haul           and related program costs including sustainment, spare
contractor circuit requirements allows installations to          parts, and airworthiness certifications. Congressional
obtain their own connections without Air Force network           notification is necessary to ensure funding is available for
operations visibility. In addition, without proper security      mission support assets and related expenses. (Report No.
accreditation, contractor circuit vulnerabilities could          F-2010-0001-FB1000)
exist and go undetected, placing the Air Force Enterprise
Network at risk. (Report No. F-2010-0003-FB4000)                 Government-Furnished Equipment
                                                                 and Material on Service Contracts
Acquisition Processes and                                        Government-furnished property includes equipment
Contract Management                                              and material in the possession of or acquired by the
                                                                 government and subsequently furnished to a contractor to
Selected Financial Aspects of the                                facilitate contract performance. The decision and support
Senior Leaders In-Transit Conference                             for providing GFP should demonstrate that it is in the
Capsule and Senior Leaders In-transit                            best interest of the government. The government property
Pallet Program                                                   administration process helps ensure government property
Air Mobility Command supports Operational Support                in the custody of contractors is managed and reported in
Airlift and Very Important Persons Special Airlift Missions      accordance with the Federal Acquisition Regulation and
for DoD, other federal agencies, and the Congress.               contractual requirements. Auditors concluded Air Force
Senior government official travel involves providing             personnel could more effectively manage government
secure communications, space for conducting sensitive            property authorized on service contracts. Specifically,
meetings, and ability to rest while aircraft are enroute.        contracting personnel did not always obtain or maintain
To help meet the requirement, HQ AMC initiated the               adequate documentation to clearly justify and authorize
Senior Leaders In-Transit Conference Capsule and Senior          government property. Documented justification would
Leaders In-Transit Pallet Program to configure existing          have clearly demonstrated that more than $1.1 billion
cargo aircraft for senior government official transport.         of Air Force-provided GFP was in the government’s best
The SLICC is a self-contained airborne travel module             interest. Furthermore, neither Air Force nor contractor
with communication interface connections as well as              personnel effectively controlled nor accurately accounted
conferencing and berthing capabilities. The SLIP is an open      for GFP authorized on service contracts. Effectively
air pallet with reclining airline seats for senior leaders and   controlling and accurately accounting for GFP protects

                                                                                                                           59
October 1, 2009 to March 31, 2010
                                                                                 Other DoD Oversight
�


government assets from loss, theft, and misuse; provides       create and record obligations within statutory limitations
reliable decision-making information; and facilitates          and requires recorded obligations be supported by valid
annual reporting. However, for the contracts sampled, Air      contractual documents. Air Force resource managers
Force personnel did not have adequate visibility, control,     routinely use Miscellaneous Obligation Reimbursement
and accountability of at least $27.8 million of unmarked       Documents to record known obligations when contractual
items and $8.7 million of GFP recorded in the property         documents are not readily available. HQ Air Force
records. The auditors estimated GFP valued at more             Resource Management officials perform major command
than $63.6 million may be lost, missing, or not properly       comptroller functions supporting requirements of 62
recorded on accountability records. Lastly, contractors        HQ Air Force directorates and field operating agencies.
did not effectively comply with Federal Acquisition            The follow-up audit disclosed that while HAF/RM
Regulations and contract requirements to annually report       officials achieved monetary benefits totaling more than
GFP. (Report No. F-2010-0001-FC1000)                           $46 million from the prior report, resource managers and
                                                               advisors did not effectively address or correct conditions
Air Force Research Laboratory                                  previously identified (repeat findings). Specifically,
Government Property                                            HAF/RM resource managers and advisors did not
The Air Force Research Laboratory relies extensively on        (a) maintain required supporting documentation to
contractors to provide scientific and technological advances   establish and pay MORDs and (b) validate and promptly
for the Air Force. Government property in the possession       deobligate unneeded MORD unliquidated obligation
of contractors consists of either government-furnished         balances. Effective controls over MORD establishment
property or contractor-acquired property/materials.            and payment allow for more efficient use of scarce Air
Government property is provided to the contractor only         Force funds. In July 2009, HAF/RM resource advisors
when necessary to execute contract requirements. The           deobligated unneeded MORD unliquidated obligation
audit disclosed AFRL personnel did not properly (a)            balances, allowing $15.9 million to be used for other
authorize the purchase or use of government property by        requirements. (Report No. F-2010-0003-FB1000)
contractors; (b) account for government property in the
                                                       Operations and Maintenance
laboratories; and (c) establish effective controls for the
                                                       Funds Programming
disposal of government property. As a result, laboratory
personnel possessed nearly $2 million of assets that were
                                                       Within DoD, Operations and Maintenance appropriations
not maintained on any accountability records. Assets   fund dynamic requirements that often change between
not maintained on accountability records are highly    the budget formulation and execution phases. Air
susceptible to theft, loss, and misuse. Furthermore, the
                                                       Force officials address these changing priorities through
Air Force could incur additional costs for duplicate   appropriate reprogramming actions. Auditors concluded
equipment acquisitions or storage of unneeded assets.  Air Force officials did not evaluate historical funds
(Report No. F-2010-0001-FC3000)                        execution trends when adjusting programmed amounts,
                                                       and did not effectively monitor funds execution to ensure
Financial Management                                   alignment with future O&M programs. As a result, Air
                                                       Force program officials’ over- and under-programmed
Follow-Up Audit, Headquarters                          a collective $24 billion over the 5-year budget period
Air Force Resource Management–                         reviewed. Enhanced O&M funds alignment during the
Miscellaneous Obligation/                              programming process can improve resource allocation
Reimbursement Documents                                decisions, reduce inefficient funds realignment during
DoD Financial Management Regulation 7000.14-R, execution years, provide better visibility into actual
Volume 14, Administrative Control of Funds and Anti- requirements, and avoid putting funds at risk of
deficiency Act Violations, authorizes DoD officials to congressional action. (Report No. F-2010-0006-FB1000)




60
                                                                                          Semiannual Report to the Congress
U.S. Air Force
�


Energy Metering Program                                        system used to produce the OCO Cost of War Report,
The Energy Policy Act of 2005 requires all federal buildings   and obligation transactions were properly supported with
to use electric meters to the maximum extent practicable       sufficient documentation. However, medical personnel
by the year 2012. To comply with this requirement, the         did not properly and effectively request and use OCO
Air Force must determine whether to install low-cost           funds to obtain OCO contingency-related providers. In
standard or high-cost advanced meters. DoD directs the         particular, MTF officials did not take effective contracting
use of advanced meters with remote metering capability         actions to obligate $22 million in OCO funds to backfill
where it is cost effective and practical. While advanced       deployed provider positions. Conversely, MTF officials
meters do not constitute a direct energy conservation          used more than $17 million in OCO funds to obtain
measure, data collected through advanced metering can          contract individuals to backfill positions that were
lead to energy and cost savings in conjunction with an         not impacted by deployments. Full use of OCO funds
energy monitoring and control system. The Air Force            mitigates the negative effect of personnel deployments in
established a benchmark to install advanced meters on          health care access and avoids placing unnecessary workload
existing facilities exceeding 35,000 square feet. The audit    burden on the remaining provider staff. Improperly
disclosed that although personnel used the most effective      using contingency funds for non-contingency-related
energy monitoring and control systems, Air Force civil         needs distorts the true cost of war-related operations and
engineers purchased high-cost advanced meters for 926          deprives other services of funds needed for valid OCO
(57 percent) of 1,618 facilities not meeting the Air Force     needs. Finally, medical personnel did not effectively and
benchmarks. In addition, 10 of 13 installation engineers       timely identify more than 70 percent of OCO obligation
did not verify capabilities of on-hand assets prior to         funds no longer needed for medical support. As a result,
purchasing additional meters. As a result, the Air Force       Air Force financial managers retained more than $19
unnecessarily purchased high-cost advanced meters when         million of invalid obligations using FY 2005 through FY
standard meters would have satisfied the requirement.          2008 OCO funds that could be made available for other
By only placing advanced meters on facilities meeting          valid requirements. (Report No. F-2010-0001-FD2000)
cost effectiveness criteria, personnel can reduce meter
purchases and provide the Air Force a one-time potential
monetary benefit of approximately $6.4 million. (Report
No. F-2010-0004-FD1000)

Overseas Contingency Operations
Funds for Medical Support
Overseas Contingency Operations funds for medical
support enable a military treatment facility to maintain
capabilities during deployment and contingency
operations. MTF management should pursue viable
medical backfill options, such as contract, civilian
employee, or manning assistance, to maintain the
peacetime mission. During FY 2008, the Air Force
Surgeon General received $146 million for OCO
requirements of which approximately 80 percent were
obligated for medical backfill contract positions, with the
remaining 20 percent used for other deployment-related               AFAA reviewed Overseas Contingency Operations
costs. The audit determined OCO obligation transactions                        funds for medical support.
were accurately recorded and reported in the accounting




                                                                                                                         61
October 1, 2009 to March 31, 2010
                                                                                 Other DoD Oversight
�


Government-Furnished Equipment                                 concluded Air Force personnel did not effectively manage
Financial Statement Reporting                                  PAD programs. Specifically, personnel did not properly
When in the best interest of the government, the Air Force     (a) appoint and train PAD program participants; (b)
provides contractors government-furnished equipment to         establish AED requirements; (c) account for, inspect, and
complete contract work. Federal accounting standards           maintain AEDs; and (d) perform post-event assessments.
require the Air Force to report equipment, to include          An effective PAD program can help save lives by
government-furnished equipment, exceeding $100,000             providing fully functional AEDs and trained personnel to
in the financial statements. The 2008 Air Force Financial      reduce the response time for treating individuals suffering
Statements did not include government-furnished                from sudden cardiac arrest. (Report No. F-2010-0002-
equipment in the reported General Equipment total              FD2000)
($36 billion acquisition value and $7 billion net book
value). Furthermore, the Air Force could not provide           Air Force Blood Program
the total government-furnished equipment dollar value.         As part of the Air Force Blood Program, personnel collect,
However, as of February 18, 2009, contractors reported         test, and distribute blood products to medical facilities
they maintained more than $22 billion of government-           worldwide. To supplement voluntary donations collected
furnished equipment (acquisition value) in their               at blood donor centers, Air Force personnel use credit
possession. Auditors determined Air Force procedures           agreements with civilian agencies to obtain additional
and actions to improve the accounting and reporting            blood products when necessary. This audit disclosed Air
of GFE in financial statements required significant            Force medical personnel did not properly account for
improvement. Specifically, Air Force personnel did not         blood products at five of nine locations. While auditors
account for government-furnished equipment in the              found no instances of expired blood/incorrect blood
Air Force Equipment Management System and did not              types inadvertently being used as a result of inadequate
maintain the related documentary support. As a result,         accountability, inventory accuracy is critical to prevent
the Air Force lost fiscal accountability of government-
furnished equipment in excess of $22 billion (acquisition
value), and of that amount, was unable to determine how
much was financially reportable (exceeding $100,000).
In addition, Air Force personnel did not take effective
actions to improve government-furnished equipment
financial reporting. As a result, the Air Force imposed
financial reporting of government assets onto contractors
and transferred fiduciary responsibility away from the Air
Force. (Report No. F-2010-0005-FB3000)

Health Care

Public Access Defibrillators
Military commanders are responsible for implementing
public access defibrillator programs in Air Force
facilities in accordance with federal guidelines. Properly
implemented PAD programs have achieved average
survival rates as high as 50 percent for out-of-hospital
cardiac arrests. At all 13 Air Force installations reviewed,                 AFAA reviewed the inventory of
auditors identified systemic discrepancies for at least 98                  blood products at medical facilities.
percent of the automated electronic defibrillators and


62
                                                                                            Semiannual Report to the Congress
U.S. Air Force 




this from occurring and to be able to trace blood products     Nuclear Enterprise
from original donor to final disposition. Additionally,
medical personnel did not adequately manage blood           Nuclear Data Validation
credits; however, personnel could improve management        Reinvigorating the Nuclear Enterprise remains the
over available inventory by redistributing excess products  Air Force’s highest priority. Recent Nuclear Enterprise
rather than purchasing the products from outside            improvements include creation of the Air Force Global
sources. Managing the blood program more efficiently        Strike Command; consolidation of all Air Force nuclear
could save the Air Force more than $300,000 over the        sustainment matters under an expanded Nuclear Weapons
six-year Future Years Defense Program by transferring       Center; and establishment of a Strategic Deterrence and
blood products between Air Force facilities rather than     Nuclear Integration Air Staff directorate. The Air Force
purchasing products from an outside source. Lastly,         Nuclear Task Force published an October 24, 2008
personnel improperly sold salvaged blood products to        roadmap titled Reinvigorating the Air Force Nuclear
commercial vendors in return for monetary credit and        Enterprise (referred to as the Roadmap). The Roadmap is
used the credits to purchase items instead of depositing thethe Secretary of the Air Force’s strategic plan to revitalize
money into the U.S. Treasury. The unauthorized sales of     the Air Force Nuclear Enterprise. This audit disclosed
blood products and use of proceeds increases the potential  roadmap data collection methods required improvement.
for fraud, waste, and abuse, and unauthorized contracting   Although Air Force officials properly processed and
creates an unnecessary liability to the Air Force. (Report  certified data in accordance with the Air Force Nuclear
No. F-2010-0003-FD2000)                                     Roadmap Assessment Internal Control Plan and ensured
                                                            responses were consistent across the Nuclear Enterprise,
Mental Health Provider Productivity opportunities existed to strengthen the Roadmap data
In 1994, DoD introduced TRICARE, a managed collection process. Specifically, major command officials
medical care system to provide better access and quality did not maintain documentation needed to support and
while maintaining the capability to support military validate ICP data call responses for 9 of 31 measures
operations. Under this concept, active duty and retired reviewed. Without supporting documentation, auditors
personnel, and their dependent families are provided a were unable to fully assess the reliability of data call
health care program that combines both direct (Air Force responses used to report Nuclear Enterprise status and
in-house capabilities) and indirect medical services (Air trends to DoD, national leaders, and nuclear oversight
Force purchases of medical services from commercial bodies. (Report No. F-2010-0003-FD3000)
sources). If medical treatment cannot be provided within
military treatment facilities, the facility commander is American Recovery and Reinvestment
responsible for purchasing the medical care from civilian Act of 2009
providers. Auditors concluded Air Force mental health The American Recovery and Reinvestment of Act of 2009
providers could increase the number of patients treated was signed into law February 17, 2009. The purpose of the
by improving patient appointment processes. Specifically, law was to create and save jobs, jump-start the economy,
optimizing appointments at the 13 locations reviewed will and create a foundation for long-term economic growth.
allow mental health providers the opportunity to treat, on The Act allowed the Air Force to address unfunded facility
average, an additional three patients per day (more than requirements. The Air Force Audit Agency conducted the
56,500 patients annually). Further, auditors estimate following three audits evaluating the use of Recovery Act
increasing provider productivity would potentially allow funds.
military treatment facilities to provide greater quantities
of care in-house and avoid purchasing private sector •	 American Recovery and Reinvestment Act of 2009
medical care, costing approximately $14.4 million over        Program Execution – Facilities Sustainment,
the six-year Future Years Defense Program. (Report No.        Restoration, and Modernization
F-2010-0004-FD2000)                                           The Recovery Act provided funding for 1,548 Facilities
                                                              Sustainment, Restoration, and Modernization projects

                                                                                                                       63
October 1, 2009 to March 31, 2010
                                                                                Othe
                                                                                 ther
                                                                                    r DoD Over
                                                                                          Oversight 




   valued at $1.15 billion. This audit was applied at          estimates would make $9.2 million available for other
   22 locations evaluating 100 percent of the projects         valid Recovery Act MILCON projects. In addition,
   at 18 locations and only Military Family Housing            without proper documentation, the Air Force does
   projects at 4 locations. AFAA concluded that Air            not have the required environmental and economic
   Force personnel properly competed contracts, quickly        detail to make informed construction decisions. Lastly,
   infused more than $850 million of Recovery Act funds        auditors were unable to determine whether personnel
   into the economy, and selected projects in accordance       include all new Federal Acquisition Regulation clauses
   with guidance. However, Air Force officials were not        in Recovery Act contracts, accurately reported project
   prepared to verify or validate jobs created/retained.       information (transparency), and achieved Recovery Act
   Thus, there was no assurance the goal and intent of         goals (fostering competition, expeditiously awarding
   the Recovery Act was achieved. In addition, officials       contracts, creating/retaining jobs) as no MILCON
   did not always choose adequately justified projects or      contracts were awarded as of the audit date. Auditors
   projects representing valid, most urgent requirement,       will evaluate these audit objectives in another audit
   or greatest need. Correcting high-priority facility         once contracts are awarded. (Report No. F-2010-0008-
   problems helps improve Air Force operations and             FD1000 )
   increases airmen’s quality of life. Additionally, not all
   Recovery Act contractual information (transparency •	 American Recovery and Reinvestment Act of 2009
   requirements) was available to the public. The timely       Air National Guard Military Construction
   and accurate reporting of funds distribution is crucial     The Recovery Act provided funding for 10 Air National
   to the success of the Recovery Act and easing taxpayer      Guard military construction projects valued at $50
   concerns. Further, Air Force officials did not include      million. This audit evaluated six ANG MILCON
   all significant Federal Acquisition Regulation clauses      projects valued at $27.9 million in Recovery Act funds.
   in all solicitations or contracts. As a result, contractors AFAA concluded that ANG Civil Engineering personnel
   may be unable to fulfill or adhere to all Recovery Act      properly justified and conducted environmental studies
   contract requirements. Finally, personnel did not ensure    for all six Recovery Act MILCON projects. However,
   Automated Civil Engineer System-Project Management          ANG personnel (a) overstated $7.6 million in cost
   estimates were updated and accurate. Consequently, the      estimates for three projects, (b) could not support and
   Air Force did not optimize funds distribution to major      justify $8.7 million in MILCON requirements for three
   commands and installations. (Report No. F-2010-             projects, (c) did not obtain and coordinate economic
   0007-FD1000)                                                analysis or waivers as required for five projects, and (d)
                                                               did not include all new Federal Acquisition Regulation
•	 American Recovery and Reinvestment Act of 2009              clauses in Recovery Act contracts or solicitations at four
   Military Construction                                       of five locations. Reducing overstated cost estimates
   The Recovery Act provided funding for 13 active             would make $7.6 million available for other valid
   Air Force military construction projects valued             Recovery Act MILCON projects. In addition, without
   at $260 million. This audit evaluated seven Air             proper documentation, the ANG does not have the
   Force MILCON projects valued at $103 million in             required environmental and economic detail to make
   Recovery Act funds. AFAA concluded that Air Force           informed construction decisions. Lastly, auditors were
   Civil Engineering personnel properly justified and          unable to determine whether personnel accurately
   conducted environmental studies for all seven Recovery      reported project information (transparency) and
   Act MILCON projects. However, Air Force personnel           achieved Recovery Act goals (fostering competition,
   (a) overstated $9.2 million in cost estimates for four      expeditiously awarding contracts, creating/retaining
   projects, (b) could not support and justify $5.98 million   jobs) as no ANG MILCON contracts were awarded
   in MILCON requirements for four projects, and (c) did       as of the audit date. Auditors will evaluate these audit
   not obtain and coordinate economic analysis or waivers      objectives in another audit once contracts are awarded.
   as required for five projects. Reducing overstated cost     (Report No. F-2010-0009-FD1000)

70
64
70
64
                                                                                          Semiannual R
                                                                                                     Repor
                                                                                                      eportt to the Congress
                                                                                                                    Congress
U.S. Air Force
�



Air Force Office of                                              used the information provided by AFOSI to capture the
                                                                 target and an additional cell member.
Special Investigations                                        •	 An Afghan national government employee responsible
The Air Force Office of Special Investigations is a field
                                                                 for convoy operations within the Kandahar Province was
operating agency accountable to the Secretary of the Air
                                                                 identified by AFOSI as an active insurgent facilitator.
Force, under the direction and guidance of the Inspector
                                                                 Based on information provided by AFOSI, NATO
General of the Air Force. It is a combat-ready military
                                                                 and local forces conducted an operation to capture the
organization that provides the Air Force a wartime
                                                                 target. The operation yielded the arrest of the target and
capability to conduct counter-threat operations to find,
                                                                 three additional associates, all of whom tested positive
fix, track, and neutralize enemy threats in hostile and
                                                                 for the presence of explosives. Additionally, during a
uncertain environments. It also serves as the Air Force’s
                                                                 search of the target’s compound, a complete and ready
focal point for working with United States and foreign
                                                                 to emplace IED and several additional components
nation law enforcement and security services to provide
                                                                 were located and seized.
timely and accurate threat information in all environments.
It operates as a federal law enforcement agency with
responsibility for conducting criminal investigations,
counterintelligence, specialized investigative activities,
protective service operations, and integrated force
protection for the Air Force.
         A more specific outline of AFOSI operations in
Afghanistan and Iraq follows.

Afghanistan Theatre of Operations

Kandahar
•	 As a direct result of AFOSI threat reporting, U.S.
   forces conducted multiple operations in western
   Kandahar and eastern Helmand Provinces, leading to
   the neutralization or capture of 12 insurgents and to
   the discovery and destruction of 2,500 pounds of black
   tar heroin.
•	 AFOSI members collected information instrumental             AFOSI special agents work with Afghan National Security.
   in tracking and arresting a previously incarcerated
   insurgent who was involved in narcotics trafficking and Bagram Air Base
   planning the summer 2008 Sarposa Prison escape. He •	 AFOSI conducted a month-long operation culminating
   was also responsible for multiple attacks on coalition      in the successful capture of an Afghan National
   forces.                                                     policeman involved with insurgent/Taliban support
•	 Two Unmanned Aerial Vehicles that were lost during          activities, murders, and reporting the locations of
   NATO operations were safely recovered as a result of        coalition forces. Agents also developed intelligence that
   information developed by AFOSI members. Recovering          directly incriminated an Afghan National police chief
   these vehicles denied possible transfer of sensitive        for his corruption and insurgent activities.
   technology to anti-coalition forces.                     •	 AFOSI members collected actionable data and
•	 In Kandahar City, AFOSI members assisted with               coordinated the capture of a Hezb-e-Islami Gulbuddin
   tracking a Taliban cell member responsible for a suicide    affiliated Afghan National police commander. This
   vehicle-borne IED attack that killed three Afghan           corrupt commander worked aggressively as an
   National Directorate of Security agents. U.S. forces        insurgent activity enabler. He directed or facilitated

                                                                                                                         65
October 1, 2009 to March 31, 2010
                                                                                      Other DoD Oversight
�


                                                                   Iraq Theatre of Operations
                                                                   •	 As a result of shared security responsibilities between
                                                                      Iraqi and American forces, AFOSI members at Joint
                                                                      Base Balad received notification from a concerned local
                                                                      citizen patrol of seven individuals setting up a rocket for
                                                                      an attack on coalition forces. Agents sounded the alarm,
                                                                      alerting patrols who located the rocket and neutralized
                                                                      it in place.
                                                                   •	 Information obtained through the AFOSI source
                                                                      network at Ali Air Base allowed elements of the Iraqi
                                                                      police to arrest a prominent member of a local insurgent
                                                                      cell, which resulted in the seizure of evidence used to
                                                                      solidify suspicions of corrupt local government officials.
                                                                   •	 Based on intelligence reporting developed by AFOSI
     AFOSI special agents in Afghanistan patrol a local village.      agents in Baghdad, U.S. forces tracked down and
                                                                      captured seven individuals suspected of conducting
                                                                      multiple IED attacks against coalition forces including
   several indirect fire and IED attacks on coalition forces;         one that resulted in the death of a USAF officer.
   assisted with preparing a suicide vehicle-borne IED that        •	 AFOSI members at Kirkuk Regional Air Base
   killed three Air Force Provisional Reconstruction Team             participated in an air operation with other U.S. forces
   personnel; and was directly involved in the kidnap and             that culminated with the arrest of an Islamic Sons of
   murder of a private American citizen.                              Iraq/Al-Qaida in Iraq Amir, who had ties to senior
•	 Agents identified, through AFOSI’s source network, the             insurgent leadership and was responsible for indirect
   location of two anti-armor missiles and notified the U.S.          fire attacks on coalition forces.
   Emergency Ordnance Disposal teams who disposed of               •	 A Jaysh al-Mahdi special group cell leader was captured as
   the weapons.                                                       a direct result of threat information collected by AFOSI
•	 An IED attack against a U.S. forces convoy was averted             members in the An Nasiriyah area. This cell leader was
   as the direct result of information provided to AFOSI              responsible for the murder of four Iraqi policemen by
   from local nationals. AFOSI agents identified the unit             means of an IED attack and multiple attacks against
   in danger and immediately sounded the alarm. The                   coalition forces. He also held a leadership position in
   convoy was approximately five minutes from the foiled              the Promise Day Brigade and had coordinated several
   attack site when they were notified, thus being spared             attacks with other known insurgents.
   personnel injury or possible death.
•	 AFOSI sources notified agents that insurgents were              Significant Cases
   observed placing an IED in a culvert on a road used
   by coalition and Afghan forces. AFOSI members                   Bribery of a Public Official
   forwarded the information to an EOD team and the                AFOSI received information that the owner of Samsung
   IED was neutralized.                                            Rental, a Korean national, was paying kickbacks to the
•	 While assisting Turkish forces at Bagram Air Field,             AAFES general manager of Osan Air Base for favorable
   AFOSI members recognized and detained a Taliban                 treatment relative to a telecommunications contract.
   commander, who had successfully infiltrated and                 Through coordination with the Korean National Police,
   embedded himself in the Afghan National Army. The               a search was executed at the Korean national’s office and
   Taliban commander was identified as being responsible           residence leading to the discovery of records revealing
   for attacks against U.S., British and Italian forces in         kickbacks and gratuities paid to the general manager
   Kabul.                                                          totaling more than $78,000 and 10,000 shares of Samsung
                                                                   Rental stock. The Korean national was arrested by the

66
                                                                                                Semiannual Report to the Congress
U.S. Air Force
�


KNP and admitted to paying kickbacks and gratuities to         in her home represented a significant potential security
the general manager. The Korean national was lured to the      breach. The contract employee pled guilty in a plea
United States and was arrested by AFOSI, FBI, and IRS          agreement, was sentenced to 90 days house arrest, and
agents for conspiracy and bribery of U.S. officials. He pled   suffered revocation of her security clearance.
guilty to two counts of bribery, one count of conspiracy,
and two counts of honest services wire fraud. He was           Murder of a Dependent Child (a
debarred from government contracting, sentenced to             Military Extraterritorial Jurisdiction
serve five years in prison and fined $50,000. The AAFES        Act Case)
general manager pled guilty to conspiracy to commit            After complaining of stomach pains and a headache, a
bribery, honest services wire fraud, and filing false tax      U.S. Air Force member’s son was found convulsing on
returns and was sentenced to three years imprisonment          the bathroom floor by his stepfather. The stepfather began
and forfeiture of $70,000.                                     cardio-pulmonary resuscitation but the child was later
                                                               pronounced dead. An autopsy revealed cause of death was
                                                               blunt force injuries of the abdomen (lacerated liver) and
                                                               the manner of death was homicide. After the Japanese
                                                               authorities released the stepfather, a U.S. civilian, with
                                                               no charges filed against him, the stepfather departed
                                                               Okinawa for the United States. Armed Forces Center
                                                               for Child Protection’s formal report of the stepson’s prior
                                                               injuries indicated a pattern of ongoing physical abuse and
                                                               cause of death being consistent with physical injuries at
                                                               time of death. The staff judge advocate at Kadena Air
                                                               Base, Japan, pursued Military Extraterritorial Jurisdiction
                                                               Act action against the stepfather. After declining a plea
                                                               agreement, the stepfather was indicted in Baltimore by a
                                                               grand jury and arrested that day. The U.S. District Court
                                                               of Baltimore found the stepfather guilty of murder and
                                                               assault of his stepson and sentenced him to 30 years in
                                                               prison.
   AFOSI special agent administers a polygraph examination.
                                                               Escape from Post-Trial Confinement
                                                               While serving 30-months confinement in the United
Mishandling of Classified Material                             Kingdom for possessing child pornography, an airman
A joint AFOSI and FBI investigation revealed a contract        escaped military custody during a medical appointment
employee for Lockheed Martin mishandled classified,            at the 48th Medical Group and left the facility. Command
proprietary and International Traffic in Arms material         officials declared the airman absent without leave and a
by illegally downloading information from her work             deserter. After being shown on the British Broadcasting
computer onto a thumb drive and removing the materials         Channel program “Crimewatch,” two calls came in with
from a controlled facility. The contract employee, a test      claims of having seen the airman at a soup kitchen in
engineer on a classified program dealing with satellite        Ipswich. AFOSI agents went to Ipswich and apprehended
communications, also sent classified e-mails from her          the airman. The airman admitted to tricking his escort,
work center to her unclassified personal e-mail address,       breaking contact, escaping the base, and using marijuana
and exchanged e-mails originating from an unclassified         while on the run. The airman received two years
personal e-mail account to co-workers. The volume of           imprisonment and a dishonorable discharge for desertion.
information stored on an unclassified personal computer



                                                                                                                        67
October 1, 2009 to March 31, 2010
     Defense Oversight 

        Community 


Providing Oversight for the Department...
	
                                         
	




        and Making a Difference!
	
	
Congressional
Testimonies, Briefings,
& Requests
Working with Congress
�

Section 4(a) of the Inspector General Act requires the           to meet the performance standards required. Finally,
Inspector General “to review existing and proposed               Ambassador Moorefield noted that the collective results
legislation and regulations relating to the programs             of work conducted throughout Southwest Asia have led
and operations of [the Department of Defense]” and               DoD IG to conclude that a relatively small number of
to make recommendations “concerning the impact                   inexperienced civilian or military contract administrators
of such legislation or regulations on the economy                and support personnel were assigned far-reaching
and efficiency in the administration of programs and             responsibilities for an unreasonably large number of
operations administered or financed by [the Department]          contracts.
or the prevention and detection of fraud and abuse in                     During the reporting period, the Inspector
such programs and operations.” DoD IG is given the               General and representatives of the Office of Inspector
opportunity to provide information to Congress by                General had more than 40 meetings with members of
participating in congressional hearings and briefings.           Congress and their staff. Topics of discussion during those
          On December 18, 2009, Ambassador Kenneth               meetings include issues such as the Guam Realignment,
Moorefield,DeputyInspectorGeneralforSpecialPlansand              whistleblower reprisal issues, information operations, and
Operations, testified before the Commission on Wartime           soldiers’ exposure to sodium dichromate.
Contracting on “Risks and Challenges Associated with                      Office of Communications and Congressional
Afghan National Security Forces Training Contracts.”             Liaison supports DoD IG by serving as the contact
In his testimony, Ambassador Moorefield described the            for communications to and from Congress, and by
challenges identified by DoD IG in audits, assessments,          serving as DoD IG public affairs office. From October
and investigations associated with contracting and contract      1, 2009 through March 31, 2010, OCCL received 183
oversight in support of U.S. efforts to train and mentor the     new congressional inquiries and closed 94 cases. New
Afghan National Security Forces. Ambassador Moorefield           inquires involved issues such as the American Recovery
testified that the use of contractors has played a key role in   and Reinvestment Act funding; the Battle of Wanat,
U.S. policies in Afghanistan, as they have in Iraq. While        Afghanistan; the Wounded Warrior Program; and requests
noting that contractors provided indispensable assistance,       related to reviews of senior DoD officials.
Ambassador Moorefield also testified that maintaining
effective contracting oversight was uniquely difficult in
Afghanistan.
          Ambassador Moorefield also testified about
problems associated with the “Afghan First” program,
which encourages contracting with Afghan companies
and Afghan personnel to construct needed roads and
facilities to support the development and expansion of
the ANSF. In his statement to the CWC, he wrote that
there were few Afghan companies with the requisite
experience to effectively undertake and complete projects
at the required standards, leading to some instances in
which Afghan companies were unable to meet contractual
timing and quality requirements. Ambassador Moorefield
also addressed how staffing deficiencies in the contract              Ambassador Kenneth Moorefield testifies before the 

                                                                           Commission on Wartime Contracting.
�
oversight community have resulted in a failure to ensure
that contractors selected by the Combined Security
Transition Command-Afghanistan had the capabilities


70
70
                                                                                             Semiannual
                                                                                              SemiannualRR
                                                                                                         epor
                                                                                                          eport ttotothe
                                                                                                                      theCongr
                                                                                                                          Congr
                                                                                                                              ess
                                                                                                                               ess
DEFENSE HOTLINE
 

                      Defense Hotline

                                                                                The Defense Hotline continues its primary mission of providing a confidential
                                                                                and reliable vehicle for military service members, DoD civilians, contractor
                                                                                employees, and the public to report fraud, waste, mismanagement, abuse of
                                                                                authority, threats to homeland security, and leaks of classified information.
                                                                                The Defense Hotline is diligent about protecting the identity of whistleblowers
                                                                                who wish to remain confidential. Whistleblowers are critical sources of
                                                                                information to Inspectors General, and it is imperative that DoD IG protect
                                                                                their identities to the greatest extent possible.
                                                                                        During the reporting period, DoD IG conducted a comprehensive
                                                                                review of the Defense Hotline that resulted in revised and improved operating
                                                                                procedures. The efforts in this regard have strengthened policies and procedures
                                                                                to protect DoD IG sources of information. A revised warning statement now
                                                                                accompanies all Defense Hotline documents to emphasize that access to
                                                                                Defense Hotline records is limited to individuals with the need-to-know for
                                                                                the purpose of providing a response by DoD IG. This helps to ensure that
                                                                                information that may include the identity of a source is properly protected.
                   d,
          ort:
               Frau use                                                         DoD IG also implemented additional procedures to clearly identify DoD IG
      Rep and Ab
      Was
          te,                                                                   sources who grant consent to release their identifying data and those who
                                                                                do not. The Defense Hotline must be viewed as a trusted, viable means of
          Defense Hotline                                                       reporting improprieties affecting the DoD as whistleblower protection is the
                 1-877-363-3348
                                                                                foundation of the fraud, waste, and abuse reporting program.
                                           Protect the Total Force                      The Defense Hotline is operational Monday through Friday from 8:00
     Military        *        Contractors               *      Civilians
                                                                                a.m. to 5:00 p.m., and is staffed by 16 full-time employees who examine and
                                                                                evaluate allegations pertaining to DoD programs and operations. Complaints
      Contact the Department of Defense
                                                                                also may be submitted to the Defense Hotline 24 hours a day through the
             Inspector General Hotline
 DSN: 312-664-1151       Email: hotline@dodig.mil       www.dodig.mil/hotline
                                                                                Internet and e-mail.
                                                                                        The Defense Hotline received 7,965 contacts from the general public
                          Send written complaints to:
                               Defense Hotline
                                                                                and members of the DoD community: 9 percent via U.S. mail, 30 percent
                                The Pentagon
                          Washington, DC 20301-1900                             via e-mail, 8 percent via the Internet, 1.5 percent via GAO, 51 percent via
                                                                                the telephone, and .5 percent from congressional inquiries. Based on these
                                                                                contacts, the Defense Hotline initiated 1,141 cases.
            Department of Defense                                                       The Defense Hotline closed 1,026 cases this reporting period.
           Inspector General Hotline                                            Investigations initiated exclusively by the Defense Hotline resulted in $47
                     1-877-363-3348                                             million returned to the federal government for this reporting period.
          Protect the Total Force




 Military                    Contractors                        Civilians
Report: Fraud, Waste, and Abuse
                         Send written complaints to:
                              Defense Hotline
                               The Pentagon
                         Washington, DC 20301-1900

DSN: 312-664-1151     Email: hotline@dodig.mil www.dodig.mil/hotline




72
72
                                                                                                                                Semiannual
                                                                                                                                 SemiannualRR
                                                                                                                                            epor
                                                                                                                                             eport ttotothe
                                                                                                                                                         theCongr
                                                                                                                                                             Congr
                                                                                                                                                                 ess
                                                                                                                                                                  ess
Appendices
 

                                                                                                                                                   Appendices
 


Appendices 

A. Audit, Inspection, and Evaluation Reports Issued..........................................................................................................74
 


B. DoD IG Reports Issued Containing Quantifiable Potential Monetary Benefits................................................................83
 


C. Follow-Up Activities....................................................................................................................................................84
 


D. Contract Audit Reports Issued.......................................................................................................................................86
 


E. Status of Action on Significant Post-Award Contract Audits.............................................................................................87
 


F. Status of DoD IG Reports Issued More than 12 Months Ago with Final Action Pending..................................................88
 


G. Significant Open Recommendations...........................................................................................................................125
 


H. Acronyms..................................................................................................................................................................127
 




                                                                     Appendix A

                            Audit, Inspection, and Evaluation Reports Issued
Copies of reports may be obtained from the appropriate issuing office by contacting:

            DoD IG                                                                                        Army Audit Agency
            (703) 604-8937                                                                                (703) 693-5679
            http://www.dodig.mil/PUBS                                                                     http://www.hqda.army.mil/aaaweb

            Naval Audit Service                                                                           Air Force Audit Agency
            (202) 433-5525                                                                                (703) 696-7904
            http://www.hq.navy.mil/navalaudit                                                             http://www.afaa.hq.af.mil

                            Reports Issued by Management Challenge Area
                                                             October 1, 2009 – March 31, 2010

                                                                                                      DoD IG                      Military Depts.                   Total
Joint Warfighting and Readiness                                                                            5                               56                         61
Information Assurance, Security, and Privacy                                                               3                               10                         13
Acquisition Processes and Contract Management                                                             16                               24                         40
Financial Management                                                                                      25                               32                         57
Health Care                                                                                                0                                7                          7
American Recovery and Reinvestment Act                                                                     4                                5                          9
Nuclear Enterprise                                                                                        0                                 1                          1
Other                                                                                                      8                                9                         17

Total                                                                                                     61                              144                        205
74
                                                                                                                                   Semiannual Report to the Congress
Appendix A
�



                                     A-2010-0004-ALM Weapons               A-2010-0021-ALL Retrograde
 Joint Warfighting                   Systems Sustainment Planning          Operations in Southwest Asia
   and Readiness                     (11/16/2009)                          - Kuwait, Class IX Aviation
                                                                           Warehouse, Camp Arifjan, Kuwait
                                     A-2010-0006-FFM Basic Allowance       (12/8/2009)
                                     for Housing for Reserve Component
             DoD IG �

              Soldiers, Examination of Army         A-2010-0022-ALL Retrograde
                                     Estimate for Additional Funding       Operations Southwest Asia, Multi-
D-2010-025 Transportation            and Back Pay Amounts - FY08           Class Retrograde, Camp Arifjan,
for DoD Personnel and Cargo          Contingency (10/22/2009)              Kuwait (12/7/2009)
Relocation From the Iraq Drawdown
(12/11/2009)                         A-2010-0008-ALR Property              A-2010-0024-ALI Excess, Vacant,
                                     Accountability, Mark-19               and Not Utilized Facilities and Land
D-2010-027 Army’s Management of 40-Millimeter Grenade Machine              (1/5/2010)
the Operations and Support Phase     Gun (11/5/2009)
of the Acquisition Process for Body                                        A-2010-0025-FFM Basic Allowance
Armor (12/8/2009)                    A-2010-0010-ALL Housing               for Housing for Reserve Component
                                     Management, Area Support Group        Soldiers, Examination of Army
D-2010-032 DoD Countermine and - Kuwait, Camp Arifjan, Kuwait              Estimate for Additional Funding
Improvised Explosive Device Defeat (1/15/2010)                             and Back Pay Amounts - FY 07
Systems Contracts - Husky Mounted                                          Activations (12/7/2009)
Detection System (12/31/2009)        A-2010-0011-FFM Basic Allowance
                                     for Housing for Reserve Component     A-2010-0027-ALO Bridges on Army
D-2010-035 Defense Logistics         Soldiers, Examination of Army         Installations, Fort Drum, New York
Agency Contracts for M2 Machine      Estimate for Additional Funding and   (12/11/2009)
Gun Spare Parts in Support of        Back Pay Amounts - FY 08 Special
Operations in Southwest Asia         Works Activations (11/9/2009)         A-2010-0029-ALM Followup
(1/11/2010)                                                                Report on the National Maintenance
                                     A-2010-0013-ALM Automatic Reset       Program Certification Process,
10-INTEL-01 Inspection of            Induction Retrograde and Depot        U.S. Army Materiel Command
an Under Secretary of Defense        Operations (FOR OFFICIAL USE          (12/15/2009)
for Intelligence Program No. 2       ONLY) (11/16/2009)
(1/15/2010)                                                                A-2010-0034-ALO Bridges on Army
                                     A-2010-0014-ALA Armed Aerial          Installations, Fort Carson, Colorado
  Army Audit Agency �

 Reconnaissance Requirement                         (12/17/2009)
                                     (FOR OFFICIAL USE ONLY)
                                     (11/9/2009)                           A-2010-0036-FFM Basic Allowance
A-2010-0002-ALO Bridges on Army                                            for Housing for Reserve Component
Installations, Fort Knox, Kentucky   A-2010-0016-FFF Recruiting            Soldiers, Examination of Army
(10/14/2009)                         Waiver Program - Active Army and      Estimate for Additional Funding
                                     Army Reserve, Office of the Deputy    and Back Pay Amounts--FY 06
A-2010-0003-ALR Dormant Stock, Chief of Staff, G-1 (11/9/2009)             Activations (12/21/2009)
Office of the Project Manager, Heavy
Brigade Combat Team (11/5/2009)      A-2010-0019-ALM Time-Sensitive        A-2010-0037-FFD Audit of
                                     Issue - Nonstandard Equipment         Antiterrorism Training (FOR
                                     Sustainment of Terminated Items       OFFICIAL USE ONLY) (1/4/2010)
                                     (12/8/2009)
                                                                                                               75
October 1, 2009 to March 31, 2010
                                                                                                Appendices
�


A-2010-0038-ALI Followup Audit       A-2010-0050-ALE Staffing                 A-2010-0069-ALE Antiterrorism
of Base Realignment and Closure      Requirements for Army Continuing         Training in Europe (FOR
2005 Construction Requirements,      Education System in Europe, U.S.         OFFICIAL USE ONLY)
Armed Forces Reserve Center, Fort    Army Installation Management             (3/19/2010)
Sill, Oklahoma (1/7/2010)            Command, Europe Region
                                     (2/18/2010)                               Naval Audit Service
A-2010-0040-ALM Time Sensitive
Issue--Javelin Command Launch        A-2010-0051-ALR Army National
Unit (CLU), Operational Readiness    Guard Property Accountability            N2010-0002 Navy Enlisted Training
Float (1/14/2010)                    Summary Report for Fiscal Year           Quota Management Process
                                     2007 and 2008 Audits (3/3/2010)          (11/10/2009)
A-2010-0041-ALR Followup Audit
of Property Accountability in the    A-2010-0052-FFD Physical Security        N2010-0007 Reserve Headquarters
Army National Guard, Oregon          of Privatized Base Operations            Support System Accuracy
Army National Guard (1/29/2010)      Infrastructure, Offices of the Provost   (1/15/2010)
                                     Marshall General and the Assistant
A-2010-0043-FFD Audit of Defense     Chief of Staff for Installation          N2010-0014 Recording of
Coordinating Officer Training and    Management (FOR OFFICIAL                 Navy Enlisted Classification
Oversight (2/2/2010)                 USE ONLY) (2/25/2010)                    Recommendations in the Navy
                                                                              Corporate Enterprise Training
A-2010-0044-ALL Forward              A-2010-0053-ALE Maintenance              Activity Resource System
Operating Base Closures,             Float Program in Europe, U.S.            (3/10/2010)
Multi-National Force - Iraq          Army, Europe and Seventh Army
(FOR OFFICIAL USE ONLY)              (2/17/2010)                              N2010-0019 Navy Plan to Meet
(1/26/2010)                                                                   Future SEAL End-Strength
                                     A-2010-0060-ALA Pricing and              (3/25/2010)
A-2010-0045-FFF Followup Report      Funding Security Assistance to Iraq
of Management of Initial Entry       and Afghanistan, U.S. Army Security              Air Force
�
Training Soldiers (1/20/2010)        Assistance Command (3/3/2010)
                                                                                    Audit Agency
�
A-2010-0047-FFP Organizational       A-2010-0064-FFS The Army’s
Clothing and Individual Equipment,   CONUS Support Base Services              F-2010-0001-FC2000 Logistics
Eighth U.S. Army (Field Army)        Contract (FOR OFFICIAL USE               Composite Model (11/19/2009)
and Installation Management          ONLY) (3/11/2010)
Command-Korea (1/22/2010)                                                     F-2010-0002-FC2000 T56 Propeller
                                     A-2010-0066-ALR Property                 Requirements (1/11/2010)
A-2010-0048-FFF Improvised           Accountability, III Corps
Explosive Device Defeat Unit         (3/31/2010)                              F-2010-0001-FC4000 Follow-up
Training (FOR OFFICIAL USE                                                    Audit, Termination of Excess On-
ONLY) (2/8/2010)                     A-2010-0067-ALO Bridges on Army          Order Parts (10/21/2009)
                                     Installations (3/24/2010)
A-2010-0049-ALA Use of Training                                               F-2010-0002-FC4000 Procurement
Aids, Devices, Simulators, and       A-2010-0068-ALO Followup Audit           Lead Times (1/12/2010)
Simulations by the Reserve           of Garrison Utilities and Energy
Component, Fort Eustis, Virginia     Services (3/19/2010)                     F-2010-0003-FC4000 Follow-up
(2/2/2010)                                                                    Audit, Cargo Processing (2/3/2010)


76
                                                                                     Semiannual Report to the Congress
Appendix A
 



F-2010-0004-FC4000 Global Air        D-2010-038 Identification of
Transportation Execution System      Classified Information in an                    Air Force 


Effectiveness (3/9/2010)             Unclassified DoD System and                   Audit Agency 


                                     an Unsecured DoD Facility
F-2010-0001-FD1000 United            (1/26/2010)                             F-2010-0001-FB2000 Quarterly
States Air Forces Central Deployed                                           Enterprise Buy Implementation
Locations Area of Responsibility     D-2010-044 Information Assurance        (10/5/2009)
Hazardous Materials and Hazardous    Controls Over the Outside the
Waste (11/19/2009)                   Continental United States Navy          F-2010-0001-FB4000 Follow-up
                                     Enterprise Network as Related to        Audit, Accountability and Control
F-2010-0006-FD1000 Air Force         the Operations in Southwest Asia        of Secure Terminal Equipment
Ground Safety Program (1/22/2010)    (3/2/2010)                              (11/18/2009)

F-2010-0001-FD3000 Individual          Army Audit Agency 

 F-2010-0002-FB4000 United
Body Armor (10/5/2009)                                                       States Air Forces Central Deployed
                                     A-2010-0039-ZBI Management of           Locations Cellular Device
F-2010-0002-FD3000 Pacific           Classified Communications Security      Management (11/27/2009)
Air Forces War Reserve Materiel      Materials, 902d Military Intelligence
(10/26/2009)                         Group, Fort Meade, Maryland (FOR        F-2010-0003-FB4000 Contractor
                                     OFFICIAL USE ONLY) (2/1/2010)           Circuit Security (1/13/2010)
F-2010-0002-FD4000 Civilian
Intern Programs (10/28/2009)         A-2010-0046-FFI Army
                                     Networthiness Certification                 Acquisition
F-2010-0003-FD4000 Overseas          Program, Chief Information                Processes/Con-
Civilian Hiring Process (2/3/2010)   Officer/G-6 (2/2/2010)                  tract Management
F-2010-0004-FD4000 Food Service       Naval Audit Service 


Operations (3/8/2010)
                                     N2010-0005 Information Security                    DoD IG 


                                     for Research, Development, Test and
    Information
                                     Evaluation and Education Legacy         D-2010-003 Defense Finance and
     Assurance                       Networks (1/7/2010)                     Accounting Service Contract for
 Security & Privacy                                                          Military Retired and Annuitant Pay
                                     N2010-0011 Accessibility of             Functions (10/22/2009)
                                     Personally Identifiable Information
             DoD IG 

               through the Navy/Marine Corps           D-2010-004 Cost Increases Related
                                     Intranet Homeport Web Site              to the Producer Price Index for
                                     (3/2/2010)                              Titanium Mill Shapes on DoD
D-2010-005 Information Security                                              Multiyear Contracts (10/29/2009)
at the Fleet and Industrial Supply   N2010-0017 Followup on Internal
Center, Sigonella, Detachment        Controls for Marine Corps Small         D-2010-021 Using System Threat
Bahrain (11/3/2009)                  Arms Shipments (3/17/2010)              Assessments in the Acquisition
                                                                             of Tactical Wheeled Vehicles
                                     N2010-0021 Department of                (11/23/2009)
                                     the Navy Security Manning
                                     Requirements at Navy Installations
                                     (3/29/2010)
                                                                                                                  77
October 1, 2009 to March 31, 2010
                                                                                               Appendices
 



D-2010-022 Management of                D-2010-047 Repair and                A-2010-0030-ALL Audit of
Nontactical Vehicles in Support         Maintenance Contracts for Aircraft   Contracting Operations, Joint
of Operation Iraqi Freedom              Supporting Coalition Forces in       Contracting Command - Iraq/
(11/20/2009)                            Afghanistan, Iraq, and Kuwait        Afghanistan, Baghdad Regional
                                        (3/26/2010)                          Contracting Center and Theater-
D-2010-024 Contracted Advisory                                               Wide Requirements Division,
and Assistance Services for the U.S.    Joint CIA DoD IG Audit of a          International Zone, Baghdad, Iraq
Army Future Combat Systems              Special Access Program Acquisition   (12/14/2009)
(11/24/2009)                            (CLASSIFIED)
                                                                             A-2010-0031-ALL Audit of
D-2010-028 Rapid Acquisition and        10-INTEL-02 Audit of the National    Contracting Operations, Joint
Fielding of Materiel Solutions by the   Assessment Group (3/4/2010)          Contracting Command - Iraq/
Navy (12/15/2009)                       (CLASSIFIED)                         Afghanistan, Regional Contracting
                                                                             Center - Victory, Camp Victory, Iraq
D-2010-029 DoD Contractor               10-INTEL-03 Investigation of         (2/16/2010)
Qualifications and Selection            Hotline Allegations Involving the
Criteria for Body Armor Contracts       DoD Joint Intelligence Operation     A-2010-0032-ALR Logistics
(12/21/2009)                            Center (3/19/2010) (CLASSIFIED)      Domain Governance Process
                                                                             (1/7/2010)
D-2010-033 Information                    Army Audit Agency 

Operations in Iraq (1/21/2010)                                               A-2010-0042-FFI Cellular
(CLASSIFIED)                                                                 Telephone Management, U.S. Army
                                        A-2010-0001-ALC Contract             Forces Command (1/14/2010)
D-2010-039 Recapitalization             Closeout Controls, U.S. Army Corps
and Acquisition of Light Tactical       of Engineers, Huntington District    A-2010-0054-ALL Agreed-Upon
Wheeled Vehicles(1/29/2010)             (11/10/2009)                         Procedures Attestation to Determine
(CLASSIFIED)                                                                 the Total Amount of Requisitions
                                        A-2010-0005-ALC Contract             Under DODAACW91JKW
D-2010-041 Acquisition Decision         Closeout Controls, U.S. Army Corps Processed by Soldiers From the 18th
Memorandum for the Defense              of Engineers (11/10/2009)            Fires Brigade, Fort Bragg, North
Integrated Military Human                                                    Carolina While Deployed to Iraq
Resources System (2/5/2010)             A-2010-0012-ALL Audit of             (FOR OFFICIAL USE ONLY)
                                        Controls Over Vendor Payments -      (2/24/2010)
D-2010-042 DoD Obligations and          Southwest Asia (Phase II) (1/5/2010)
Expenditures of Funds Provided                                               A-2010-0057-ALL Audit of
to the Department of State for the      A-2010-0018-ALL Audit of             Controls Over Vendor Payments
Training and Mentoring of the           Management and Visibility of         - Southwest Asia (Phase II)
Afghan National Police (2/9/2010)       Government Property Provided to      (2/24/2010)
                                        the Contractor Performing Bulk Fuel
D-2010-046 Contracting for              Operations in Kuwait (12/17/2009) A-2010-0061-FFM Followup Audit
Tactical Vehicle Field Maintenance                                           of Army Contract Pricing Process
at Joint Base Balad, Iraq (3/3/2010)    A-2010-0026-ALC Award Fee for        for Commercial Travel Office Fees
                                        Task Order 139 - Logistics Civil     (FOR OFFICIAL USE ONLY)
                                        Augmentation Program (LOGCAP) (3/4/2010)
                                        III Contract, U.S. Army Contracting
                                        Command (1/7/2010)

78
                                                                                    Semiannual Report to the Congress
Append
Appendix
      ix A
 



A-2010-0062-ALL Audit of             N2010-0009 Pricing for             D-2010-007 Endorsement of the
Controls Over Vendor Payments        Commercial Acquisitions            Unqualified Opinion on the FY
- Southwest Asia (Phase II)          (2/12/2010)                        2009 DoD Military Retirement
(3/16/2010)                                                             Fund Financial Statements
                                              Air Force I

             (11/9/2009)
A-2010-0074-ALA Army’s
                                          Audit Agency I


Development of Capabilities                                             D-2010-008 Independent Auditor’s
Documents, U.S. Army Training and                                       Report on the Air Force Working
Doctrine Command, Fort Monroe,    F-2010-0001-FB1000 Selected           Capital Fund FY 2009 and FY
Virginia (3/22/2010)              Financial Aspects of the Senior       2008 Basic Financial Statements
                                  Leaders Intransit Conference          (11/8/2009)
A-2010-0075-ALL Audit of Defense Capsule and Senior Leaders Intransit
Base Act Insurance, Audit of      Pallet Program (11/27/2009)           D-2010-009 Independent Auditor’s
Contracting Operations, U.S. Army                                       Report on the Army Working
Contracting Command Southwest     F-2010-0001-FC1000 Government-        Capital Fund FY 2009 and FY
Asia - Kuwait (FOR OFFICIAL       Furnished Equipment and Material      2008 Basic Financial Statements
USE ONLY) (3/23/2010)             on Service Contracts (3/3/2010)       (11/8/2009)

A-2010-0077-ALC Agreed-Upon          F-2010-0001-FC3000 Air Force       D-2010-010 Independent Auditor’s
Procedure Attestation of the Joint   Research Laboratory Government     Report on the Army General
Contracting Command - Iraq/          Property (11/16/2009)              Fund FY 2009 and FY 2008 Basic
Afghanistan Contract Closeout                                           Financial Statements (11/8/2009)
Task Force (FOR OFFICIAL USE                Financial
ONLY) (3/25/2010)                                                       D-2010-011 Independent Auditor’s
                                           Management                   Report on the Navy Working
A-2010-0078-ALE Contracting                                             Capital Fund-Marine Corps FY
Support Processes for Task Force                                        2009 and FY 2008 Basic Financial
- East, U.S. Army, Europe and                   DoD IG I

              Statements (11/8/2009)
Seventh Army (3/29/2010)
                                                                        D-2010-012 Independent Auditor’s
A-2010-0081-ZBI Contract             D-2010-001 Whistleblower           Report on the United States Marine
Closeout, Office of the Chief        Disclosure Regarding the DoD       Corps General Fund FY 2009 and
Information Officer/G-6 (FOR         Defense Technical Information      FY 2008 Basic Financial Statements
OFFICIAL USE ONLY)                   Center (10/9/2-09)                 (11/8/2009)
(3/30/2010)
                                     D-2010-002 Summary of DoD          D-2010-013 Independent Auditor’s
  Naval Audit Service I

 Office of Inspector General                   Report on the Department of the
                                     Audits of Financial Management     Navy Working Capital Fund FY
                                     (10/19/2009)                       2009 and FY 2008 Basic Financial
N2010-0001 E/2D Advanced                                                Statements (11/8/2009)
Hawkeye Radar (10/14/2009)           D-2010-006 Independent Auditor’s
                                     Report on the Air Force General    D-2010-014 Independent Auditor’s
N2010-0008 Selected Contracts        Fund FY 2009 and FY 2008 Basic     Report on the Department of the
and Contract Activities at Fleet and Financial Statements (11/8/2009)   Navy General Fund FY 2009 and
Industrial Supply Center Sigonella,                                     FY 2008 Basic Financial Statements
Italy (2/5/2010)                                                        (11/8/2009)


                                                                                                         79
October 1, 2009 to March 31, 2010
                                                                                             Appendices 



D-2010-016 Independent Auditor’s     D-2010-036 Controls Over Navy         A-2010-0063-FFP Agreed-
Report on the Department of          Military Payroll Disbursed in         Upon Procedures Attestation of
Defense FY 2009 and FY 2008 Basic    Support of Operations in Southwest    Army Emergency Relief, U.S.
Financial Statements (11/12/2009)    Asia at San Diego-Area Disbursing     Army Garrison Humphreys
                                     Centers (1/22/2010)                   (FOR OFFICIAL USE ONLY)
D-2010-017 Independent Auditor’s                                           (3/12/2010)
Report on the Department of          D-2010-037 Internal Controls
Defense Special-Purpose Financial    Over United States Marine Corps       A-2010-0065-FFM Agreed-Upon
Statements for Fiscal Years Ending   Commercial and Miscellaneous          Procedures Attestation of Statement
September 30, 2009 and 2008          Payments Processed Through the        of Budgetary Resources--Summary
(11/16/2009)                         Deployable Disbursing System          of Completed and Open Audits
                                     (1/25/2010)                           (3/16/2010)
D-2010-018 Independent Auditor’s
Report on the U.S. Army Corps        D-2010-040 Independent Auditor’s      A-2010-0070-FFH Child
of Engineers, Civil Works, FY        Report on the DoD FY 2009             Development and Youth Center
2009 and FY 2008 Basic Financial     Detailed Accounting Report of         Space Requirements, Office
Statements (11/24/2009)              the Funds Obligated for National      of the Assistant Chief of Staff
                                     Drug Control Program Activities       for Installation Management
D-2010-019 Independent Auditor’s     (2/1/2010)                            (3/16/2010)
Report on the Medicare-Eligible
Retiree Health Care Fund, FY         D-2010-043 Deferred Maintenance
2009 and FY 2008 Basic Financial     and Carryover on the Army Abrams
                                                                            Naval Audit Service
Statements (11/8/2009)               Tank (3/2/2010)
                                                                           N2010-0010 Bureau of Medicine
D-2010-020 Independent Auditor’s     D-2010-048 DoD Methodology for        and Surgery’s Internal Controls for
Report on the Contract Resource      the Valuation of Excess, Obsolete,    Personnel Pay (2/24/2010)
Management FY 2009 Basic             and Unserviceable Inventory and
Financial Statements (11/10/2009)    Operating Materials and Supplies      N2010-0012 Independent
                                     (3/25/2010)                           Attestation – Agreed-Upon
D-2010-023 Review of Defense                                               Procedures Attestation Engagement
Technical Information Center           Army Audit Agency                   of Naval Facilities Engineering
Internal Controls (12/3/2009)                                              Command Working Capital Fund
                                     A-2010-0007-FFM Independent           (3/2/2010)
D-2010-026 Joint Civilian            Auditor’s Report for FY 09 American
Orientation Conference Program       Red Cross Financial Statements        N2010-0015 Invoice Management
(12/9/2009)                          (10/30/2009)                          at Fleet Readiness Centers
                                                                           (3/10/2010)
D-2010-030 Utility Tax Relief        A-2010-0028-FFM Budgeting
Program in the Netherlands           for the Military Personnel, Army              Air Force
(1/6/2010)                           Appropriation (1/6/2010)                    Audit Agency
D-2010-034 Internal Controls Over    A-2010-0056-FFM Management            F-2010-0002-FB1000 Air Force
Army General Fund Cash and Other     Control Review of Mobile Payments     Office of Special Investigations
Monetary Assets Held in Southwest    Pilot Concept of Operations           Confidential Investigative
Asia (1/8/2010)                      (FOR OFFICIAL USE ONLY)               Contingency Funds (12/16/2009)
                                     (2/25/2010)

80
                                                                                  Semiannual Report to the Congress
Appendix A
 



F-2010-0003-FB1000 Follow-              F-2010-0001-FB3000 Real               F-2010-0001-FD4000 United
up Audit, Headquarters Air              Property - Construction in Progress   States Air Forces Central Area of
Force Resource Management               (10/21/2009)                          Responsibility Services Financial
- Miscellaneous Obligation/                                                   Activities (10/7/2009)
Reimbursement Documents                 F-2010-0002-FB3000 Real Property
(1/12/2010)                             Internal Controls (11/16/2009)

F-2010-0004-FB1000 Reserve              F-2010-0003-FB3000 Working
                                                                                     Health Care
Component Overseas Contingency          Capital Fund Internal Use Software
Operations Travel Payments              (11/19/2009)
(1/12/2010)
                                        F-2010-0004-FB3000 Overall
                                                                                Army Audit Agency 


F-2010-0005-FB1000 Official             Health of Environmental Liabilities
Representation Funds (1/19/2010)        (11/27/2009)                          A-2010-0020-FFH Followup Audit
                                                                              of Contracts for Medical Goods and
F-2010-0006-FB1000 Operations           F-2010-0005-FB3000 Government-        Services, North Atlantic Regional
and Maintenance Funds                   Furnished Equipment Financial         Medical Command (2/23/2010)
Programming (2/24/2010)                 Statement Reporting (1/11/2010)
                                                                              A-2010-0023-FFH Small Business
F-2010-0007-FB1000 Cargo                F-2010-0003-FC2000 Foreign            Contracts, U.S. Army Medical
Shipment Billings (3/3/2010)            Military Sales Dedicated Training     Command, Health Care Acquisition
                                        Program (FOR OFFICIAL USE             Activity (12/3/2009)
F-2010-0002-FB2000 Depot                ONLY) (2/3/2010)
Maintenance Accounting and                                                    A-2010-0035-ALE Staffing
Production System-Automated Bill        F-2010-0002-FD1000 Interim            Requirements for the Army
of Materials and Naval Air Industrial   Report of Audit, MacDill AFB, FL      Substance Abuse Program in Europe,
Material Management System              Wastewater Utilities Privatization    U.S. Army Installation Management 

Controls (10/5/2009)                    Economic Analysis (11/23/2009)        Command, Europe Region 

                                                                              (FOR OFFICIAL USE ONLY) 

F-2010-0003-FB2000 Depot                F-2010-0003-FD1000 Interim            (12/17/2009) 

Maintenance Accounting and              Report of Audit, MacDill AFB,
Production System - Integration         FL Water Utilities Privatization      A-2010-0083-FFH Pharmaceutical
Engine System Controls                  Economic Analysis (11/23/2009)        Operations, U.S. Army Medical
(10/13/2009)                                                                  Command (3/30/2010)
                                        F-2010-0004-FD1000 Energy
F-2010-0004-FB2000 Depot                Metering Program (1/19/2010)                   Air Force 


Maintenance Accounting and
Production System - Time and            F-2010-0005-FD1000 Facility
                                                                                     Audit Agency 


Attendance System Controls              Energy Reporting (1/22/2010)
(10/19/2009)                                                                  F-2010-0002-FD2000 Public Access
                                        F-2010-0010-FD1000 Air Force          Defibrillators (1/11/2010)
F-2010-0005-FB2000 Financial            Sustainable Construction Program
Management Enterprise Architecture      (3/8/2010)                            F-2010-0003-FD2000 Air Force
Implementation (2/24/2010)                                                    Blood Program (2/24/2010)
                                        F-2010-0001-FD2000 Overseas
                                        Contingency Operations Funds for
                                        Medical Support (1/11/2010)
                                                                                                                  81
October 1, 2009 to March 31, 2010
                                                                                               Append
                                                                                               Appendiices
                                                                                                       ces



F-2010-0004-FD2000 Mental                                                    D-2010-031 The Management
Health Provider Productivity                   Air Force
                    and Accountability of Property
(3/9/2010)                                   Audit Agency
                   Purchased at Regional Contracting
                                                                             Centers in Afghanistan (1/6/2010)
                                       F-2010-0007-FD1000 American
 American Recovery                     Recovery and Reinvestment Act of      D-2010-045 2003 Real Estate
 and Reinvestment                      2009 Program Execution - Facilities   Transactions of the Armed Forces
                                       Sustainment, Restoration, and
        Act                            Modernization (2/24/2010)
                                                                             Retirement Home - Gulfport
                                                                             (2/22/2010)

                                       F-2010-0008-FD1000 American           D-2010-6-001 Report on Review
           DoD IG
                     Recovery and Reinvestment Act         of Army Decision Not to Withhold
                                       of 2009 Military Construction         Funds on the Logistics Civil
D-2010-RAM-001 U.S. Army               (3/4/2010)                            Augmentation Program III Contract
Corps of Engineers Data Quality                                              (2/16/2010)
Review Processes for Civil Works       F-2010-0009-FD1000 American
Programs (10/30/2009)                  Recovery and Reinvestment Act of      SPO-2010-001 Assessment of U.S.
                                       2009 Air National Guard Military      and Coalition Efforts to Develop the
D-2010-RAM-002 DoD’s American          Construction (3/4/2010)               Medical Sustainment Capability of
Recovery and Reinvestment Act of                                             the Afghan National Security Forces
2009 Initial Data Quality Review                                             (3/31/2010)
Implementation (11/3/2009)             Nuclear Enterprise
                                                                             IE-2010-001 Evaluation of DoD
D-2010-RAM-003 Repair Aircraft                                               Contracts Regarding Combating
Parking Apron at Naval Station                                               Trafficking in Persons (1/15/2010)
Norfolk (3/10/2010)                            Air Force

                                             Audit Agency
                   IE-2010-002 Inspection of the
D-2010-RAM-004 Repair Air Traffic                                            Armed Forces Retirement Home
Control Building 118, Naval Air                                              (2/25/2010)
Station Jacksonville, FL (3/10/2010)   F-2010-0003-FD3000 Nuclear Data
                                       Validation (2/25/2010)                IPO-2010-E001 Evaluation of
     Army Audit Agency
                                                      DoD Sexual Assault Response in
                                                                             Operations Enduring and Iraqi
                                                   Other                     Freedom Areas of Operation
A-2010-0072-ALO American                                                     (2/2/2010)
Recovery and Reinvestment Act
of 2009, Fort Benning, Georgia
                                                                               Army Audit Agency

(3/18/2010)                                       DoD IG

A-2010-0080-ALO American                                                     A-2010-0033-FFE Accident
Recovery and Reinvestment Act          D-2010-015 DoD Civil                  Investigations and Reporting
of 2009, South Carolina National       Support During the 2007 and           (12/22/2009)
Guard (3/31/2010)                      2008 California Wildland Fires
                                       (11/13/2009)                          A-2010-0059-ALO DoD Support
                                                                             to the 2009 Presidential Inaugural
                                                                             (3/1/2010)

82
                                                                                    Semiannual Report to the Congress
Appendix A/B
 



                                             N2010-0006 Auditor General              N2010-0018 Followup to Audit 

 Naval Audit Service I

 Advisory – Acquisition Integrity                            Recommendations for Selected 

                                             Office Administrative Agreements        Internal Controls, Contracting,
N2010-0003 Morale, Welfare, and              (1/12/2010)                             and Investigative Support Audits
Recreation Department, Naval                                                         (3/23/2010)
Station Mayport, FL (12/29/2009)             N2010-0013 Selected Department
                                             of the Navy Military Construction       N2010-0020 Development and
N2010-0004 Internal Controls                 Projects Proposed for Fiscal Year       Utilization of Alternative Fuel
for Overtime Procedures at Navy              2011 (3/9/2010)                         Vehicle Program Infrastructure
Region Southwest (12/30/2009)                                                        at Selected Department of Navy
                                             N2010-0016 Reporting of Safety          Installations (3/26/2010)
                                             Mishaps (3/12/2010)



                                                     Appendix B

                  DoD IG Reports Issued Containing Quantifiable
                          Potential Monetary Benefits1

                                                                                        Potential Monetary Benefits
                                    Reports Issued                                     Disallowed         Funds Put to
                                                                                         Costs2             Better Use
D-2010-003 Defense Finance and Accounting Service Contract for Military
Retired and Annuitant Pay Functions (10/22/09)                                            N/A                 $715,257
D-2010-023 Review of Defense Technical Information Center Internal Control
(12/3/09)                                                                                 N/A               $21,800,000
D-2010-037 Internal Controls Over United States Marine Corps Commercial
and Miscellaneous Payments Processed Through the Deployable Disbursing
System (1/25/10)                                                                          N/A                $2,500,000
D-2010-039 Recapitalization and Acquisition of Light Tactical Wheeled Vehicles
(1/29/10)                                                                                 N/A              $3,840,000,000
D-2010-042 DoD Obligations and Expenditures of Funds Provided to the
Department of State for the Training and Mentoring of the Afghan National
Police (2/9/10)                                                                           N/A               $80,000,000
D-2010-043 Deferred Maintenance and Carryover on the Army Abrams Tank
(3/3/10)                                                                                  N/A               $275,000,000
D-2010-RAM-003 Repair Aircraft Parking Apron at Naval Station Norfolk
(3/10/10)                                                                                 N/A               $24,900,000
Totals                                                                                                     $4,244,915,257

1. Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(6)
   (see Appendix A).
2. There were no DoD IG reports during the period involving disallowed costs.


                                                                                                                             83
October 1, 2009 to March 31, 2010
                                                                                                                   Appendices
 



                                                      Appendix C


DECISION STATUS OF DOD IG ISSUED AUDIT REPORTS AND DOLLAR VALUE
     OF RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE*

                                                                                                                Funds Put
                                      Status                                          Number                  To Better Use 1
                                                                                                             ($ in thousands)
A.      No management decision had been made by the
        beginning of the reporting period.                                               39                     $19,741
B.      Issued during the reporting period.                                              55                    $4,244,915
        Subtotals (A+B)                                                                  94                    $4,264,656
C.      A management decision was made during the                                        67                     $49,526
        reporting period.

        (i)     dollar value of recommendations that were agreed to
                by management.
                - based on proposed management action
                - based on proposed legislative action
        (ii)    dollar value of recommendations that were not agreed
                to by management.                                                                                $49,5262
D.      No management decision has been made by the
        end of the reporting period.                                                     27                    $4,215,130
        No management decision was made within
        six months of issue (as of March 31, 2010).                                      163                     $19,415

1. DoD IG audit reports issued during the period involved no “questioned costs.”
2. On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary
   benefits cannot be determined until those actions are completed.
3. DoD IG Report Nos. D-2006-112, “Selected Controls over the Military Personnel, Army Appropriation”; D-2007-003,
   “Internal Controls over the Army General Fund, Note 3, ‘Fund Balance With Treasury,’ Disclosures”; D-2007-6-010, “Re-
   imbursement of Settlement Costs at DCMA Melbourne”; D-2009-032, “The America Supports You Program”; D-2009-
   036, “Acquisition of the Air Force Second Generation Wireless Local Area Network”; D-2009-063, “Funds Appropriated
   for Afghanistan and Iraq Processed Through the Foreign Military Sales Trust Fund”; D-2009-070, “Government Purchase
   Card Controls at U.S. Special Operations Command”; D-2009-087, “Controls Over Contract Obligation Data in the
   Logistics Modernization Program”; D-2009-104, “ Sanitization and Disposal of Excess Information Technology Equip-
   ment”; D-2009-107, “DoD Enterprise Staffing Solution”; D-2009-109, “Contracts Supporting the DoD Counter Narco-
   terrorism Technology Program Office”; D-2009-111, “Controls Over Information Contained in Blackberry Devices Used
   Within DoD”; D-2009-112, “Deferred Maintenance on the Air Force C-130 Aircraft”; D-2009-113,“Medical Equipment
   Used to Support Operations in Southwest Asia”; D-2009-INTEL-05, “Audit of the Management of Signals Intelligence
   Counterterrorism Enterprise Analysts”; and D-2009-INTEL-07, “Information Technology Portfolio for DoD Intelligence
   Databases”, had no decision as of March 31, 2010, but action to achieve a decision is in process.



* Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(a)(8)(9) & (10).


84
                                                                                                      Semiannual Report to the Congress
Appendix c
 





                      STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                                 Period ending March 31, 2010*

                                                                                                     Funds Put to
                                           Status                                     Number         Better Use 1
                                                                                                   ($ in thousands)
         DoD IG
           Action in Progress - Beginning of Period                                      238            $17,295
           Action Initiated - During Period                                               67            $49,526
           Action Completed - During Period                                               75           $194,770
           Action in Progress - End of Period                                            230           $44,6542
         Military Departments
           Action in Progress - Beginning of Period                                      632           $4,804,587
           Action Initiated - During Period                                              144            $417,120
           Action Completed - During Period                                              100             $68,342
           Action in Progress - End of Period                                            676           $4,767,734

         1. There were DoD IG audit reports opened for follow-up during the period involving “questioned costs”
            of $53 thousand.
         2. On certain reports (primarily from prior periods) with audit estimated monetary benefits of $1,899
            million, DoD IG agreed that the resulting monetary benefits can only be estimated after completion of
            management action, which is ongoing.




        * Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix,
          Section 5(b)(2) and (3).




                                                                                                                      85
October 1, 2009 to March 31, 2010
                                                                                                           Appendices


                                                  Appendix D


                             CONTRACT AUDIT REPORTS ISSUED1
                          OCTOBER 1, 2009 THROUGH MARCH 31, 2010


                                             Assignments                            Questioned        Funds Put to Better Use
              Type of Audit2                                      Examined
                                             Completed                               Costs3               ($ in millions)
Incurred Costs, Ops Audits,
Special Audits                                   2,671           $13,973.7             $372.5                  $87.54
Forward Pricing Proposals                        2,694           $119,025.3              ---                 $9,484.45
Cost Accounting Standards                         452              $885.5              $28.5                     ---
Defective Pricing                                 30              (Note 6)             $52.9                     ---
Totals                                           5,847           $133,884.5            $453.9                 $9,571.9



1. This schedule represents Defense Contract Audit Agency contract audit reports issued during the six months ended March
   31, 2010. This schedule includes any audits that DCAA performed on a reimbursable basis for other government agen-
   cies and the associated statistics may also be reported in other OIGs’ Semiannual Reports to Congress. Both “Questioned
   Costs” and “Funds Put to Better Use” represent potential cost savings. Because of limited time between availability of
   management information system data and legislative reporting requirements, there is minimal opportunity for DCAA to
   verify the accuracy of reported data. Accordingly, submitted data is subject to change based on subsequent DCAA authen-
   tication. In prior semiannual reporting periods, DCAA reported the total number of assignments completed. The total
   number of assignments completed during the six months ended March 31, 2010 was 8,293. Some completed assignments
   do not result in a report issued because they are part of a larger audit or because the scope of the work performed does not
   constitute an audit or attestation engagement under generally accepted government auditing standards, so the number of
   audit reports issued is less than the total number of assignments completed.
2. This schedule represents audits performed by DCAA summarized into four principal categories, which are defined
   as: Incurred Costs – Audits of direct and indirect costs charged to government contracts to determine that the costs are
   reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition
   Regulation Supplement, and provisions of the contract. Also included under incurred cost audits are Operations Audits,
   which evaluate a contractor’s operations and management practices to identify opportunities for increased efficiency and
   economy; and Special Audits, which include audits of terminations and claims. Forward Pricing Proposals – Audits of
   estimated future costs of proposed contract prices, proposed contract change orders, costs for redeterminable fixed-price
   contracts, and costs incurred but not yet covered by definitized contracts. Cost Accounting Standards – A review of a con-
   tractor’s cost impact statement required due to changes to disclosed practices, failure to consistently follow a disclosed or
   established cost accounting practice, or noncompliance with a CAS regulation. Defective Pricing – A review to determine
   whether contracts are based on current, complete and accurate cost or pricing data (the Truth in Negotiations Act).
3. Questioned costs represent costs that DCAA has questioned because the costs do not comply with rules, regulations, laws,
   and/or contractual terms.
4. Represents recommendations associated with operations audits where DCAA has presented to a contractor that funds
   could be used more effectively if management took action to implement cost reduction recommendations.
5. Represents potential cost reductions that may be realized during contract negotiations.
6. Defective pricing dollars examined are not reported because the original value was included in the audits associated with
   the original forward pricing proposals.

86
                                                                                                Semiannual Report to the Congress
Appendix E



                                                 Appendix E

                                STATUS OF ACTION ON 


                      SIGNIFICANT POST‑AWARD CONTRACT AUDITS1 


                      PERIOD ENDING MARCH 31, 2010 ($ in millions) 


                                               Number of
                                                Reports         Costs Questioned        Disallowed Costs6

             Open Reports:

               Within Guidelines2                  382               $559.3                   N/A7

               Overage, greater than six
               months3
                                                   613              $1,207.7                   N/A

               Overage, greater than 12
               months4                             474              $1,056.0                   N/A

                In Litigation5                     175              $2,133.0                   N/A

             Total Open Reports                   1,644             $4,956.0                   N/A

             Closed Reports                        384               $438.8              $212.3 (48.4%)8

             All Reports                          2,028             $5,394.8              $212.3 (3.9%)
1.	 This	schedule	represents	the	status	of	Defense	Contract	Audit	Agency	reports	on	incurred	costs,	defective	pricing,	
    equitable	adjustments,	accounting	and	related	internal	control	systems,	and	noncompliances	with	the	Cost	Account-
    ing	Standards	as	reported	by	the	Army,	Navy,	Air	Force,	Defense	Contract	Management	Agency,	Defense	Intelli-
    gence	Agency,	Defense	Logistics	Agency,	National	Geospatial-Intelligence	Agency,	National	Security	Agency	and	
    TRICARE	Management	Activity.	Contract	audit	follow-up	is	reported	in	accordance	with	DoD	Instruction	7640.02,	
    “Policy	for	Follow-up	on	Contract	Audit	Reports.”	Because	of	limited	time	between	availability	of	the	data	and	re-
    porting	requirements,	there	is	minimal	opportunity	to	verify	the	accuracy	of	the	reported	data.
2.	 These	reports	are	within	the	time	frames	established	by	OMB	Circular	A-50,	“Audit	Follow-up,”	and	DoD	Instruction	
    7640.02	as	described	in	footnotes	3	and	4	below.
3.	 OMB	Circular	A-50	requires	that	audit	reports	be	resolved	within	six	months	after	report	issuance.	Generally,	an	audit	
    is	resolved	when	the	contracting	officer	determines	a	course	of	action	which	is	documented	and	approved	in	accor-
    dance	with	agency	policy.
4.	 DoD	Instruction	7640.02	states	that	audit	reports	are	overage	if	not	dispositioned	within	12	months	from	date	of	is-
    suance.	Generally,	disposition	is	achieved	when	the	contractor	implements	audit	recommendations,	the	contracting	
    officer	negotiates	a	settlement	with	the	contractor,	or	the	contracting	officer	issues	a	final	decision	pursuant	to	the	
    Disputes	Clause.
5.	 Of	the	175	reports	in	litigation,	59	are	under	criminal	investigation.
6.	 Disallowed	costs	are	costs	sustained	by	the	contracting	officer	in	negotiations	with	contractors.
7.	 N/A	(not	applicable)
8.	 Contracting	officers	disallowed	$212.3	million	(48.4	percent)	of	the	$438.8	million	questioned	as	a	result	of	signifi-
    cant	post-award	contract	audits	during	the	period.	The	contracting	officer	disallowance	rate	of	48.4	percent	represents	
    an	increase	from	the	disallowance	rate	of	37.7	percent	for	the	prior	reporting	period.
                                                                                                                          87
October 1, 2009 to March 31, 2010
                                                                                                          Appendices



                                                   Appendix F

       STATUS OF DoD IG REPORTS ISSUED MORE THAN 12 MONTHS AGO 

                     WITH FINAL ACTION PENDING 1, 2 

                          (As of March 31, 2010) 


       Report Number               Description of Action             Reason Action Not            Principle Action Office
         Title/Date                                                     Completed
 96-156, Implementation         Implement system changes        Implementation has been de- DFAS
 of the DoD Plan to Match       to correct weaknesses in the    layed by higher management
 Disbursement to Obligations    automated prevalidation         priorities.
 Prior to Payment, 6/11/96      process.
 98-067, Access Reciprocity     Standardize Special Access       Newly identified legal issues USD(I)
 Between DoD Special Access     Program eligibility imple-       delayed issuance of DoD
 Programs, 2/10/98              menting criteria and develop     publications. Publications are
                                a centralized SAP database.      now expected to be issued by
                                                                 July 2010. Transition to an
                                                                 industry-developed database
                                                                 is scheduled for full imple-
                                                                 mentation by March 2011.
 98-124, Department of De-      Implement peer review pro-       Delays continue for the        USD(I)
 fense Adjudication Program,    gram and establish continu-      revision and coordination of
 4/27/98                        ing education standards and a DoD Instruction 5200.2 and
                                program for the professional DoD Manual 5200.2, which
                                certification for adjudicators. will replace DoD Regulation
                                                                 5200.2-R. Extensive time
                                                                 required for coordination and
                                                                 approval of DoD adjudicator
                                                                 certification program.
 99-159, Interservice Avail-    Revise Joint Service Regula-     Agreement among Non-           Army
 ability of Multiservice Used   tion to require consistent       consumable Item Program
 Items, 5/14/99                 item management wherever         Interservice Team resulted in
                                economical and safe. Services the recommendation that the
                                provide training on disposal     Joint Service Regulation be
                                authority for multi-service      converted to a DoD Manual
                                used items and requirements (similar to the one for con-
                                related to excess assets quanti- sumable items).
                                ties.




1. Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C. Appendix, Section 5(b)(4).
2. For this reporting period, there are disallowed costs of $102 million on reports over 12 months old with final action
   pending.

88
                                                                                              Semiannual Report to the Congress
Appendix F




       Report Number                 Description of Action             Reason Action Not         Principle Action Office
         Title/Date                                                       Completed
 D-2000-111, Security Clear-      Develop criteria and deter-       Delays continue for the      USD(I), DSS
 ance Investigative Priorities,   mine the highest priority         revision and coordination of
 4/5/00                           mission-critical and high-        DoD Instruction 5200.2 and
                                  risk positions based on their     DoD Manual 5200.2, which
                                  impact on mission-critical        will replace DoD Regulation
                                  programs. Develop a process       5200.2-R.
                                  for relating specific clearance
                                  requests to mission-critical
                                  and high-risk positions.
 D-2000-134, Tracking             The current database will  The decision to implement      DSS
 Security Clearance Requests,     be modified to retain all  a new system for case man-
 5/30/00                          pertinent historical informa-
                                                             agement and adjudications
                                  tion including dates/times and perform modifications
                                  for every occurrence (e.g.,to an existing system have
                                                             delayed implementation of
                                  deletions, case type, changes,
                                  cancellations, duplicates, con-
                                                             the recommendation. System
                                  versions, reinstatements). implementation is ongoing.
 D-2001-037, Collection and       Develop, test, and deploy  Selected system for use as     ASD(HA)
 Reporting of Patient Safety      Patient Safety Reporting   the patient safety reporting
 Data Within the Military         Program.                   program did not demonstrate
 Health System, 1/29/01                                      to be effective, suitable or
                                                             survivable for limited deploy-
                                                             ment. Replacement system is
                                                             being sought.
 D-2001-065, DoD Adjudica- Identify and process addition- Delays continue for the           DSS, USD(I)
 tion of Contractor Security  al adjudicative resources for  revision and coordination of
 Clearances Granted by the    Defense Industrial Security    DoD Instruction 5200.2 and
 Defense Security Service,    Clearance Office. Establish-   DoD Manual 5200.2, which
 2/28/01                      ment of continuing education will replace DoD Regulation
                              standards to facilitate the    5200.2-R. Extensive time
                              certification of professional  required for coordination and
                              adjudicators. Issue guidance   approval of DoD professional
                              on professional certification  adjudication and certification
                              and continuous training pro- program.
                              gram for all adjudicators.
 D-2001-135, Prevalidation of Develop cost-effective auto-   Correction of this material    USD(AT&L)
 Intergovernmental Transac-   mated methods to expand        weakness involves a long-
 tions, 6/6/01                prevalidation.                 term effort.
 D-2001-141, Allegations      Amend DoD 5200.2-R to          Corrective actions were        USD(I)
 to the Defense Hotline on    address security investigation delayed in order to incorpo-
 the Defense Security Assis-  requirements for foreign na- rate additional policies into
 tance Management System,     tional contractor employees. DoD Instruction 5200.2 and
 6/19/01                                                     DoD Manual 5200.2, which
                                                             will replace DoD Regulation
                                                             5200.2-R.



                                                                                                                           89
October 1, 2009 to March 31, 2010
                                                                                                       Appendices
 




       Report Number               Description of Action           Reason Action Not           Principle Action Office
         Title/Date                                                   Completed
 D-2001-158, Compilation of      Management will establish an Implementation has been de- DFAS
 the FY 2000 Army General        action plan to meet revised  layed by higher management
 Fund Financial Statements at    requirements for reconciling priorities.
 the Defense Finance and Ac-     suspense accounts.
 counting Service Indianapolis
 (Sustaining Forces), 7/13/01
 D-2001-170, U.S. Transpor-   Develop system changes to        Implementation has been de- TRANSCOM
 tation Command's Report-     differentiate among U.S.         layed by higher management
 ing of Property, Plant, and  TRANSCOM, Air Mobil-             priorities.
 Equipment Assets on the      ity Command, and Defense
 FY 2000 DoD Agency-wide      Courier Service assets. Create
 Financial Statements, 8/3/01 electronic interfaces between
                              the logistics and the account-
                              ing systems for transferring
                              data.
 D-2002-004, Import Process- Revise USFK Regulation            Competing management          USFK
 ing of DoD Cargo Arriving    55-72 to update requirements     priorities.
 in the Republic of Korea,    and implement a cost-effi-
 10/4/01                      cient system for the auto-
                              mated processing of custom's
                              forms using an electronic data
                              exchange.
 D-2002-010, Armed Ser-       MHS is in the early stages       Military Health Service       Air Force, ASD(HA)
 vices Blood Program Defense of developing DBSS replace-       Blood management acquisi-
 Blood Standard System,       ment plans. It is anticipated    tion strategy has changed.
 10/22/01                     the Commercial-Off-The-
                              Shelf solution will correct
                              the inventory counting and
                              interface problems.
 D-2002-073, Financial        Use transactional data from a    Slow system development       DFAS
 Management Ending Bal-       centralized database to popu-    process.
 ance Adjustments to General late general ledger accounts
 Ledger Data for the Army     in the Defense Departmental
 General Fund, 3/27/02        Reporting System Budget-
                              ary and continue efforts to
                              analyze and correct causes
                              for current adjustments; Use
                              transactional data to generate
                              a general ledger data file for
                              DDRS Budgetary.
 D-2002-117, Review of FY     Report is classified.            Extensive time needed for     DIA
 2001 Financial Statements                                     system development.
 for the Defense Intelligence
 Agency (U), 6/25/02




90
                                                                                            Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action             Reason Action Not           Principle Action Office
         Title/Date                                                      Completed
 D-2002-122, Environmental      Develop a more detailed           Delays were caused by broad- USD(P&R)
 Community Involvement          DoD instruction on Sus-           ening the scope of the draft
 Program at Test and Training   tainable Ranges Outreach.         instruction, extensive revi-
 Ranges, 6/28/02                Continue work on imple-           sions and coordination issues.
                                mentation of the new Direc-
                                tive and development of the
                                new instruction.
 D-2002-140, Measurement        Establish and implement           Lack of management respon- WHS
 of Water Usage by DoD          procedures to verify that the     siveness.
 Components Serviced by the     DCWASA routinely inspects
 DC Water and Sewer Au-         and reports results of inspec-
 thority, 8/20/02               tions for DoD-owned water
                                meters.
 D-2003-056, Public/Private     AT&L is working with OMB          Long-term corrective actions   USD(AT&L)
 Competition for the Defense    to address any overhead           are on schedule.
 Finance and Accounting         ambiguities in OMB Circular
 Service Military Retired and   A-76, proposing additional
 Annuitant Pay Functions,       guidance to clarify costing
 3/21/03                        policies, and providing defini-
                                tions for direct and indirect
                                costs as well as a revised
                                definition for overhead.
 D-2003-073, Reliability of     Report is classified.             Extensive time needed for      NGA
 the FY 2002 National Im-                                         system development.
 agery and Mapping Agency
 Financial Statements and Ad-
 equacy of Related Procedures
 and Controls (U), 4/2/03
 D-2003-074, Reliability of   Report is classified.               Long-term corrective actions   DIA
 the FY 2002 Defense Intel-                                       are in process.
 ligence Agency Financial
 Statements and Adequacy
 of Related Procedures and
 Controls (U), 4/7/03




                                                                                                                            91
October 1, 2009 to March 31, 2010
                                                                                                             Appendices




       Report Number               Description of Action             Reason Action Not               Principle Action Office
         Title/Date                                                     Completed
 D-2003-106, Administra-       The Director, Defense             Corrective actions are on         USD(AT&L)
 tion of Performance-Based     Procurement and Acquisi-          schedule. Normal time
 Payments Made to Defense      tion Policy, will conduct an      required to update the FAR
 Contractors, 6/25/03          assessment of the benefits of     and DFARS.
                               expanded performance-based
                               payments implementation.
                               It will address contracting
                               officer compliance with FAR
                               Part 32.10, and whether any
                               changes are needed to those
                               policies, the Performance-
                               Based Payments User’s Guide,
                               or training resources.
 D-2003-110, Information       The Civilian Personnel Man-       Extended time needed to           USD(P&R)
 Technology Management:        agement Service is working        develop system enhance-
 Defense Civilian Personnel    on initiatives to achieve goals   ments and address funding
 Data System Functional-       for system standardization of     shortfalls.
 ity and User Satisfaction,    basic civilian personnel opera-
 7/27/03                       tions.
 D-2003-128, The Chemical Assign authority and respon-           Extended time required to      USD(AT&L)
 Demilitarization Program:     sibilities for the Recovered      determine if additional policy
 Increased Costs for Stockpile Chemical Warfare Materiel         needed and to resolve fund-
 and Non-Stockpile Chemical Program to Army.                     ing issues with Army.
 Disposal Programs, 9/4/03
 D-2003-133, Report on         Emphasize the importance of       Extensive time required for       USD(C), DFAS
 Controls Over DoD Closed controls over the use of closed        changes to financial policies.
 Appropriations, 9/15/03       appropriations and monitor
                               compliance with applicable
                               laws and regulations. DFAS
                               establish specific standard
                               procedures to ensure that
                               accounting personnel approve
                               only legal and proper adjust-
                               ments to closed appropria-
                               tions, validate the canceled
                               balances and report any
                               potential Antideficiency Act
                               violations.
 04-INTEL-02, DoD Security Disparities between the con-          Delays continue for the       USD(I)
 Clearance Adjudication and tractor and military/civilian        revision and coordination of
 Appeals Process, 12/12/03     personnel adjudicative process    DoD Instruction 5200.2 and
                               will be eliminated with the       DoD Manual 5200.2, which
                               pending revision to the DoD       will replace DoD Regulation
                               Regulation 5200.2-R.              5200.2-R. Other long-term
                                                                 corrective actions related to
                                                                 BRAC are ongoing.


92
                                                                                                  Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action                Reason Action Not             Principle Action Office
         Title/Date                                                         Completed
 D-2004-007, Force Protec-       Report is classified.               Lack of management atten-        Marine Corps
 tion in the Pacific Theater                                         tion.
 (U), 10/14/03
 D-2004-008, Implementa-         Update Army Regulations             Coordination on issuance of      Army
 tion of Interoperability and    70-1and 71-9 to require             the related guidance contin-
 Information Assurance Poli-     combat developers to identify       ues.
 cies for Acquisition of Army    interoperability and sup-
 Systems, 10/15/03               portability requirements in
                                 requirements documents
                                 and update the requirements
                                 throughout the life of the
                                 systems, as necessary, in ac-
                                 cordance with DoD Directive
                                 4630.5 and to require pro-
                                 gram managers to obtain the
                                 Joint Staff J6 certifications for
                                 interoperability in accordance
                                 with Chairman of the Joint
                                 Chiefs of Staff Instruction
                                 6212.01B.
 D-2004-034, Environment:        Clarify requirements for            The Corps' guidance update       Army
 Defense Hotline Allegations     internal assessments.               was put on hold pending
 Regarding the Environmental                                         the revision of a higher level
 Compliance Assessment Pro-                                          Army regulation.
 cess at U.S. Army Corps of
 Engineers, Portland District,
 12/4/03
 D-2004-047, Implementa-     Program managers will be                Delays in coordinating and       Army
 tion of the DoD Manage-     able to store acquisition docu-         issuing policy.
 ment Control Program for    ments in Virtual Insight so
 Army Category II and III    the Milestone Decision Au-
 Programs, 1/23/04           thority can review document
                             status from development to
                             document approval. Army
                             Regulations will be updated
                             to reflect new reporting pro-
                             cedures.
 D-2004-053, Defense Threat Develop detailed guidance on             Extensive time required to       WHS
 Reduction Agency Relocation what should be considered               coordinate and issue guid-
 Costs, 2/19/04              when determining whether                ance.
                             the relocation cost cap in
                             section 8020 of the FY 2004
                             Appropriation Act has been,
                             or will be, exceeded.




                                                                                                                                 93
October 1, 2009 to March 31, 2010
                                                                                                                Appendices




       Report Number                  Description of Action             Reason Action Not             Principle Action Office
         Title/Date                                                        Completed
 D-2004-061, Export Con-           Ensure incorporation of ap-      Extensive time required to      USD(AT&L)
 trols: Export Controlled          propriate export compliance      coordinate and issue policy
 Technology at Contractor,         clauses into solicitations and   guidance.
 University and Federally          contracts.
 Funded Research and De-
 velopment Center Facilities,
 3/25/04
 D-2004-065, DoD Imple-            Revise Voting Assistance         Publication of Air Force        Air Force
 mentation of the Voting As-       Program guidance to reflect      Instruction has been delayed
 sistance Program, 3/31/04         recent changes to DoD guid-      to include pending revision
                                   ance. Improve monitoring of      of DoD guidance and then
                                   voting assistance program and    other related guidance.
                                   training of service members
                                   and spouses.
 D-2004-079, Reliability           Report is classified.            Long-term corrective actions    DIA
 of the Defense Intelligence                                        are in process.
 Agency FY 2003 Financial
 Statements (U), 4/29/04
 D-2004-080, Environmental         Implement guidance to im-    Corrective actions involve a        USD(AT&L)
 Liabilities Required to be Re-    prove developing, recording, long-term effort.
 ported on Annual Financial        and reporting environmental
 Statements, 5/5/04                liabilities.
 D-2004-099, Reliability of        Report is classified.        Long-term corrective actions        NSA
 National Security Agency FY                                    are in process.
 2003 Financial Statements
 (U), 7/15/04
 D-2004-104, Purchase Card         Provide guidance and            Extensive time needed to         Army
 Use and Contracting Actions       strengthen controls over use    revise guidance.
 at the U.S. Army Corps of         of the Government Purchase
 Engineers, Louisville District,   Card at the Louisville District
 7/27/04                           and at USACE Headquarters
                                   levels.




94
                                                                                                   Semiannual Report to the Congress
Appendix F
 




       Report Number                Description of Action            Reason Action Not          Principle Action Office
         Title/Date                                                     Completed
 D-2004-118, Army General     Update the DoD FMR to              Lack of management empha- USD(C), DFAS
 Fund Controls Over Abnor-    require the disclosure of unre-    sis; slow system development
 mal Balances for Field Ac-   solved abnormal balances for       process.
 counting Activities, 9/28/04 all proprietary and budgetary
                              general ledger accounts in
                              the footnotes to the financial
                              statements. Identify abnormal
                              conditions impacting both
                              budgetary and proprietary
                              account balances; notify ac-
                              counting activities of ab-
                              normal proprietary balances
                              and require explanations of
                              corrective actions; and resolve
                              abnormal balances in the
                              budgetary accounts.
 D-2005-020, Defense          DLA is identifying cost sav-       Normal time needed to         DLA
 Logistics Agency Processing  ings realized as a result of the   determine the full scope of
 of Special Program Require- DLA Customer Collabora-             realized monetary benefits.
 ments, 11/17/04              tion project.
 D-2005-022, Financial Man- The contract has been logged         Closeout work continues.      DFAS
 agement: Contract Classified and assigned to a contractor
 as Unreconcilable by the De- supporting the Commercial
 fense Finance and Account-   Pay Services Contract Recon-
 ing Service, 12/2/05         ciliation office for reconcilia-
                              tion. Based on the reconcili-
                              ation, recovery actions will
                              be initiated for any identified
                              overpayments made to the
                              contractor.
 D-2005-028, DoD Work-        Establish minimum training         Delays have been due to         USD(AT&L)
 force Employed to Conduct standards for competition             litigation, additional standard
 Public Private Competitions officials and DoD functional        competitions, and guidance
 Under the DoD Competitive and technical experts assigned        development.
 Sourcing Program, 2/1/05     to work on public-private
                              competitions, and advise the
                              DoD component competitive
                              sourcing officials concerning
                              defining and documenting
                              minimum education and/or
                              experience requirements.




                                                                                                                          95
October 1, 2009 to March 31, 2010
                                                                                                           Appendices




       Report Number               Description of Action           Reason Action Not              Principle Action Office
         Title/Date                                                   Completed
 D-2005-054, Audit of the       Report is FOUO.                Coordination is ongoing to      ASD(NII)
 DoD Information Technol-                                      promulgate the policies.
 ogy Security Certification
 and Accreditation Process,
 4/28/05
 D-2005-074, Support for        Report is classified.          Corrective actions are being    NSA
 Reported Obligations for the                                  implemented.
 National Security Agency
 (U), 6/28/05
 D-2005-093, Information        Report is FOUO.                Corrective actions are on       DISA
 Technology Management:                                        schedule.
 Technical Report on the
 Standard Finance System,
 8/17/05
 D-2005-097, Auditability       Report is classified.          Corrective actions are being    DIA
 Assessment of the Financial                                   implemented.
 Statements for the Defense
 Intelligence Agency (U),
 8/18/05
 D-2005-103, Development        Develop new controls and       Long-term corrective actions    Navy
 and Management of the          fully implement existing       are ongoing.
 Army Game Project, 8/24/05     controls to ensure that all
                                resources are safeguarded;
                                and revise Navy guidance on
                                accountability over pilferable
                                property to be consistent with
                                the DoD guidance.
 D-2006-003, Security Con-      Report is FOUO.                Extended time required for      USD(I), ASD(HA), Air
 trols Over Selected Military                                  revision and coordination of    Force
 Health System Corporate                                       guidance.
 Database, 10/7/05
 D-2006-010, Contract Sur-      The Army will develop          Normal time to develop and Army
 veillance for Service Con-     management controls to         implement new guidance and
 tracts, 10/28/05               ensure contract surveillance   procedures.
                                is adequately performed and
                                documented.
 D-2006-026, Air Force Op-      Report is classified.          Inconsistent application of     Air Force
 erational Mobility Resources                                  new repair procedures caused
 in the Pacific Theater (U),                                   errors in calculating shortages
 11/17/05                                                      in kits. Alternate plans are in
                                                               process to address gaps.




96
                                                                                              Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action            Reason Action Not           Principle Action Office
         Title/Date                                                     Completed
 D-2006-028, DoD Report-        DoD is revising its guidance     Normal time to review,         USD(AT&L)
 ing System for the Com-        to improve accounting of         revise, and implement new
 petitive Sourcing Program,     transition costs, tracking and   guidance.
 11/22/05                       reporting competition costs,
                                validating and reviewing re-
                                cords, capturing contractors'
                                past performance informa-
                                tion, and tracking and moni-
                                toring the performance of
                                Most Efficient Organizations.
 D-2006-030, Report on          Report is FOUO.                  Long-term corrective actions   DISA
 Diagnostic Testing at the                                       are ongoing.
 Defense Information Systems
 Agency, Center for Comput-
 ing Services, 11/30/05
 D-2006-039, Internal           The USD(C) will update the       Report had been in media-      USD(C), DFAS
 Controls Over the Com-         FMR and DFAS will rescind        tion and has been recently
 pilation of the Air Force,     an old instruction, update       resolved.
 General Fund, Fund Balance     and formalize other guidance,
 With Treasury for FY 2004,     delete invalid accounts and
 12/22/05                       update the General Account-
                                ing and Finance System-Re-
                                host posting logic to improve
                                internal controls over the
                                compilation of the Air Force,
                                General Fund, Fund Balance
                                with Treasury.
 D-2006-041, Operational        Report is classified.            Corrective actions were ini-  USFK, Marine Corps
 Mobility: Gap-Crossing                                          tially delayed due to changes
 Resources for the Korean                                        in force structure in Korea
 Theater (U), 12/26/05                                           and a new commander. Ac-
                                                                 tions are now on schedule.
                                                                 Increase in Marine Corps
                                                                 Approved Acquisition Objec-
                                                                 tive delays projected Full
                                                                 Operational Capability until
                                                                 FY 2012.
 D-2006-043, Financial          Establish procedures to en-      The final report on the ADA Army
 Management: Report on          sure the appropriate funding     investigation is in legal
 Army Management of the         of the Army Game Project,        review.
 Army Game Project Funding,     determine if there have been
 1/6/06                         any Antideficiency Act viola-
                                tions and report any such
                                violations, as required.




                                                                                                                           97
October 1, 2009 to March 31, 2010
                                                                                                               Appendices




       Report Number               Description of Action              Reason Action Not              Principle Action Office
         Title/Date                                                      Completed
 D-2006-053, Select Controls   Update the Ground Based            Extensive time needed for     MDA
 for the Information Security  Midcourse Defense Com-             a schedule change made to
 of the Ground-Based Mid-      munications Network                the installation of equipment
 course Defense Communica-     configuration to include: (1)      software and the transition-
 tions Network, 2/24/06        Automated monitoring of            ing of the authentication
                               the unencrypted and en-            service to the Defense Infor-
                               crypted communications and         mation Systems Agency.
                               monitoring systems; and (2)
                               Individual user passwords to
                               access the unencrypted com-
                               munications system.
 D-2006-054, DoD Process       The USD(C) is developing           Corrective actions are gener-    USD(C), Army, Navy, Air
 for Reporting Contingent      a forum to address develop-        ally on schedule.                Force
 Legal Liabilities, 2/24/06    ment of solutions for provid-
                               ing meaningful assessments
                               of contingent legal liabilities
                               and to develop and imple-
                               ment a uniform methodology
                               for estimating, aggregating,
                               and reporting them. The
                               Services are working to ensure
                               that "Other Liabilities" and
                               contingent liabilities are fully
                               supported and appropriately
                               disclosed.
 D-2006-056, Financial Man- The Air Force will review and         Normal time to review exist- Air Force
 agement: Report on Vendor     revise existing guidance.          ing guidance and develop
 Pay Disbursement Cycle, Air                                      and implement new guidance
 Force General Fund: Con-                                         and procedures.
 tract Formation and Fund-
 ing, 3/6/06
 D-2006-057, Corrective Ac- Report is classified.                 Corrective actions are on        NGA
 tions for Previously Identi-                                     schedule.
 fied Deficiencies Related to
 the National Geospatial-
 Intelligence Agency Financial
 Statements (U), 2/28/06
 D-2006-061, Source Selec-     The DoD will develop new           Corrective actions are on        USD(AT&L)
 tion Procedures for the Navy guidance.                           schedule.
 Construction Capabilities
 Contract, 3/3/06
 D-2006-062, Internal Con- Improve internal controls              Corrective actions for this      Air Force
 trols Over Compiling and      over compiling and reporting       material weakness involve a
 Reporting Environmental       cost-to-complete estimates for     long-term effort.
 Liabilities Data, 3/15/06     environmental liabilities.



98
                                                                                                  Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action            Reason Action Not           Principle Action Office
         Title/Date                                                     Completed
 D-2006-072, Internal Con-     The Department is working         Corrective actions and efforts Army, Navy, Air Force,
 trols Related to Department   to improve internal controls      to verify corrective actions are USD(AT&L), USD(C)
 of Defense Real Property,     at the installation level for     ongoing.
 4/6/06                        real property offices. The Air
                               Force is working to: identify
                               which fiscal year they can
                               prove existence, complete-
                               ness, and valuation, and
                               use that fiscal year as their
                               baseline for real property; and
                               maintain an audit trail that
                               supports the real property val-
                               ues reported on the financial
                               statements.
 D-2006-073, Human Capi- Develop and implement writ-             Planned revisions to DoD In- USD(AT&L)
 tal: Report on the DoD Ac-    ten standard operating proce-     struction 5000.55 have been
 quisition Workforce Count, dures and guidance for count-        delayed based on a decision
 4/17/06                       ing the acquisition workforce     to restructure Defense Acqui-
                               to include definitions of         sition Workforce Policy and
                               workforce count, methodolo-       Guidance. The restructure
                               gies and procedures used to       includes planned issuance
                               perform periodic counts, and      of one DoD instruction and
                               requirements to maintain and      two DoD manuals. ECD is
                               support related documenta-        June 2010.
                               tion. Revise DoD guidance to
                               update information require-
                               ments for automated data
                               files.
 D-2006-077, DoD Security Updating policies for the              Delays continue for the      USD(I), Army, Air Force
 Clearance Process at Request- DoD Personnel Security            revision and coordination of
 ing Activities, 4/19/06       Clearance Program to include      DoD Instruction 5200.2 and
                               various information including     DoD Manual 5200.2, which
                               program management and            will replace DoD Regulation
                               investigative responsibilities,   5200.2-R. Army guidance
                               security clearance systems,       initially on hold pending
                               submission processes, types       issuance of USD(I) guidance;
                               and levels of security clear-     however, Army now plans to
                               ances, and training require-      submit guidance for formal
                               ments for security personnel.     coordination by the end of
                                                                 FY 2010. Air Force guidance
                                                                 on hold pending the USD(I)
                                                                 publications.




                                                                                                                           99
October 1, 2009 to March 31, 2010
                                                                                                           Appendices
�




       Report Number               Description of Action            Reason Action Not              Principle Action Office
         Title/Date                                                    Completed
 D-2006-079, Review of          Update Business Systems         New deployment schedule          DLA
 the Information Security       Modernization Energy (Fuels     developed due to delays
 Operational Controls of the    Automated System) plan of       caused by the military ser-
 Defense Logistics Agency's     action and milestones to in-    vices’ internal coordination
 Business Systems Moderniza-    clude all security weaknesses   processes.
 tion-Energy, 4/24/06           based on the current system
                                configuration.
 D-2006-081, Financial          Report is classified.           Corrective actions are on        NSA
 Management: Recording and                                      schedule.
 Reporting of Transactions by
 Others for the National Secu-
 rity Agency (U), 4/26/06
 D-2006-083, Report on         Report is classified.            Distribution of IO across        USD(I)
 Information Operations in                                      multiple Joint Capability Ar-
 U.S. European Command                                          eas complicates development
 (U), 5/12/06                                                   of a comprehensive long-
                                                                term IO investment strategy.
                                                                ECD is FY 2012.
 D-2006-086, Information     Report is FOUO.                    Corrective actions are on        DISA
 Technology Management:                                         schedule.
 Report on General and Ap-
 plications Controls at the
 Defense Information Systems
 Agency, Center for Comput-
 ing Services, 5/18/06
 D-2006-087, Acquisition     Report is FOUO.                    Change in requirements and       Army
 of the Objective Individual                                    competing priorities.
 Combat Weapon Increments
 II and III, 5/15/06
 D-2006-096, Information     Report is FOUO.                    Long-term corrective actions     MDA
 Technology Management:                                         are on schedule.
 Select Controls for the
 Information Security of the
 Command and the Control
 Battle Management Commu-
 nications System, 7/14/06




100
                                                                                                Semiannual Report to the Congress
Appendix F
�




       Report Number                Description of Action            Reason Action Not          Principle Action Office
         Title/Date                                                     Completed
 D-2006-100, Procurement         The Air Force will develop a    Extensive time required to   Air Force
 Procedures Used for Next        plan to improve the collec-     coordinate the transition
 Generation Small Loader         tion, analysis, and reporting   from ICS to CLS contract.
 Contracts, 8/1/06               of maintenance data for the
                                 Halvorsen fleet; and transi-
                                 tion from a base level funded
                                 sustainment construct to
                                 Interim Contractor Support,
                                 and then to a Contractor
                                 Logistics Support contract to
                                 improve readiness.
 D-2006-107, Defense De-         Report is FOUO.                 Corrective actions are on    DCMO
 partmental Reporting System                                     schedule.
 and Related Financial State-
 ment Compilation Process
 Controls Placed in Opera-
 tion and Tests of Operating
 Effectiveness for the Period
 October 1, 2004, through
 March 31, 2005, 8/18/06
 D-2006-111, Expanded            Revise contingency-related      Extensive time required to   Air Force
 Micro-Purchase Authority for    purchase card guidance and      coordinate and issue Air
 Purchase Card Transactions      improve efforts to disseminate Force policy.
 Related to Hurricane Katrina,   and implement guidance.
 9/27/06                         Also, establish a robust over-
                                 sight presence and significant-
                                 ly strengthen internal controls
                                 to mitigate the risk of fraud,
                                 waste, and abuse.




                                                                                                                          101
October 1, 2009 to March 31, 2010
                                                                                                        Appendices
�




       Report Number             Description of Action            Reason Action Not             Principle Action Office
         Title/Date                                                  Completed
 D-2006-114, Budget Execu-  Develop and execute SOPs          Long-term corrective actions    DFAS
 tion Reporting at Defense  to: record and report obliga-     are ongoing.
 Finance and Accounting     tions incurred against cat-
 Service Indianapolis, 9/25/06
                            egory codes that are consis-
                            tent with the apportionment
                            category codes; adjust the
                            amounts submitted to the
                            Treasury and reported on
                            the Army Report on Budget
                            Execution and Budgetary
                            Resources; perform a quar-
                            terly reconciliation on those
                            amounts; notify the Treasury
                            when amounts on the OMB
                            Report on Budget Execution
                            and Budgetary Resources are
                            not accurate; and disclose the
                            existence of material unrec-
                            onciled differences in budget
                            execution data as part of the
                            footnote disclosures to the
                            Army financial statements.
 D-2006-115, Acquisition:   DoD is in the process of clari-   Extensive time required for     USD(AT&L)
 Commercial Contracting for fying the term “Commercial        the approval process to up-
 the Acquisition of Defense Item” in appropriate DoD          date DoD guidance.
 Systems, 9/29/06           guidance.
 D-2006-117, American Forc- Issue draft DoD Instruction       Extensive time needed to        ASD(PA)
 es Network Radio Program- 5120.20 and DoD Manual             develop guidance as a result
 ming Decisions, 9/27/06    5120.20 to provide written        of formal standup of the
                            policies, controls, and pro-      Defense Media Activity.
                            cedures for the radio pro-
                            gramming decision-making
                            process.
 D-2006-118, Financial Man- Processing the closeout of        Additional time needed for   USD(C)
 agement: Financial Manage- Hurricane Katrina mission         development of departmental
 ment of Hurricane Katrina  assignments and returning         guidance; corrective actions
 Relief Efforts at Selected reimbursable funding author-      predicated upon actions by
 DoD Components, 9/27/06 ity to the Federal Emergency         outside agencies.
                            Management Agency. Devel-
                            oping departmental guidance
                            to reflect changes in financial
                            management responsibilities.




102
                                                                                             Semiannual Report to the Congress
Appendix F
�




       Report Number                 Description of Action           Reason Action Not          Principle Action Office
         Title/Date                                                     Completed
 D-2006-123, Program Man-         Report is FOUO.                Change in requirements and    Army
 agement of the Objective                                        competing priorities.
 Individual Combat Weapon
 Increment I, 9/29/06
 D-2007-010, Army Small           Army is following up on the    Lack of management atten-     Army
 Arms Program that Relates to     findings and recommenda-       tion.
 Availability, Maintainability,   tions of the Soldier Weapons
 and Reliability of Small Arms    Assessment Team Report
 Support for the Warfighter,      Number 6-03.
 11/2/06
 D-2007-024, Management       USD(P&R) will establish       Long-term corrective actions       USD(P&R)
 and Use of the Defense Travela process to collect com-     on schedule.
 System, 11/13/06             plete, reliable, and timely
                              DoD travel information and
                              establish necessary improve-
                              ments to maximize benefits of
                              Defense Travel System.
 D-2007-025, Acquisition of Report is FOUO.                 Extended time needed to            PACOM
 the Pacific Mobile Emergency                               analyze and resolve contract
 Radio System, 11/22/06                                     overcharges.


 D-2007-029, Auditability         Report is classified.          Corrective actions are on     DIA
 Assessment of the Defense                                       schedule.
 Intelligence Agency Busi-
 ness Processes for the Iden-
 tification, Documentation,
 and Reporting of Property,
 Plant, and Equipment (U),
 11/30/06
 D-2007-040, The General          Improve the reliability of     Long-term corrective action   Navy
 and Application Controls         financial information by       on schedule.
 Over the Financial Manage-       strengthening the general and
 ment System at the Military      application controls over the
 Sealift Command, 1/2/07          Military Sealift Command’s
                                  Financial Management
                                  System. Specifically, improve
                                  internal controls over entity-
                                  wide security program plan-
                                  ning and management, access
                                  controls, software develop-
                                  ment and change controls,
                                  system software, segregations
                                  of duties, and service conti-
                                  nuity.




                                                                                                                          103
October 1, 2009 to March 31, 2010
                                                                                                            Appendices
�




      Report Number               Description of Action               Reason Action Not             Principle Action Office
        Title/Date                                                       Completed
 D-2007-041, Navy General      Update the DoD FMR to be           Long-term corrective actions    USD(C), DFAS, Navy
 Fund Vendor Payments Pro-     in full compliance with State-     are ongoing.
 cessed By Defense Finance     ment of Federal Financial Ac-
 and Accounting Service,       counting Standards Number
 1/2/07                        1; improve the recording of
                               DoN accounts payable trans-
                               actions; identify the accounts
                               payable recording as an assess-
                               able unit and develop proce-
                               dures to test compliance with
                               Navy General Fund; strength-
                               en procedures to ensure that
                               supporting documentation
                               for all non-Electronic Data
                               Interchange vendor payment
                               transactions is adequately
                               maintained and supports
                               proper disbursements; im-
                               prove payment processes and
                               operating procedures used
                               to make vendor payments;
                               require all certifying officials
                               to provide complete and ac-
                               curate supporting documents.
 D-2007-043, Controls Over     The Army and Air Force will        Extensive time required to      Army, Air Force
 the Army, Navy, and Air       revise purchase card guid-         coordinate and issue policy
 Force Purchase Card Pro-      ance and improve efforts to        guidance.
 grams, 1/10/07                disseminate and implement
                               guidance.
 D-2007-044, FY 2005 DoD       Revise the Army’s internal         Extensive time required to      Army
 Purchases Made Through the    policy on the proper use of        coordinate and issue policy
 Department of the Interior,   non-DoD contract instru-           guidance.
 1/16/07                       ments.
 D-2007-048, Navy Sponsor      The Navy is working to             Corrective actions are on       Navy
 Owned Material Stored at      improve controls over the fi-      schedule.
 the Space and Naval Warfare   nancial reporting of sponsor-
 Systems Centers, 1/26/07      owned material and inventory
                               controls over sponsor-owned
                               materials.
 D-2007-049, Equipment         Report is classified.              Awaiting publication of         USD(P&R)
 Status of Deployed Forces                                        pending guidance. ECD is
 Within the U.S. Central                                          6/1/2010.
 Command (U), 1/25/07




104
                                                                                                 Semiannual Report to the Congress
Appendix F
 





       Report Number                Description of Action          Reason Action Not               Principle Action Office
         Title/Date                                                   Completed
 D-2007-054, Quality Assur-  ASD (HA) will revise DoD          Normal time required for           ASD(HA), Army, Navy, Air
 ance in the DoD Healthcare  6025-13-R, “Military Health       implementation of recom-           Force
 System, 2/20/07             System Clinical Quality As-       mendations.
                             surance Program Regulation,”
                             6/11/04 to help Military
                             Health System managers
                             monitor and improve the
                             quality of medical care in the
                             MHS and mitigate the risk of
                             financial loss. Upon revision
                             of the DoD regulation, the
                             Services will revise Service-
                             level guidance as necessary.
 D-2007-055, Contract        The USACE Principal Assis-        Corrective actions are ongo-       Army
 Administration of the Water tant Responsible for Con-         ing.
 Delivery Contract Between   tracting will issue guidance
 the Lipsey Mountain Spring reiterating contract require-
 Water Company and the       ments for properly supported
 United States Army Corps of invoices and proper record-
 Engineers, 2/5/07           keeping. Also, Wilmington
                             Internal Review office will
                             conduct a review of payment
                             processes to ensure properly
                             supported payments.
 D-2007-062, Department of The DUSD Installations and          Extensive time required to         USD(AT&L)
 the Navy Purchases for and  Environment will update           revise policy guidance.
 From Governmental Sources, DoD Instruction 4000.19 to
 2/28/07                     include the requirements of
                             the DoD Financial Manage-
                             ment Regulation, Volume
                             11A, Chapter 3.
 D-2007-065, Controls Over Implement more effective            Functional system changes          USD(C), DFAS, DCMO,
 the Prevalidation of DoD    internal controls to ensure       are in the final stages of test-   Army
 Commercial Payments,        that DoD matches each com-        ing.
 3/2/07                      mercial payment request to
                             the corresponding obligation
                             and that, once prevalidated,
                             the disbursement transaction
                             correctly posts in the official
                             accounting records without
                             manual intervention.
 D-2007-066, Navy Acquisi- Ensure that suitability de-         Resource and system issues   Navy
 tion Executive's Management ficiencies identified during      have extended time needed to
 Oversight and Procurement   testing of the AN/SPY-1D(V)       fully resolve program defi-
 Authority for Acquisition   Radar Upgrade System are          ciencies.
 Category I and II Programs, resolved prior to production
 3/9/07                      decision.

                                                                                                                             105
October 1, 2009 to March 31, 2010
                                                                                                                 Appendices
 




       Report Number                 Description of Action              Reason Action Not              Principle Action Office
         Title/Date                                                        Completed
 D-2007-073, Financial Data       Develop appropriate ac-           Resolution of the account-       Army, Navy, Air Force
 Processed By the Medical         counting, measurement, and        ing issues involves extensive
 Expense and Performance          recognition methods for the       system changes that are in
 Reporting System, 3/21/07        data used in the MEPRS allo-      process.
                                  cation process at the military
                                  treatment facilities.
 D-2007-078, Audit Practices      The C-17 program officials        Implementation has been          Air Force
 for the C-17 Globemaster         will ensure that the contractor   delayed by resubmission of
 III Sustainment Partnership      complies with the require-        updated contractor propos-
 Contract, 4/9/07                 ments of FAR 15.403-4             als and DCAA scheduled
                                  and provides Certified Cost       reviews of material and labor
                                  or Pricing Data to support        proposals.
                                  the price proposal for FY
                                  2009-2011. Additionally,
                                  the CCPD will be examined
                                  and confirmed to be current,
                                  accurate, and complete in
                                  accordance with the Truth in
                                  Negotiations Act.
 D-2007-084, Acquisition          Report is FOUO.                   Long-term corrective actions     Navy, DCMA
 of the Navy Rapid Airborne                                         are ongoing.
 Mine Clearance System,
 4/11/07
 D-2007-085, Reporting            The Navy is working to im-        Corrective actions are on        Navy
 of Navy Sponsor Owned            prove financial reporting and     schedule.
 Material Stored at the Naval     controls over sponsor-owned
 Systems Command Activi-          material.
 ties, 4/24/07
 D-2007-086, Audit of In-         Report is classified.             Corrective actions are on        NSA
 coming Reimbursable Orders                                         schedule.
 for the National Security
 Agency (U), 4/24/07
 D-2007-087, Internal Con-        DFAS will implement policy Corrective actions will be              DFAS
 trols Over Army General          to maintain documentation       verified during an upcoming
 Fund Transactions Processed      of any off-line filter transac- audit.
 by the Business Enterprise In-   tion corrections; reconcile
 formation Services, 4/25/07      combinations listed in the
                                  Filter Criteria Table with
                                  applicable guidance and
                                  document the justification for
                                  any differences; and docu-
                                  ment the BEIS transaction
                                  processing to include explana-
                                  tions for exceptions to normal
                                  processing.



106
                                                                                                    Semiannual Report to the Congress
Appendix F
 




       Report Number                Description of Action              Reason Action Not           Principle Action Office
         Title/Date                                                       Completed
 D-2007-094, Consolidation       Report is FOUO.                   A U.S. court decision is be-   DCMA
 of Lockheed Martin Pension                                        ing appealed.
 Accounting Records for Se-
 lected Business Acquisitions,
 5/14/07
 D-2007-095, Consolidation       Report is FOUO.                   Corrective actions are depen- DCAA, DCMA
 of Raytheon Pension Ac-                                           dent on legal actions that are
 counting Records for Se-                                          in process.
 lected Business Acquisitions,
 5/14/07
 D-2007-099, DoD Privacy         Modify DoD Directive              Corrective actions are ongo-   DAM
 Program and Privacy Impact      5400.11, “DoD Privacy Pro-        ing.
 Assessments, 6/13/07            gram,” November 16, 2004;
                                 and Assess the DoD Privacy
                                 Program.
 D-2007-100, Audit of the        Report is FOUO.                   Extensive time required to     USD(AT&L), USD(C)
 Special Operations Forces                                         coordinate and issue guid-
 Support Activity Contract,                                        ance.
 5/18/07
 D-2007-110, Identification      The DoD will continue to          Corrective actions are on      USD(C)
 and Reporting of Improper       work with the Navy to iden-       schedule.
 Payments Through Recovery       tify and disseminate lessons
 Auditing, 7/9/07                learned from its recovery
                                 audit to other DoD Compo-
                                 nents.
 D-2007-114, DoD Garnish-        Take steps to improve the         The approach for automated DFAS
 ment Program, 7/19/07           accuracy and completeness         systems implementation of
                                 of amount garnished from          this issue has changed. Sys-
                                 current and retired DoD           tem requirements have been
                                 employees to pay debt obliga-     provided for the develop-
                                 tions.                            ment of the new replacement
                                                                   system. A request has been
                                                                   made for changes in the exist-
                                                                   ing system, for the interim.
 D-2007-115, Army Informa-       Improve small business            Lack of management atten-      Army
 tion Technology Enterprise      participation in indefinite-      tion in fully implementing
 Solutions-2 Services Con-       delivery, indefinite-quantity     corrective actions.
 tract, 9/9/07                   contracts for information
                                 technology services by creat-
                                 ing a small business set-aside.




                                                                                                                             107
October 1, 2009 to March 31, 2010
                                                                                                             Appendices
 




        Report Number                Description of Action              Reason Action Not             Principle Action Office
          Title/Date                                                       Completed
  D-2007-119, Procurement of The Defense Supply Center,             Corrective actions are on      DLA
  Propeller Blade Heaters for    Richmond, Virginia, will           schedule.
  the C-130 Aircraft, 8/27/07 address the issue of chang-
                                 ing the contracts deletion of
                                 items provision with Hamil-
                                 ton Sundstrand.
  D-2007-121, Emergency          Seek reimbursement from            Extensive time required to     USD(C)
  Supplemental Appropriations FEMA for funds expended on            coordinate and closeout
  for DoD Needs Arising From the FEMA mission assign-               FEMA mission assignments.
  Hurricane Katrina at Selected ments related to Hurricane
  DoD Components, 9/12/07 Katrina.
  D-2007-128, Hotline Allega- The DTRA will develop its             Corrective action is on        DTRA
  tions Concerning the Defense acquisition strategy for future      schedule.
  Threat Reduction Agency Ad- A&AS contracts with the goal
  visory and Assistance Services of maximizing competition,
  Contract, 9/26/07              and will determine whether
                                 a multiple award Indefinite-
                                 Delivery, Indefinite-Quantity
                                 contract is in the best interest
                                 of the Government.
  D-2007-131, Report on          Establish followup procedures      Extensive time required to     USD(AT&L)
  Followup Audit on Recom-       to ensure that timely and          coordinate and issue policy
  mendations for Controls        responsive actions are taken       guidance.
  Over Exporting Sensitive       to implement all audit recom-
  Technologies to Countries of mendations.
  Concern, 9/28/07
  D-2007-132, Army Use of        Revise Army Regulation 710-        Extensive time required for    Army
  and Controls Over the DoD 2 to update requirements and            changes to reimbursement
  Aviation Into-Plane Reim-      appropriate use of the Avia-       card policies.
  bursement Card, 9/28/07        tion Into-Plane Reimburse-
                                 ment Card.
  D-2007-6-004, Defense          DCMA is working to assess          Corrective actions and efforts DCMA
  Contract Management            and collect penalties as appro-    to verify corrective actions are
  Agency Virginia's Actions on priate, improve internal con-        ongoing.
  Incurred Cost Audit Reports, trols over unresolved costs,
  4/20/07                        and improve processes for
                                 taking timely and proper ac-
                                 tions on audit report findings,
                                 including holding contracting
                                 officers accountable for their
                                 actions.




108
                                                                                                  Semiannual Report to the Congress
Appendix F
 




       Report Number                Description of Action             Reason Action Not            Principle Action Office
         Title/Date                                                      Completed
 D-2008-002, DoD Salary         Make modifications to             Extensive time required to     DFAS
 Offset Program, 10/9/07        existing systems to properly      make modifications to exist-
                                compute salary offsets for        ing systems.
                                military members, retirees,
                                and annuitants.
 D-2008-003, Auditability       DIA is working to: improve        DIA has not responded to       DIA, DFAS
 Assessment of the Defense      its ability to identify the DIA   requests for the status of
 Intelligence Agency Fund       share of DoD undistributed        corrective actions taken in
 Balance with Treasury and      disbursements and collec-         response to the report.
 Appropriations Received,       tions; decrease the materiality
 10/16/08                       of the undistributed balance
                                for DIA at the suballotment
                                level; and establish processes
                                to ensure all DIA limits are
                                captured in DFAS monthly
                                reports and the Cash Man-
                                agement Report process. In
                                addition, DIA is working to
                                ensure that: it reports funding
                                authorization documents in
                                the proper accounting period;
                                the DFAS accounting and
                                reporting system contains
                                complete voucher data for
                                reconciliation purposes; and
                                the DFAS plan of actions and
                                milestones and the service
                                level agreement with DIA are
                                specific enough to meet DIA
                                needs.
 D-2008-005, National Secu-     Report is classified.             Corrective actions are on      NSA
 rity Agency Accounts Payable                                     schedule.
 (U), 10/23/07


 D-2008-007, Task Orders        The Air Force will investi-       Corrective actions are on      Air Force
 on the Air Force Network-      gate the circumstances of         schedule.
 Centric Solution Contract,     Air Force-generated General
 10/25/07                       Services Agency task orders,
                                and corrective actions will be
                                based on the findings.
 D-2008-032, Acquisition        Report is FOUO.                   Required revision of program Army
 of the Surface-Launched                                          acquisition document has
 Advanced Medium Range                                            been delayed by program
 Air-To-Air Missile, 12/6/07                                      restructure.




                                                                                                                             109
October 1, 2009 to March 31, 2010
                                                                                                            Appendices

�



      Report Number                Description of Action            Reason Action Not               Principle Action Office
        Title/Date                                                     Completed
 D-2008-036, Follow-Up on    USD(AT&L) to establish a           Additional time needed for     USD(AT&L), USD(C)
 FY 2006 DoD Purchases       Memorandum of Agreement            coordination of memoran-
 Made Through the Depart-    with the U.S. Department of        dum of agreement, validation
 ment of Veterans Affairs,   Veterans Affairs that addresses    of expired funds that were re-
 4/15/08                     the roles and responsibilities     turned, and the recoupment
                             regarding contract admin-          of advance payments.
                             istration and surveillance
                             procedures. Also, USD(C) to
                             recover unexpended advance
                             payments made to the VA
                             Austin Automation Center.
 D-2008-041, Management of Improve justification, plan-         Corrective actions are being      USD(C), DCMO,
 the General Fund Enterprise ning, and acquisition of the       verified in an audit currently    ASD(NII), Army, DFAS
 Business System, 1/14/08    General Fund Enterprise            in process.
                             Business System.
 D-2008-042, Reporting of    Include consistent policy for      Extensive time required to        USD(C)
 Contract Financing Interim  capitalizing Research, Devel-      revise and coordinate the
 Payments on the DoD Finan- opment, Test, and Evaluation        regulation.
 cial Statements, 1/31/08    expenses in the DoD Finan-
                             cial Management Regulation.
 D-2008-043, Identification  Improve processes to more ac-      Extensive coordination            USD(C)
 and Reporting of Improper   curately identify, report, and     needed between DoD com-
 Payments - Refunds From     reduce improper payments.          ponents.
 DoD Contractors, 1/31/08

 D-2008-044, Adequacy of        Improve reconciliation of       Long-term corrective actions      DFAS
 Procedures for Reconciling     transactions posted to the      are ongoing.
 Fund Balance with Treasury     Fund Balance with Treasury
 at the National Geospatial-    general ledger account. De-
 Intelligence Agency, 1/31/08   velop effective and efficient
                                processes for identifying
                                disbursement and collec-
                                tion transactions through all
                                phases of processing.
 D-2008-045, Controls Over      ASD (HA) will implement         Normal time required for          ASD(HA)
 the TRICARE Overseas           recommendations to further      implementation of recom-
 Healthcare Program, 2/7/08     control health care costs       mendations.
                                provided to overseas DoD
                                beneficiaries.




110
                                                                                                 Semiannual Report to the Congress
Appendix F

�



       Report Number                Description of Action            Reason Action Not           Principle Action Office
         Title/Date                                                     Completed
 D-2008-047, Contingency       DoD component CIOs                Corrective actions are on      11 Component CIOs
 Planning for DoD Mission-     implement controls to verify      schedule.
 Critical Information Systems, that system owners developed
 2/5/08                        and tested system contin-
                               gency plans as required or
                               support the assertions in their
                               CIO certification memoran-
                               dums about the completeness
                               and accuracy of their infor-
                               mation in the DoD Informa-
                               tion Technology Portfolio
                               Repository.
 D-2008-050, Report on FY      Review and deobligate             Corrective actions are ongo-   USD(C)
 2006 DoD Purchases Made       expired funds. Identify and       ing.
 Through the Department of facilitate return of expired
 the Treasury, 2/11/08         or excess funding from the
                               Department of Treasury.
 D-2008-052, Disbursing        DFAS is working to improve        Corrective actions are on      DFAS
 Operations Directorate at     internal controls over: the       schedule.
 Defense Finance and Ac-       processing of Intra-Govern-
 counting Service Indianapolis mental Payment and Collec-
 Operations, 2/19/08           tion System transactions, ad-
                               justments to IPAC suspense
                               accounts, and the recon-
                               ciliation of the “Statement of
                               Differences-Deposits” report.
 D-2008-057, Contractor Past Reconcile active contracts          Corrective actions are ongo-   USD(AT&L)
 Performance Information,      with contracts registered in      ing.
 2/29/08                       the Contractor Performance
                               Assessment Reporting Sys-
                               tem, then register and begin
                               reporting on unregistered
                               active contracts.
 D-2008-061, Controls Over Include requirements for              Management corrective ac-      NGB
 Funds Used by the Air Force gathering and including             tions on schedule.
 and National Guard Bureau transaction-level data in guid-
 for the National Drug Con- ance.
 trol Program, 3/7/08
 D-2008-066, FY 2006 and       Improve the acquisition pro-      Corrective actions are ongo-   Army
 FY 2007 DoD Purchases         cess for DoD procurements         ing.
 Made Through the Depart-      made through interagency
 ment of the Interior, 3/19/08 agreements.




                                                                                                                           111
October 1, 2009 to March 31, 2010
                                                                                                          Appendices

�



        Report Number               Description of Action            Reason Action Not             Principle Action Office
          Title/Date                                                    Completed
  D-2008-067, DoD Procure-       Revise the Army's internal      Extensive time required to     Army
  ment Policy for Body Armor,    policy on the proper use of     coordinate and issue policy
  3/31/08                        non-DoD contract instru-        guidance.
                                 ments.

  D-2008-069, Controls Over      The Army is working to im-      Corrective actions are on      Army
  Army Working Capital Fund      prove controls in the timeli-   schedule.
  Inventory Stored by Organi-    ness of physical inventories,
  zations Other than Defense     separation of duties, imple-
  Logistics Agency, 3/28/08      mentation of location audit
                                 programs, and inventory
                                 adjustment research at the
                                 audited storage activities.
  D-2008-070, Management         Report is classified.           Corrective actions are on      PACOM, USFK
  of Noncombatant Evacua-                                        schedule.
  tion Operations Within the
  U.S. Pacific Command (U),
  3/25/08




  D-2008-071, Management        Report is classified.            Corrective actions are on      PACOM
  of Noncombatant Evacua-                                        schedule.
  tion Operations in Japan (U),
  3/28/08




112
                                                                                               Semiannual Report to the Congress
Appendix F

�



       Report Number                Description of Action           Reason Action Not            Principle Action Office
         Title/Date                                                    Completed
 D-2008-072, Controls Over The Army is working to               Corrective actions are on      USD(C), Army, DFAS
 Army Real Property Financial ensure compliance with the        schedule.
 Reporting, 3/28/08           new costing methodology
                              for assigning costs to the real
                              property users and to correct
                              misstatements in the Army fi-
                              nancial statements. The Army
                              is also working to implement
                              a common business process
                              for creating a subsidiary
                              ledger file to support the
                              property management and
                              financial reporting of AWCF
                              and AGF real property assets.
                              Further, the Army is work-
                              ing to improve the accuracy
                              and efficiency of the transfer
                              of construction-in-progress
                              costs between accounting
                              and property management
                              systems.
 D-2008-077, United States    Report is FOUO.                   Corrective actions are on      Army
 Army Corps of Engineers Fi-                                    schedule.
 nancial Management System,
 4/8/08

 D-2008-079, Management        Conduct preliminary Anti-        Management corrective ac-      Air Force
 of Incremental Funds on Air   deficiency Act investigations,   tions on schedule.
 Force Research, Develop-      establish procedures to track
 ment, Test, and Evaluation    and record deferral charges
 Contracts, 4/8/08             as unfunded liabilities for
                               accounts payable, and clarify
                               the use of Research, Develop-
                               ment, Test, and Evaluation
                               funds.
 D-2008-081, Controls Over Perform cost benefit analysis        Long-term corrective actions   DLA
 the Reconciliation of Defense and update policy.               are ongoing.
 Logistics Agency Non-Energy
 Inventory Balances, 4/25/08

 D-2008-082, Summary             Complete formal investiga-      Time needed to complete       USD(C)
 Report on Potential Antidefi-   tion of potential Antideficien- formal investigation.
 ciency Act Violations Result-   cy Act violations arising from
 ing From DoD Purchases          interagency agreements.
 Made Through Non-DoD
 Agencies (FY 2004 Through
 FY 2007), 4/25/08

                                                                                                                           113
October 1, 2009 to March 31, 2010
                                                                                                          Appendices

�



      Report Number              Description of Action              Reason Action Not             Principle Action Office
        Title/Date                                                     Completed
 D-2008-089, Planning         Update the capabilities docu-     Extended time needed to         Army
 Armor Requirements for the   ments for the FMTV to in-         develop and staff Capability
 Family of Medium Tactical    clude armor kit requirements.     Production Document.
 Vehicles, 5/9/08             Once these requirements are
                              approved, document plans for
                              the future distribution of the
                              armor kits.
 D-2008-090, Controls Over    AT&L is working to revise         Corrective actions are on       USD(AT&L), Army
 Reconciling Army Work-       the guidance and criteria for     schedule.
 ing Capital Fund Inventory   performing the annual and
 Records, 5/13/08             end-of-day inventory recon-
                              ciliations in DoD 4000.25-
                              2-M, "Military Standard
                              Transaction Reporting and
                              Accounting Procedures." The
                              Army is also working to up-
                              date its Regulations, policies,
                              and procedures.
 D-2008-092, Controls         Ensure proper training of         Corrective actions are ongo-    Navy
 Over the Department of the   warehouse personnel, resolve      ing.
 Navy Working Capital Fund    inaccuracies, and implement
 Inventory Stored at Non-     procedures.
 Defense Logistics Agency
 Organizations, 5/13/08
 D-2008-093, Processing of    Recover erroneous payments        Corrective actions are ongo-    DFAS
 Deceased Retired Military    and terminate suspended ac-       ing.
 Members' Suspended Ac-       counts after 6 years.
 counts, 5/14/08




114
                                                                                               Semiannual Report to the Congress
Appendix F

�



       Report Number                Description of Action               Reason Action Not          Principle Action Office
         Title/Date                                                        Completed
 D-2008-097, Hurricane Re-       The Navy will pursue a re-         Corrective actions are on     Navy
 lief Effort Costs on the Navy   fund of $1.6 million from in-      schedule.
 Construction Capabilities       voices for unreasonable lease
 Contract, 5/23/08               charges, fees, and applicable
                                 overhead costs associated with
                                 a subcontract with C-MARK.
                                 As a result of a DCAA audit
                                 report that was issued in July
                                 2009, the Navy will pursue a
                                 refund from Kellogg, Brown,
                                 and Root for questioned costs
                                 in the amount of $24.3 mil-
                                 lion on three areas: duplicate
                                 markups on contract labor
                                 and equipment; the contrac-
                                 tor failing to select the lowest
                                 bidder; unsupported sub-
                                 contract costs.
 D-2008-098, Internal Con-       Revise the checklist provided      Long-term corrective action   Army
 trols Over Payments Made        to deployed finance offices to     on schedule.
 in Iraq, Kuwait and Egypt,      address the Prompt Payment
 5/22/08                         Act and employer identifica-
                                 tion number requirements.




 D-2008-101, General             DFAS is working to clearly       Corrective actions are on       DFAS
 Controls Over the Standard      assign security responsibilities schedule.
 Accounting, Budgeting, and      to the Standard Accounting,
 Reporting System, 6/6/08        Budgeting, and Reporting
                                 System Program Management
                                 Office. The SABRS Program
                                 Management Office is work-
                                 ing to coordinate with all par-
                                 ties responsible for security
                                 over SABRS.




                                                                                                                             115
October 1, 2009 to March 31, 2010
                                                                                                       Appendices

�



      Report Number              Description of Action            Reason Action Not            Principle Action Office
        Title/Date                                                   Completed
 D-2008-104, Audit of DoD     USD (P&R) will submit           Corrective actions ongoing.    USD (P&R) and USD (I)
 Implementation of Home-      proposed CAC PIV end-
 land Security Presidential   state credential to GSA for
 Directive-12, 6/23/08        conformance/interoperability
                              testing within one month of
                              completion of recommenda-
                              tion A3; DoD submitted its
                              test package of DoD CAC
                              for GSA conformance testing
                              and expect GSA to confirm
                              DoD's conformance with the
                              required HSPD-12 related
                              technical guidelines; Omis-
                              sion of SSN from DoD
                              Military Identification Cards
                              to display the four digits
                              only on the Geneva Conven-
                              tions credential; develop and
                              issue a Deputy Secretary of
                              Defense Directive to achieve
                              full DoD compliance with
                              the HSPD-12 requirements,
                              and revise DoD Directive
                              5200.08-R and other DoD
                              issuances as necessary to
                              appropriately reflect responsi-
                              bility for incorporating FIPS
                              201-1 minimum require-
                              ments to all DoD electronic
                              access control systems. USD
                              (I) will develop minimum
                              background check require-
                              ments for vetting foreign
                              nationals in countries where
                              no international security
                              agreement exist and revise
                              DoD Regulation 5200.08-R
                              to expressly prohibit the issu-
                              ances of photoless identifica-
                              tion credentials used to gain
                              access to DoD installations
                              and facilities, or establish
                              a formal process to waive
                              requirements for a photo on
                              the credential.




116
                                                                                            Semiannual Report to the Congress
Appendix F

�



       Report Number                Description of Action             Reason Action Not           Principle Action Office
         Title/Date                                                      Completed
 D-2008-105, Defense            Deobligate all unpaid ob-         Additional time required       USD(C)
 Emergency Response Fund,       ligations more than 2 years       to complete withdrawal of
 6/20/08                        old and withdraw all excess       excess DERF funding, and
                                DERF funding that authori-        coordinate and issue policy.
                                ties provided to the Compo-
                                nents. Also, revise DoD FMR
                                Chapter 6 to provide guid-
                                ance and assign responsibili-
                                ties for the use of DERF for
                                overseas disaster and humani-
                                tarian assistance.
 D-2008-107, Contracts Is-      The Defense Contract Audit        Corrective actions are on      DCAA
 sued by TACOM Life Cycle Agency will conduct post-               schedule.
 Management Command             award audits of applicable
 to BAE Systems Land and        pricing actions based on a risk
 Armaments, Ground Systems assessment considering the
 Division, 7/3/08               potential for these actions to
                                be overpriced.
 D-2008-114, Accountability Revise DoD Instruction                Normal time required for       USD (AT&L), USD (I)
 for Defense Security Service 5000.64 and implement               implementation of recom-
 Assets with Personally Identi- planned improvements to           mendations.
 fiable Information, 7/24/08    property accountability.




 D-2008-117, Accuracy of        Revise guidance and imple-        Long-term corrective action    USD(AT&L), DCMA
 Mechanization of Contract      ment changes to systems.          on schedule.
 Administration Services Ac-
 counts Payable Information,
 11/12/08
 D-2008-118, Host Nation        Conduct joint reviews of          Extensive coordination        USD(C)
 Support of U.S. Forces in      accounting and disbursing         needed between DoD com-
 Korea, 8/25/08                 procedures for Labor Cost         ponents to conduct joint
                                Sharing funds. Prepare and        reviews of accounting and
                                issue any required updates to     disbursing policy, and update
                                current policies and proce-       appropriate policy guidance.
                                dures based on joint review
                                results.
 D-2008-123, Internal           Establish procedures to           Additional time needed to      Navy
 Controls Over Navy General     ensure the disbursing officer     coordinate and issue policy
 Fund, Cash and Other Mon-      obtains the most beneficial       guidance.
 etary Assets Held Outside      exchange rate when exchang-
 of the Continental United      ing U.S. dollars for Bahraini
 States, 8/26/08                dinars.


                                                                                                                            117
October 1, 2009 to March 31, 2010
                                                                                                              Appendices

�



       Report Number               Description of Action             Reason Action Not                 Principle Action Office
         Title/Date                                                     Completed
 D-2008-124, Management         Report is FOUO.                  Actions are nearing comple-      JS
 of the Noncombatant Evalu-                                      tion. ECD is 2010.
 ation Operations Tracking
 System by U.S. Forces Korea,
 8/21/08
 D-2008-128, Reimbursable       The Naval Air Warfare            Utility load study to estimate Navy
 Fees at the Major Range and    Center's Weapons Division        the appropriate usage rates
 Test Facility Bases, 9/10/08   will alter their methodology     for the FY 2010 rate struc-
                                for determining utility and      ture is ongoing.
                                labor charges so that charges
                                to DoD customers do not
                                exceed the direct cost for the
                                use of the facilities.
 D-2008-129, Acquisition of Revise the memo of agree-            Revised working agreement        Army
 the Army Airborne Surveil-     ment between the acquisi-        delayed by program restruc-
 lance, Target Acquisition, and tion managers involved with      ture.
 Minefield Detection System, ASTAMIDS to clarify the
 9/10/08                        working relationships needed
                                to develop ASTAMIDS as
                                part of the Future Combat
                                Systems.
 D-2008-130, Approval Pro- Clarify the term "appropri-           Extensive time needed to         JS, USD(C), ASD(HD),
 cess, Tracking, and Financial ateness" and reflect the new      coordinate and issue policy.     NORTHCOM
 Management of DoD Disas- organizations, roles, and
 ter Relief Efforts, 9/17/08    responsibilities in the DoD
                                3025 guidance series.
 D-2008-131, Security of Ra- Report is FOUO.                     Coordination of additional       USD(AT&L)
 dio Frequency Identification                                    guidance is ongoing.
 Information, 9/19/08


 D-2008-132, Ocean Freight Report is FOUO.                       Management corrective ac-        Army
 Transportation Payments Us-                                     tions on schedule.
 ing Power Track, 9/26/08


 D-2008-134, Acquisition of Ensure that Common Link              Software development slip-       Air Force
 the B-1 Fully Integrated Data Integration Processing            page, funding constraints,
 Link, 9/22/08                 software, a critical B-1 FIDL     and mandatory maintenance
                               technology, is mature prior to    on the test aircraft have ex-
                               program production decision.      tended testing schedule.




118
                                                                                                 Semiannual Report to the Congress
Appendix F

�



       Report Number                Description of Action             Reason Action Not           Principle Action Office
         Title/Date                                                      Completed
 D-2008-136, Payments for        Transfer responsibility to a     Normal time required for       ASD(HA)
 Patients Referred To Overseas   qualified health care claims     implementation of recom-
 Providers Under the Supple-     processor for processing and     mendations.
 mental Health Care Plan,        paying claims for overseas
 9/30/08                         health care referred by mili-
                                 tary treatment facilities. Re-
                                 coup funds expended through
                                 duplicate payments identified
                                 during the audit.
 08-INTEL-03, Review of          Report is classified.            Corrective actions are ongo-   ATSD(NCB)
 Threat Assessment Guidance                                       ing.
 Regarding Nuclear Weapons
 Located Outside the Con-
 tinental United States (U),
 3/29/08
 D-2009-001, Information      Report is FOUO.                     Management corrective ac-      DFAS
 Assurance Controls for the                                       tions on schedule.
 Defense Civilian Pay System,
 10/7/08

 D-2009-002, Attestation         The Navy is working to:           Corrective actions are on     Navy
 of the Department of the        revise standard operating         schedule.
 Navy's Environmental Dis-       procedures; ensure that all of
 posal for Weapons Systems       the disposal costs related to its
 Audit Readiness Assertion,      weapon systems are included
 10/10/08                        in its Environmental Dis-
                                 posal for Weapons Systems
                                 line item; ensure adequate
                                 supporting documentation
                                 is available; and ensure the ac-
                                 curacy, reliability, and authen-
                                 ticity of the data entered into
                                 the amortization workbooks.
 D-2009-005, Controls Over       Report is FOUO.                   Coordination of guidance is   Army, USD(I), USD(P&R)
 the Contractor Common                                             ongoing.
 Access Card Life Cycle,
 10/10/08




                                                                                                                            119
October 1, 2009 to March 31, 2010
                                                                                                           Appendices
 




       Report Number               Description of Action              Reason Action Not            Principle Action Office
         Title/Date                                                      Completed
 D-2009-008, Internal Con-      Issue guidance on proce-          Corrective actions are on      Navy
 trols Over the Department of   dures for classifying assets as   schedule.
 the Navy Military Equipment    military equipment, establish
 Baseline Valuation Effort,     appropriate documentation
 11/26/08                       requirements to support
                                improvements and esti-
                                mated useful life of military
                                equipment, and verify the
                                completeness of the military
                                equipment program universe.
 D-2009-028, Organizational     Expedite the selection of the     Management corrective ac-      USD(C), ASD(PA), WHS
 Structure and Managers         Defense Media Agency direc-       tions on schedule.
 Internal Control Program       tor and other key managers;
 for the Assistant Secretary    implement a DMA-wide
 of Defense and American        personal property program;
 Forces Information Service,    investigate potential misuse
 12/10/08                       of funds, improper contract-
                                ing, and statutory violations.
                                Implement DoD Instruction
                                5010.40 at DMA.
 D-2009-029, Internal Con-      Test the Electronic Security      Corrective actions are on      Navy
 trols Over the Department      System, including individual      schedule.
 of the Navy Cash and Other     sensors, at least quarterly to
 Monetary Assets Held in the    ensure systems are functional.
 Continental United States,
 12/9/08
 D-2009-030, Marine Corps       Report is FOUO.                 Revision of Joint Staff guid-    Joint Staff, Marine Corps
 Implementation of the Ur-                                      ance has been delayed to
 gent Universal Needs Process                                   incorporate impending OSD
 for Mine Resistance Ambush                                     guidance. Implementing
 Protected Vehicles, 12/5/08                                    Marine Corps guidance is
                                                                on hold pending issuance of
                                                                Joint Staff guidance.
 D-2009-031, Afghanistan        The Combined Security Tran- Corrective actions are on            CENTCOM
 Security Forces Fund Phase     sition Command - Afghani-       schedule.
 III-Air Force Real Property    stan will develop and imple-
 Accountability, 12/29/08       ment guidance covering the
                                transfer of real property from
                                the U.S. government to the
                                Islamic Republic of Afghani-
                                stan, including the transfer of
                                responsibility for Operations
                                and Maintenance of facilities.




120
                                                                                                Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action              Reason Action Not            Principle Action Office
         Title/Date                                                       Completed
 D-2009-037, TRICARE            TRICARE Management                 Normal time for implemen-       ASD (HA)
 Controls Over Claims Pre-      Activity strengthen internal       tation.
 pared By Third-Party Billing   controls to: 1) avoid paying
 Agencies, 12/31/09             improper health care claims
                                by identifying relationships
                                between providers and billing
                                agencies, and 2) initiating
                                action to obtain the statu-
                                tory or regulatory authority
                                to sanction billing agencies
                                or any entities that prepare
                                or submit improper health
                                care claims to the TRICARE
                                contractors.
 D-2009-041, Expeditionary The Marine Corps Systems                Corrective actions are on       Marine Corps
 Fire Support System and In- Command will conduct                  schedule.
 ternally Transportable Vehicle training to ensure contracting
 Programs, 1/21/09              officers are familiar with their
                                authorities and responsibili-
                                ties as set forth in the Federal
                                Acquisition Regulation and
                                to ensure the rest of the Com-
                                mand's contracting com-
                                munity is made aware of the
                                consequences of poor record
                                keeping.
 D-2009-042, Hiring Prac-       DoD is establishing a frame-       Draft instruction is in coor-   USD (P&R)
 tices Used to Staff the Iraqi  work consistent with Na-           dination.
 Provisional Authorities,       tional Security Presidential
 1/16/09                        Directive 44 and DoD Direc-
                                tive 3000.05 that enables it
                                to effectively staff contingen-
                                cies such as humanitarian,
                                stabilization, and interagency
                                operations with civilians and
                                define departmental roles and
                                responsibilities for supporting
                                these operations.
 D-2009-043, FY 2007 DoD Conduct a special emphasis                Corrective actions are on       DLA
 Purchase Made Through the procurement management re-              schedule.
 U.S. Department of Veterans view on the use of non-DoD
 Affairs, 1/21/09               contracts for FY 2009 and
                                ensure appropriate corrective
                                actions are taken based on the
                                review results.




                                                                                                                              121
October 1, 2009 to March 31, 2010
                                                                                                                 Appendices




       Report Number                Description of Action              Reason Action Not                 Principle Action Office
         Title/Date                                                       Completed
 D-2009-044, Defense             Review journal voucher log   Corrective actions will be               DFAS
 Finance and Accounting          and review and approve jour- verified during an upcoming
 Service Indianapolis Com-       nal vouchers.                audit.
 pilation of Other Defense
 Organizations General Fund
 Financial Data, 1/23/09
 D-2009-045, Security Guard      The Navy is taking action to Management corrective ac-                Navy
 Services Contract at Naval      address security concerns and tions on schedule.
 Weapons Station Earle,          improve oversight of services
 1/23/09                         performed under the security
                                 guard services contract at Na-
                                 val Weapons Station Earle.
 D-2009-046, Procurement         The report is FOUO.            Corrective actions are on              Marine Corps
 and Delivery of Joint Service                                  schedule.
 Armor Protected Vehicles,
 1/29/09

 D-2009-047, DoD Test-           Army expedite return of           Extended time needed for            Army, DOT&E
 ing Requirements for Body       specified ballistic inserts and   Army to identify and remove
 Armor, 1/29/09                  remove them from inventory.       all specified ballistic inserts.
                                 DOT&E develop a rigorous          Long-term DOT&E action
                                 test operations procedure for     to develop standard test pro-
                                 ballistic inserts and ensure      cedure is on schedule.
                                 that it is implemented DoD-
                                 wide.




122
                                                                                                      Semiannual Report to the Congress
Appendix F




       Report Number                Description of Action           Reason Action Not           Principle Action Office
         Title/Date                                                    Completed
 D-2009-048, DoD Small        The AT&L will establish           Corrective actions are on      AT&L, Navy
 Business Innovation Research guidance requiring: adherence     schedule.
 Program, 1/30/09             to a consistent methodology
                              for identifying and reporting
                              on applicable SBIR projects;
                              supplemental funding for the
                              administration of the SBIR
                              program; designated SBIR
                              liaisons to be posted on a web
                              site by the DoD SBIR pro-
                              gram Office; SBIR contract-
                              ing personnel to record phase
                              III contracting actions in the
                              DoD and Federal procure-
                              ment databases; participating
                              components to only exceed
                              SBA award guidelines on
                              an exceptional basis and be
                              subject to approval by the
                              component program manag-
                              er, and; additional non-SBIR
                              funded work not applicable
                              to the base contract not be
                              funded as part of the Phase
                              II contract. The Navy will
                              develop guidance to monitor
                              compliance with standards for
                              periods of performance and
                              cumulative award amounts in
                              Secretary of the Navy Instruc-
                              tion 4380.7B. The controls
                              will ensure compliance with
                              the current Small Business
                              Administration Policy Direc-
                              tive in regards to award values
                              and period of performance.
 D-2009-049, Internal         Establish adequate controls       Corrective actions are ongo-   Navy
 Controls Over the United     over the valuation of military    ing.
 States Marine Corps Military equipment baseline.
 Equipment Baseline Valua-
 tion Effort, 2/9/09
 D-2009-051, Controls         Revise guidance to improve        Management corrective ac-      NGA
 Over Time and Attendance     internal controls over the        tions on schedule.
 Reporting at the National    time and attendance, espe-
 Geospatial-Intelligence      cially the use of overtime and
 Agency, 2/9/09               compensatory time.



                                                                                                                          123
October 1, 2009 to March 31, 2010
                                                                                                              Appendices




       Report Number                Description of Action             Reason Action Not             Principle Action Office
         Title/Date                                                      Completed
 D-2009-057, Controls Over       Deposit all collections within   Corrective actions are on       DFAS
 Collections and Returned        U.S. Treasury timeframes, im-    schedule.
 Checks at Defense Finance       prove and consolidate collec-
 and Accounting Service,         tion functions and processing,
 Indianapolis Operations,        and ensure that DFAS offices
 2/27/09                         cancel returned U.S. Treasury
                                 checks within 3 workdays.
 D-2009-059, Air Force           Develop Air Force-specific       Corrective actions are ongo-    Air Force
 Management of the U.S.          guidance and procedures          ing.
 Government Aviation Into-       on the use of the AIR Card.
 Plane Reimbursement Card        Develop a training program
 Program, 3/6/09                 to ensure training for all
                                 personnel involved in AIR
                                 functions.
 D-2009-061, Controls            Perform monthly recon-           Corrective actions are ongo-    Army
 Over Reporting Transporta-      ciliation of requirements and    ing.
 tion Costs in Support of        execution to ensure funding
 the Global War on Terror,       levels are sufficient.
 3/12/09
 D-2009-062, Internal           Improve internal controls         Corrective actions require      USD(C) DFAS
 Controls Over DoD Cash         over cash and other monetary      coordination with the Office
 and Other Monetary Assets,     assets by establishing special    of Management and Budget
 3/25/09                        control account, develop-         and the Department of the
                                ing policies and procedures,      Treasury.
                                and monitoring cash usage.
                                Develop non-cash methods
                                of payment for contingency
                                operations.
 D-2009-064, FY 2007 DoD Train contracting personnel,             Corrective actions are ongo-    USD(AT&L), USD(C), Air
 Purchases Made Through the conduct quarterly self-in-            ing.                            Force
 National Institutes of Health, spections, improve contract
 3/24/09                        oversight, update financial re-
                                cords, and improve oversight
                                of potential Antideficiency
                                violations.
 D-2009-065, Navy Report-       Properly segregate shipbuild-     Management corrective ac-       USD(AT&L), Navy
 ing of Financing Payments      ing expenses and implement        tions on schedule.
 for Shipbuilding on the Fi-    controls over shipbuilding
 nancial Statements, 3/26/09 Construction-in-Progress
                                values by the Navy.




124
                                                                                                 Semiannual Report to the Congress
Appendix G



                                                       Appendix G

                       Significant Open Recommendations 


Managers	accepted	or	proposed	accept-               and	 accreditation	 process	 that	 can	        a	 certification	 program	 for	 person-
able	 alternatives	 for	 99	 percent	 of	 the	      meet	 the	 needs	 of	 all	 federal	 agen-      nel	 granting	 security	 clearances;	
322	 DoD	 IG	 audit	 recommendations	               cies	 for	 managing	 and	 operating	           issuance	 of	 policy	 on	 the	 access	
rendered	 in	 the	 first	 six	 months	 of	 FY	      both	 national	 security	 and	 non-na-         by	 all	 contractors,	 including	 for-
2010.	 Many	 recommendations	 require	              tional	security	systems.		                     eign	 nationals,	 to	 unclassified	 but	
complex	 and	 time-consuming	 actions,	 •	          DoD	IG	made	recommendations	in	                sensitive	 DoD	 IT	 systems;	 and	
but	managers	are	expected	to	make	rea-              2004	to	clarify	guidance	on	the	dif-           establishment	 of	 policy	 on	 access	
sonable	 efforts	 to	 comply	 with	 agreed-         ferences	 between	 force	 protection	          reciprocity	 and	 a	 single,	 integrated	
upon	 implementation	 schedules.	 Al-               and	 antiterrorism	 in	 DoD	 policies	         database	 for	 Special	 Access	 Pro-
though	most	of	the	947	open	actions	on	             and	 procedures	 and	 revise	 existing	        grams.	Although	 actions	 are	 ongo-
DoD	 IG	 audit	 reports	 being	 monitored	          antiterrorism	 plans	 in	 accordance	          ing,	progress	on	the	unprecedented	
in	 the	 follow-up	 system	 are	 on	 track	         with	 DoD	 policy.	 DoD	 revised	 its	         transformation	of	the	personnel	se-
for	timely	implementation,	185	reports	             applicable	 guidance	 in	 October	             curity	program	is	slow.					
issued	 more	 than	 12	 months	 ago	 for	           2006.	 The	 Marine	 Corps	 is	 still	 in	 •	   DoD	 IG	 made	 recommendations	
which	 management	 has	 not	 completed	             the	 process	 of	 updating	 their	 cor-        in	 2009	 to	 improve	 the	 testing	 re-
actions	to	implement	the	recommended	               responding	guidance.		                         quirements	 for	 body	 armor.	 These	
improvements.				                              •	   DoD	 IG	 made	 recommendations	                included	 a	 recommendation	 for	
                                                    in	three	reports	in	2008	to	improve	           the	Army	 to	 collect	 16,413	 sets	 of	
The	 following	 significant	 open	 recom-           management	 of	 noncombatant	                  body	 armor	 ballistic	 inserts	 that	
mendations	 have	 yet	 to	 be	 implement-           evacuation	 operations	 within	 the	           had	 not	 been	 adequately	 tested	
ed.                                                 U.S.	 Pacific	 Command	 to	 protect	           and	 remove	 them	 from	 inventory.	
                                                    U.S.	citizens	in	the	event	they	must	          Another	 recommendation	 called	
•	   DoD	 IG	 made	 recommendations	                be	 removed	 from	 harm’s	 way.	The	           for	 DOT&E	 to	 develop	 a	 standard	
     in	 2005	 to	 follow	 the	 guidance	 es-       reports	focused	on	NEO	operations	             testing	protocol	for	ballistic	inserts	
     tablished	 by	 National	 Institute	 of	        in	 Japan	 and	 Korea	 because	 of	 the	       and	 ensure	 that	 the	 protocol	 is	 im-
     Standards	and	Technology	or	issue	             presence	 of	 U.S.	 military	 and	 U.S.	       plemented	 DoD-wide.	 Corrective	
     interim	 guidance	 that	 requires	 all	        citizens	 in	 those	 countries,	 and	          actions	 by	 the	 Army	 and	 DOT&E	
     DoD	 agencies	 to	 follow	 NIST	 cri-          because	 of	 the	 magnitude	 of	 DoD	          are	currently	in	process.				
     teria	 for	 the	 issue	 areas	 identified	     involvement	 in	 a	 NEO,	 if	 ordered.	 •	     DoD	IG	made	recommendations	in	
     until	 the	 DoD	 develops	 criteria	 for	      Actions	 are	 under	 way	 to	 improve	         2008	and	2009	to	issue	comprehen-
     an	information	technology	security	            management	 and	 coordination	 of	             sive	guidance	related	to	Homeland	
     certification	 and	 accreditation	 pro-        NEO	plans.			                                  Security	 Presidential	 Directive-12	
     cess	 that	 are	 more	 stringent	 than	 •	     DoD	 IG	 made	 recommendations	                and	 controls	 over	 Common	 Ac-
     those	 for	 NIST	 Publications.	 DoD	          in	 multiple	 reports	 in	 the	 high-          cess	Cards.	HSPD-12	establishes	a	
     is	 working	 with	 NIST,	 the	 Office	         risk	 area	 of	 personnel	 security.	          mandatory	 government-wide	 stan-
     of	 the	 Director	 of	 National	 Intelli-      Some	 of	 the	 most	 significant	 of	          dard	 for	 secure	 and	 reliable	 forms	
     gence,	 the	 Intelligence	 Communi-            these	 include:	 	 considerable	 num-          of	 identification	 issued	 by	 federal	
     ty,	 the	 Committee	 on	 National	 Se-         ber	 of	 revisions	 to	 and	 issuance	 of	     agencies	 to	 their	 employees	 and	
     curity	 Systems,	 and	 other	 federal	         DoD	 Instruction	 5200.2	 and	 DoD	            contractors.	 The	 Common	 Access	
     agencies	 to	 develop	 a	 common	 set	         Manual	5200.2,	which	will	replace	             Card	 is	 the	 official	 DoD/federal	
     of	 information	 security	 controls,	 a	       DoD	 Regulation	 5200.2-R;	 es-                identification	credential	that	can	be	
     risk	 management	 framework,	 and	             tablishment	 of	 minimum	 training	            used	for	logical	and	physical	access	
     a	 high-level	 security	 certification	        and	 experience	 requirements	 and	            once	 access	 privileges	 are	 granted.	




                                                                                                                                        125
October 1, 2009 to March 31, 2010
                                                                                                                Appendices
 



      Some	 of	 the	 most	 significant	 rec-        compiling	 the	Army	 General	 Fund	        sight	 responsibilities	 and	 man-
      ommendations	 are	 to	 update	 DoD	           financial	 statements.	 The	 auditors	     agement	 controls	 relating	 to	 the	
       regulations ,	 instructions ,	 and	 di-      recommended	 that	 DFAS	 iden-             purchase	 card	 program.	 These	
      rectives	to	ensure	compliance	with	           tify	 the	 abnormal	 balances	 and	        recommendations	 include:	 ensur-
      HSPD-12;	 to	 update	 DoD	 Instruc-           research	 the	 causes	 for	 the	 differ-   ing	 all	 cardholders	 and	 approv-
      tion	 5200.02,	 “DoD	 Personnel	 Se-          ences.	 DFAS	 agreed	 pending	 the	        ing	 officials	 receive	 the	 required	
      curity	Program,”	to	include	revised	          implementation	 of	 the	 Business	         initial	 and	 refresher	 purchase	
      DoD	 policy	 for	 the	 investigation	         Enterprise	 Information	 Services.	        card	 training,	 effectively	 manag-
      and	 adjudication	 of	 the	 Federal	          Based	 on	 the	 most	 recent	 audit	 of	   ing	 the	 span	 of	 control	 over	 pur-
      Personal	Identity	Verification	card;	         the	 Army	 General	 Fund	 financial	       chase	 card	 accounts;	 conducting	
      and	to	develop	and	implement	pro-             statements,	 the	 auditors	concluded	      oversight	 reviews	 of	 approving	
      cedures	to	verify	that	trusted	agent	         that	the	issue	of	abnormal	balances	       official	 accounts	 to	 verify	 compli-
      security	 managers	 and	 trusted	             in	 accounting	 records	 continues	to	     ance	with	DoD	purchase	card	guid-
      agents	 are	 government	 employees	           be	an	issue.	In	addition	to	the	finan-     ance;	 ensuring	 proper	 retention	 of	
      before	authorizing	sponsorship	du-            cial	data	compilation	and	abnormal	        documents	 for	 all	 accounts;	 and	
      ties.	 Actions	 are	 under	 way	 to	 up-      balance	 issues	 impacting	 the	 De-       adequately	 enforcing	 existing	con-
      date	corresponding	guidance.			               partment’s	 financial	 statements,	        trols	 throughout	the	purchase	 card	
•	    DoD	 IG	 made	 recommendations	               other	 ongoing	 issues	 include	 those	    process.	 The	 Army	 and	Air	 Force	
      in	 multiple	 reports	 on	 financial	         relating	 to	 budget	 execution,	 cash	    are	 still	 in	 the	process	 of	 updating	
      management	 and	 accounting	 is-              management,	 and	 financial	 system	       their	guidance	to	conform	to	corre-
      sues,	 which	 involve	 making	 nu-            development	and	deployment.                sponding	DoD	policy.
      merous	 revisions	 to	 the	 DoD	 fi- •	       DoD	 IG	 made	 recommendations	 •	         DoD	IG	made	recommendations	in	
      nancial	 management	 regulations	             in	 several	 reports	 to	 clarify	 and	    several	reports	that	involve	improv-
      to	 clarify	 accounting	 policy	 and	         improve	 DoD	 policy	 guidance	            ing	the	acquisition	process	for	DoD	
      guidance.	 The	 recommendations	              and	 procedures	 covering	 the	 roles	     purchases	 made	 through	 non-DoD	
      have	 resulted	 in	 initiatives	 that	 are	   and	 responsibilities	 of	 contracting	    agencies.	 These	 recommendations	
      under	 way	 to	 publish	 and	 imple-          personnel	 and	 requirements	 for	         include	 verifying	 that	 funding	 is	
      ment	 improved	 guidance.	 In	 addi-          obtaining	cost	or	pricing	data,	con-       proper	and	accurate,	and	if	not,	re-
      tion,	recommendations	 to	 improve	           ducting	 price	 analysis,	 determin-       viewing	violations	of	the	bona	fide	
      accounting	 processes	 and	 internal	         ing	 price	reasonableness,	fulfilling	     needs	rule	and	purpose	statute,	and	
      controls	 over	 financial	 reporting	         competition	 requirements,	 using	         correcting	 potential	Antideficiency	
      and	 related	financial	systems	 have	         multiple-award	contracts,	monitor-         Act	 violations.	 These	 recommen-
      resulted	in	initiatives	that	are	under	       ing	 contractor	 performance,	 and	        dations	 also	 include	 instituting	
      way	 to	 correct	 financial	 systems	         maintaining	past	 performance	 data	       mandatory	 training,	 improving	
      deficiencies.	 Implementing	 these	           on	 contractors.	 Corrective	 actions	     oversight,	 and	 taking	 appropriate	
      corrective	 actions	 will	 enable	 the	       are	 under	 way	 to	 improve	 DoD	         disciplinary	 or	 administrative	 ac-
      Department	 to	 provide	 accurate,	           contracting	 procedures	 related	 to	      tions	 against	 contracting	 officers.	
      timely,	and	 reliable	 financial	 state-      source	 selection,	 interagency	 ac-       DoD	 organizations	 are	 in	 the	 pro-
      ments.	 In	 2004,	 DoD	 IG	 reported	         quisitions,	 and	 contract	 surveil-       cess	 of	 implementing	 corrective	
      on	significant	unresolved	abnormal	           lance	and	reporting.		                     actions.	
      balances	 in	 both	 the	 proprietary	 •	      DoD	 IG	 made	 recommendations	
      and	 budgetary	 accounts	 used	 in	           in	 several	 reports	to	 improve	 over-




126
                                                                                                   Semiannual Report to the Congress
Appendix H
�


                                              Appendix H

                                                  Acronyms 



(ADM) Acquisition Decision Memorandum                        (DCMA) Defense Contract Management Agency
(AED) Automated Electronic Defibrillators                    (DCS) Deputy Chief of Staff
(AFAA/FS) Air Force Audit Agency Financial Systems Audits    (DDS) Deployable Disbursing System
Directorate                                                  (DFARS) Defense Federal Acquisition Regulation
(AFAA/QL) Air Force Audit Agency Acquisition and Logistics   Supplement
Audits Directorate                                           (DFAS) Defense Finance and Accounting Service
(AFAA/SP) Air Force Audit Agency Support and Personnel       (DIMHRS) Defense Integrated Military Human Resources
Audits Directorate                                           System
(AFCENT) Air Forces Central Command                          (DISA) Defense Information Systems Agency
(AFFES) Army Families Federation Employment Service          (DISN) Defense Information Systems Network
(AFIC) Armed Forces Inaugural Committee                      (DLA) Defense Logistics Agency
(AFOSI) Air Force Office of Special Investigations           (DoN) Department of the Navy
(AFRH) Armed Forces Retirement Home                          (DOT&E) Director of Operational Test and Evaluation
(AFRL) Air Force Research Laboratory                         (DOT OIG) Department of Transportation Office of
(AFV) Alternative Fuel Vehicle                               Inspector General
(AHR) Advanced Hawkeye Radar                                 (DOTMLPF) Doctrine, Organization, Training, Materiel,
(AIRP) Afghanistan Infrastructure Rehabilitation Project     Leadership and Education, Personnel and Facilities
(ANG) Army National Guard                                    (DR/EST) Dangerous Radical/Enduring Security Threats
(ANP) Afghan National Police                                 (DRMO) Defense Reutilization and Marketing Office
(ANSF) Afghan National Security Forces                       (DSCC) Defense Supply Center Columbus
(APATs) Anti-Piracy Assistance Teams                         (DSCC CM/UPS) Defense Supply Center Columbus
(ARI) Automatic Reset Induction                              Counterfeit Material/Unauthorized Product Substitution
(ARRA) American Recovery and Reinvestment Act                (ECV) Expanded Capacity Vehicle
(ASG-KU) Area Support Group – Kuwait                         (ECWCS) Extended Cold Weather Clothing System
(BAH) Basic Allowance for Housing                            Generation III
(BCA) Business Case Analysis                                 (EOD) Explosive Ordnance Disposal
(BUD/S) Basic Underwater Demolition/SEAL                     (ESAPI) Enhanced Small Arms Protective Inserts (bulletproof
(BUMED) Bureau of Medicine                                   vests)
(CCWS) Close Combat Weapons Systems                          (FAR) Federal Acquisition Regulation
(CID) Criminal Investigation Command                         (FCS) Future Combat System
(CITF) Criminal Investigation Task Force                     (FISCSI) Fleet and Industrial Supply Center Sigonella, Italy
(CIVPOL) Civilian Police                                     (FMS) Foreign Military Sales
(CJTF-HOA) Combined Joint Task Force – Horn of Africa        (FSRM) Facilities, Sustainment, Restoration, and
(CLU) Command Launch Unit                                    Modernization
(CM/UPS) Counterfeit Material/Unauthorized Product           (GAO) Government Accountability Office
Substitution                                                 (GFP) Government-furnished Property
(CONUS) Continental United States                            (GOJ) Government of Japan
(COR) Contracting Officer’s Representative                   (GSA) General Services Administration
(CRI) Civilian Reprisal Investigations                       (HAF/RM) Headquarters Air Force Resource Management
(CSTC-A) Combined Security Transition Command –              (HMMWV) High Mobility Multi-purpose Wheeled Vehicle
Afghanistan                                                  (HQ AMC) Headquarters, U.S. Army Materiel Command
(CWC) Commission on Wartime Contracting                      (IBA) Interceptor Body Armor
(CWO) Chief Warrant Officer                                  (ICG) Interagency Coordination Group
(DCAA) Defense Contract Audit Agency                         (IED) Improvised Explosive Device
(DCIS) Defense Criminal Investigative Service                (IMCOM) Installation Management Command



                                                                                                                       127
October 1, 2009 to March 31, 2010
                                                                                                   Appendices



(INL) International Narcotics and Law Enforcement Affairs   (OCO) Overseas Contingency Operations
Bureau (U.S. Department of State)                           (OEF) Operation Enduring Freedom
(JFHQ-NCR) Joint Force Headquarters – National Capital      (OIF) Operation Iraqi Freedom
Region                                                      (O&M) Operations and Maintenance
(JIEDDO) Joint Improvised Explosive Device Defeat           (OMB) Office of Management and Budget
Organization                                                (OSD) Office of the Secretary of Defense
(JIOC) Joint Intelligence Operation Center                  (PACAF) Pacific Air Forces
(JTTF) Joint Terrorism Task Force                           (PAD) Public Access Defibrillators
(KOV-14) cryptographic card                                 (PEO-EIS) Program Executive Office for Enterprise
(KSV-21) cryptographic card                                 Information Systems
(LECIATF) Law Enforcement Combined Inter-Agency Task        (PII) Personally Identifiable Information
Force                                                       (PWC) Public Warehousing Company
(LOGCAP) Logistics Civil Augmentation Program               (RATB) Recovery Accountability and Transparency Board
(MDW) Military District of Washington                       (RC) Reserve Component
(MER) Mission Essential Requirements                        (SAIC) Science Applications International Corporation
(MILCON) Military Construction                              (SDD) System Development and Demonstration
(MLSD) Missing, Lost, Stolen, or Damaged                    (SIGIR) Special Inspector General for Iraq Reconstruction
(MNF-I) Multi-National Forces-Iraq                          (SLICC) Senior Leaders In-Transit Conference Capsule
(MOI) Ministry of the Interior                              (SLIP) Senior Leaders In-Transit Pallet Program
(MOLLE) Modular Lightweight Load-Carrying Equipment         (STE) Secure Terminal Equipment
(MORD) Miscellaneous Obligation/Reimbursement               (TADSS) Training Aids, Devices, Simulators and Simulations
Documents                                                   (TRADOC) Training and Doctrine Command
(MPFU) Major Procurement Fraud Unit                         (USAAA) U.S. Army Audit Agency
(NAB) Naval Amphibious Base                                 (USACE) U.S. Army Corps of Engineers
(NATO) North Atlantic Treaty Organization                   (USACIL) United States Army Criminal Investigation
(NAVAUDSVC) Naval Audit Service                             Laboratory
(NAVSEA) Naval Sea Systems Command                          (USAF) U.S. Air Force
(NAVSPECWARCOM) Naval Special Warfare Command               (USAID) U.S. Agency for International Development
(NCIS) Naval Criminal Investigative Service                 (USCENTCOM) U.S. Central Command
(NCOER) Non-Commissioned Officer Evaluation Report          (USD [AT&L]) Under Secretary of Defense for Acquisition,
(NEXCOM) Navy Exchange                                      Technology, and Logistics
(NJTTFs) National Joint Terrorism Task Force                (USD(C)/CFO) Under Secretary of Defense (Comptroller)/
(NMCI) Navy/Marine Corps Intranet                           Chief Financial Officer
(NTV) Nontactical Vehicle                                   (USTRANSCOM) U.S. Transportation Command
(OCCL) Office of Communications and Congressional           (WRM) War Reserve Materiel
Liaison                                                     (ZAI) Zerene Aerospace Inventories, Inc.
(OCIE) Organizational Clothing and Individual Equipment




128
                                                                                        Semiannual Report to the Congress
Key IG Accomplishments During this Reporting Period

RESULTS IN KEY CATEGORIES

SUMMARY OF AUDIT ACTIVITIES
Reports Issued...........................................................................................................52
Monetary Benefits
       Recommendations Made on Funds Put to Better Use..........................$4.2 billion
       Achieved Monetary Benefits (Funds Put to Better Use).....................$195 million

SUMMARY OF INVESTIGATIVE ACTIVITIES1
Total Returned to the U.S. Government..........................................................$1.9 billion
        Civil Settlements................................................................................$11 million
        Civil Judgments.................................................................................$1.8 billion
        Administrative Recoveries2..................................................................$5 million
        Recovered Government Property.................................................$107 thousand
Investigative Cases
        Indictments...................................................................................................159
        Convictions...................................................................................................122
        Suspensions..................................................................................................112
        Debarments....................................................................................................40

Administrative Investigations
Cases Received........................................................................................................506
Cases Closed...........................................................................................................432       Department of Defense 


       Senior Official Investigations.........................................................................153                   Inspector General 


       Reprisal Cases..............................................................................................279
                                                                                                                                   400 Army Navy Drive 


SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES                                                                                       Arlington, VA 22202-4704 


Existing and Proposed Regulations Reviewed..........................................................148
Evaluation Reports Issued...........................................................................................4                 www.dodig.mil 


Inspector General Subpoenas Issued.......................................................................199

SUMMARY OF INTELLIGENCE ACTIVITIES                                                                                             Defense Hotline 1.800.424.9098 


Intelligence Reports Issued..........................................................................................4

SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES
Assessment Reports Issued.........................................................................................3

SUMMARY OF DEFENSE HOTLINE ACTIVITIES
Contacts...............................................................................................................7,965
      CasesOpened............................................................................................1,141
      Cases Closed.............................................................................................1,026




1 Includes investigations conducted jointly with other law enforcement organizations.
2 Includes contract cost adjustments, military non-judicial punishments, and voluntary contractor disclosures.
This report, as well as audit reports and testimony text, are available on the Internet at:
          Additional information on or copies of this report may be obtained by contacting:

                             Department of Defense Inspector General
                       Office of Communications and Congressional Liaison
                        400 Army Navy Drive, Arlington, VA 22202-4704
